/
\

/
?

/
'n

7

v. ■

\

APPENDIX B

A

t

\
J

OPINION OF THE SEVENTH CIRCUIT

\
l

f

.1

y

*
r

;
\
y

*5

>
/
/

J

\

43
/

Mrttteit JShrfes Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 8, 2021
Decided June 15, 2021
Before
DIANE S. SYKES, Chief Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 20-3486
WILLIAM A. WHITE,
Petitioner-Appellant,

Appeal from the United States District
Court for the Southern District of Illinois.
No. 19-CV-1217-SPM

v.
DANIEL SPROUL,
Respondent-Appellee.

Stephen P. McGlynn,

Judge.

ORDER
A federal jury in the Northern District of Illinois convicted William White of one
count of solicitation to commit a crime of violence (unlawful influence on a juror) in
violation of 18 U.S.C. §§ 373,1503. No. 08-cr-851 (N.D. Ill.). The district court sentenced
White to 42 months' imprisonment. White's first motion to vacate his sentence was
denied, No. 13-cv-09042 (N.D. Ill. May 4, 2016), and this court declined to certify an
appeal, No. 16-2108 (7th Cir. Feb. 7, 2017). White has twice unsuccessfully sought
permission to file a successive collateral attack. No. 17-1143 (7th Cir. Feb. 9, 2017);
No. 18-1899 (7th Cir. May 17, 2018).
Now White, imprisoned in the Southern District of Illinois, has filed this habeas
action-under-28-U.STGr§§-2255(e)/-2241—Thedistrictcourt-however/-determined-thata-44-

Page 2

No. 20-3486

motion to vacate, filed in the sentencing court (i.e., the Northern District), is White's
exclusive remedy; habeas review is unavailable. See 28 U.S.C. § 2255(e). Of course, a
new § 2255 motion would require our advance authorization. See id. § 2255(h). Rather
than seeking that authorization, however, White appeals, insisting that the district court
erred.
Yet the district court was doubtless correct to dismiss White's habeas petition.
White seeks to rely on United States v. Davis, 139 S. Ct. 2319 (2019), which held that the
residual clause of 18 U.S.C. § 924(c) is unconstitutionally vague. White says that after
Davis, the crime of influencing a juror, 18 U.S.C. § 1503, no longer qualifies as a crime of
violence under the solicitation statute, id. § 373. As the district court reasoned, however,
Davis is a constitutional case, so claims arising under it are amenable to review in an
initial § 2255 motion or, in appropriate cases, a successive motion under § 2255(h). Higgs
v. Watson, 984 F.3d 1235,1239-40 (7th Cir. 2021) (concluding that "at bottom, Davis
announced a constitutional decision," and so "we cannot say there is anything
structurally 'inadequate' or 'ineffective' about § 2255 as a remedy for petitioners ...
pursuing relief based on Davis's constitutional holding" (cleaned up)); see In re
Davenport, 147 F.3d 605, 609-10 (7th Cir. 1998) (outlining general test for saving-clause
review under § 2255(e)).
In any event, § 373 does not contain language analogous to the residual clause, so
the core holding of Davis would not apply here. Section 373 criminalizes solicitation to
commit "a felony that has as an element the use, attempted use, or threatened use of
physical force against property or against the person of another." In other words, its
language closely mirrors that of the elements clause of § 924(c), which Davis left
untouched.
White counters that he is relying on a different aspect of the Davis opinion. He
says that Davis confirms that courts must apply the categorical approach in analyzing
whether a felony offense qualifies as a crime of violence under any part of § 924(c),
including its elements clause. Because § 373 has an analogous elements clause, White
says, courts are required to apply the categorical approach in analyzing whether the
felony solicited has as an element the use, attempted use, or threatened use of physical
force. See United States v. Gillis, 938 F.3d 1181,1199-1202 (11th Cir. 2019). And according
to White, unlawfully influencing a juror does not categorically require force.
To be sure, in Davis the Supreme Court rejected the government's contention
thaF§ 924(c)'s residual clause might not require a categorical analysis after all (which, if
-45-

Page 3

No. 20-3486

accepted, might have saved the clause from a finding of vagueness). But in rejecting
that contention, the Court recognized that the categorical approach to § 924(c) was wellestablished, and that the government's proposed approach was novel: "For years,
almost everyone understood § 924(c)(3)(B) to require" the categorical approach. Davis,
139 S. Ct. at 2326. And in this circuit specifically, we have long applied the categorical
approach in determining whether a statute qualifies as a crime of violence under the
elements clause of § 924(c). See United States v. Cardena, 842 F.3d 959, 996-97 (7th Cir.
2016) (citing Taylor v. United States, 495 U.S. 575, 600 (1990)).
In short, Davis did not change our application of the categorical approach to
statutes containing elements-clause language. So White was previously free to raise an
argument—under Taylor—that unlawfully influencing a juror is not categorically a
crime of violence under § 373 during his trial, direct appeal, or first collateral attack. His
failure to do so does not render § 2255 inadequate or ineffective. See, e.g., Liscano v.
Entzel, 839 F. App'x 15,17 (7th Cir. 2021) (concluding that "§ 2255 does not suffer from
the sort of structural problem that allows [petitioner] to invoke § 2241" where petitioner
could have earlier obtained "a decision on the same line of argument he now presents").
Accordingly, we summarily AFFIRM the district court's judgment.

-46-

s

i

;

i

5

r
f

L.

i

>

i

APPENDIX C

■)

y

r

/

OPINION OF THE DISTRIGT COURT
/

2020 US Dist LEXIS 226429 (7th Cir 2020)
i

/
t

I

\

■

;

l

V

\
)

/

i

*/
/•
/
v

\
J

i

\

47
/

i

(

Case 3:i9-cv-0l217-SPM Document 15 Filed 12/03/20 Page 1 of 10 Page ID #115

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

WILLIAM A. WHITE,
Petitioner,
Case No. 19-CV-1217-SPM

v.
D. SPROUL,
Respondent.

MEMORANDUM AND ORDER
McGLYNN, District Judge:
Petitioner William A. White (“White”) is incarcerated at the USP-Marion. On
February 21, 2013, White was found guilty in the Northern District of Illinois, 08CR-851, and was sentenced to 42 months, concurrent with sentence imposed in 08CR-54, Western District of Virginia. White filed this habeas corpus action pursuant
to 28 U.S.C. §2241 to challenge the constitutionality of his confinement - in particular
his conviction and sentence for solicitation to commit crime of violence/influencing
juror, as well as claims of actual innocence. (Doc. 1). White argues, pursuant to United
States v. Davis, 139 S.Ct. 2319 (2019), that his offense of soliciting a violent felony no
longer qualifies as a “violent felony” for purposes of 18 U.S.C. § 373, and as such, he
is actually innocent and the conviction must be vacated. Id.
On May 6, 2020, Melissa Day, Federal Public Defender appointed in this
matter on March 16, 2020 (Doc. 3), filed a Motion to Withdraw as Attorney. (Doc. 6).
Within said Motion, Day alleged that her office was appointed to consider the
applicability of the Supreme Court’s finding that the residual clause of 18 U.S.C. §
1

-48-

Case 3:i9-cv-01217-SPM Document 15 Filed 12/03/20 Page 2 of 10 Page ID #116

924(c) was unconstitutional to White’s assertions. See Davis, 139 S.Ct. 2319.
However, because White was convicted of violating 18 U.S.C. § 373, solicitation to
commit a crime of violence, not 18 U.S.C. § 924 (c), Day was granted leave to
withdraw. (Doc. 8). White did not voluntarily dismiss this action; instead, he filed his
Notice of Intent to Proceed. (Doc. 9).
Respondent moved to dismiss the Petition arguing that White is not entitled
to relief under 28 U.S.C. § 2241. (Doc. 11). Respondent further claims that White
erroneously relies on Davis and that this Court does not have, subject matter
jurisdiction. Id. Wlnte filed a Response, arguing that this Court has jurisdiction
under 18 U.S.C. § 3231 and requesting that the Court apply Davis in a different way,
to the elements clause, not the residual clause. (Doc. 13).
Additional Facts and Procedural History
White was found guilty by a jury of one count of solicitation to commit crime of
violence/influencing juror in violation of 18 U.S.C. § 373, 1503. (Doc. 11-1). In
February 2013, he was sentenced to 42 months in the Northern District of Illinois
Case No. 08-cr-851 for soliciting the commission of a violent federal crime against a
juror. Id. at p. 2. The sentence was ordered to be served concurrently with the
sentence in 08-CR-54, Western District of Virginia. Id.
The charge was based upon a website, “Overthrow.com”, created and
maintained by White that purported to be affiliated with the “American National
Socialist Workers Party” (“ANSWP”). (Doc. 11-2, p.l). The ANSWP was an
organization that, according to the Overthrow.com website, claimed was comprised
____of a Vnnvergence of former [white supremacy] ‘movement’ activists who grew
2

-49-

Case 3:19-cv-01217-SPM Document 15 Filed 12/03/20 Page 3 of 10 Page ID #117

disgusted with the general garbage that ‘the movement’ has attracted and who
formed the ANSWP under the Command of Bill White.” (Doc. 11-2, pp. 1-2). Members
of the ANSWP were described as “National Socialists ... who fight for white working
people.” (Doc. 11-2, p. 2).
According to the Indictment, between September 11, 2008 and October 11,
2008, White engaged in felony conduct that has an element the use, attempted use,
or threatened use of force against the person of Juror A1, in violation of the laws of
the United States, and under circumstances corroborative of that intent, solicited and
otherwise endeavored to persuade another person to injure Juror A on account of a
verdict assented to by Juror A, in violation of Title 18, United States Code Section
1503. Id. Specifically, as part of the solicitation, inducement and endeavor to
persuade, on September 11, 2008 White caused to be displayed on the front page of
“Overthrow.com”, a posting entitled, “The Juror Who Convicted Matt Hale”, which
stated: “Gay anti-racist [Juror A] was a juror who played a key role in convicting Matt
Hale. Born [date], [he/she] lives at [address] with [his/her] gay black lover and
[his/her] cat [name]. [His/Her] phone number is [phone number], cell phone [phone
number], and [his/her] office is [phone number].”. Id. As farther part of the
solicitation, inducement, and endeavor to persuade, on September 12, 2008, White
caused to be displayed on the frontpage of “Overthrow.com” a posting entitled, “[Juror
A] Update — Since They Blocked the first photo”. (Doc. 11-2, p. 3). This posting read:

1 Juror A was foreperson of the jury that convicted Matthew Hale, the leader of a white supremacist
organization known as the World Church of the Creator, with multiple counts of solicitation of the
murder of United States District Judge Joan Humphrey Lefkow and obstruction of justice in the
Northern District of Illinois.

3
-50-

Case 3:i9-cv-01217-SPM Document 15 Filed 12/03/20 Page 4 of 10 Page ID #118
."v

“Gay anti-racist [Juror A] was a juror who played a key role in convicting Matt Hale.
Born [date], [he/she] lives at [address] with [his/her] gay black lover and [his/her] cat
[name]. [His/Her] phone number is [phone number], cell phone [phone number], and
[his/her] office is [phone number]. Note that [University A] blocked much of [Juror
A’s] information after we linked to [his/her] photograph.”. Id.
/

Appeal and Resentencing
White unsuccessfully appealed his conviction in a timely fashion. (Doc. 11). He
has also filed numerous post-conviction motions attacking his conviction, as well as
motions pursuant to Sections 2241 and 2255. Id.
Applicable Law
1. Jurisdiction
Generally, petitions for writ of habeas corpus under 28 U.S.C. § 2241 may not
be employed to raise claims of legal error in conviction or sentencing; they may only
challenge the execution of sentence. See Valona u. United States, 138 F.3d 693 (7th
Cir 2003). Thus, aside from the direct appeal process, a prisoner who has been
convicted in federal court is ordinarily limited to challenging his conviction and
sentence by bringing a motion pursuant to 28 U.S.C. § 2255 in the court which
sentenced him. See Kramer v. Olson, 347 F.3d 214 (7th Cir. 2003). He may not;
however, file a “second or successive” § 2255 motion unless a panel of the appropriate
court of appeals certifies that such motion contains either: (1) newly discovered
evidence “sufficient to establish by clear and convincing evidence that no reasonable
factfinder would have found the movant guilty of the offense”; or (2) “a new

4

-51"

Case 3:l9-cv-01217-SP.M Document 15 Filed 12/03/20 Page 5 of 10 Page ID #119

constitutional law, made retroactive to cases on collateral review by the Supreme
Court, that was previously unavailable.” 28 U.S.C. § 2255(h).
Under very limited circumstances, a prisoner may also challenge his federal
conviction or sentence under 28 U.S.C. § 2241. Section 2255(e) contains a “savings
, clause” (also referred to as the “safety-valve” clause, see Reynolds v. United States,
Case No. 18-cv-691 (M.D. Pa., April 4, 2018)), which authorizes a federal prisoner to
file a § 2241 petition where the remedy under § 2255 is “inadequate or ineffective to
test the legality of his detention.” 28 U.S.C. § 2255(e). See United States v. Prevatte,
300 F.3d 792 (7th Cir. 2002). The fact that a petitioner may be barred from bringing
a successive §2255 petition is not, in and of itself, sufficient to render it an inadequate
remedy. In re Davenport, 147 F.3d 605 (7th Cir. 1988)(§ 2255 limitation on filing
successive motions does not render it an inadequate remedy for a prisoner who had
filed a prior § 2255 motion).
Instead, under § 2241, a petitioner must demonstrate the inability of a § 2255
motion to cure the defect in the conviction because of a structural problem inherent
in § 2255. See Webster v. Daniels, 784 F.3d 1123 (7th Cir. 2015). “A procedure for
postconviction relief can be fairly termed inadequate when it is so configured as to
deny a convicted defendant any opportunity for judicial rectification of so
fundamental defect in his conviction as having been imprisoned for a nonexistent
offense.” Davenport, 147 F3d. at 611 {emphasis added).
Following Davenport and its progeny, the Seventh Circuit has developed a
three-part test for determining whether § 2255 is inadequate or ineffective so as to
trigger the savings clause:
5
-52-

Case 3:i9-cv-01217-SPM Document 15 Filed 12/03/20 Page 6 of 10 Page ID #120

(1) The federal prisoner must seek relief based upon a decision of
statutory interpretation, as opposed to a decision of constitutional
interpretation, which the inmate could raise in a second or
successive § 2255 motion;
(2) The statutory rule of law in question must apply retroactively to
cases on collateral review and could not have been invoked in a first
§ 2255 motion; and,
(3) A failure to afford the prisoner collateral relief would amount to an
error “grave enough” to constitute “a miscarriage of justice”.
See Worman v. Entzel, 953 F.3d 1004 (7th Cir. 2020); Montana v.'
Cross, 829 F.3d 775 (7th Cir. 2016); Season v. Marske, 926 F.3d 932
(7th Cir. 2019); Chazen v. Marske, 938 F.3d 851 (7th Cir. 2019);
Brown v. Caraway, 719 F.3d 583 (7th Cir. 2013).
2. Actual Innocence
White claims that he actually innocent and the conviction must be vacated.
(Doc.l). A credible claim of actual innocence “requires petitioner to support his
allegations of constitutional error with new reliable evidence—whether it be
r

exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial." Schlup v. Delo, 115 S. Ct. 851, 865 (1995).
The Schlup standard permits habeas review of defaulted claims only in the
“extraordinary case” where the petitioner has demonstrated that “more likely than
not, in light of the new evidence, no reasonable juror would find him guilty beyond a
reasonable doubt—or, to remove the double negative, that more hkely than not any
reasonable juror would have reasonable doubt.” House v. Bell, 126 S. Ct. 2064, 2077
(2006).

6
-53-

Case 3:19-cv-01217-SPM Document 15 Filed 12/03/20 Page 7 of 10 Page ID #121

The third element/factor of the three prong Davenport analysis regarding
“miscarriage of justice” is often equated to actual innocence. See Sawyer v. Whitley,
505 U.S. 333 (1992). Additionally, the “miscarriage of justice” exception is concerned
with actual as compared to legal innocence. Id. at 339.
More recently, the Supreme Court held in McQuiggin v. Perkins, that “a
credible showing of actual innocence may allow a prisoner to pursue his constitutional
claims on the merits, notwithstanding the existence of a procedural bar to relief.” 133
S. Ct. 1924, 1931 (2013). In so holding, the Supreme Court reaffirmed the Schlup
standard for a credible showing of actual innocence, cautioning that “tenable actualinnocence gateway pleas are rare” and describing the Schlup standard as
“demanding” and “seldom met.” McQuiggin, 133 S. Ct. at 1928.
Analysis
In the instant case, White’s Petition fails to satisfy the first Davenport
condition and his reliance on Davis is misplaced. White was neither convicted of a
gun offense nor was he convicted under Section 924(c)(3)(A). (Doc. 11-1). White was
charged and convicted of solicitation to commit a crime of violence under U.S.C. §§
373 and 1503. Section 1503 states in pertinent part:
“Whoever corruptly, or by threats of force, or by any threatening letter
or communication, endeavors to influence, intimidate, or impede any
grand or petit juror ... on account of any verdict or indictment assented
to by him ... shall be punished as provided in subsection (b).” 18 U.S.C.
§ 1503.
Davis held that the residual clause in

18 U.S.C. §924(c)(3)(B) is

unconstitutionally vague, violating “the twin constitutional pillars of due process and
separation of powers. Davis, 139 S.Ct at 2325. Section 924(c)(1)(A) provides for
7

-54-

Case 3:19-cv-01217-SPM Document 15 Filed 12/03/20 Page 8 of 10 Page ID #122

enhanced penalties for a person who uses or carries a firearm “during and in relation
to”, or who possesses a firearm “in furtherance of,” and federal crime of violence or
drug trafficking crime.” Section 924(c)(3) defines the term “crime of violence” as “an
offense that is a felony” and:
(A) Has an element the use, attempted use, or threatened use of physical
force against the person or property of another, [the “force clause”];
(B)That by its nature, involves a substantial risk that physical force
against the person or property of another may be used in the course
of committing the offense [the “residual clause”].
18 U.S.C. §924 (c)(3). After Davis, only a crime of violence that fits the definition set
out in the force clause of Section 924(c)(3)(A) will support an enhanced penalty.
In Davis, the Supreme Court concluded that the residual clause in 18 U.S.C. §
924 (c)(3)(B) was unconstitutionally vague. 139 S.Ct. 2324 (emphasis added).
Therefore, Davis is a case of constitutional interpretation. As such, a claim based on
Davis could be raised in a successive § 2255 motion if permission is timely sought and
obtained.2 His claim cannot be pursued in a §2241 Petition under the “savings
clause”. Because he fails to satisfy the first condition under Davenport, any review of
the second and third factors is unnecessary.
Petitioner’s assertion that jurisdiction is established in this case under 18
U.S.C. § 3231 is also erroneous and misguided. (Doc. 13). Section 3231 states in
pertinent part,
“The district courts of the United States shall have original
jurisdiction, exclusive of the courts of the States, of all
2 The Court makes no comment on the potential merits of White’s claims if he were to bring them in
t"he'contextmfa_successive§--2255-motion.----------------------------------- --- ---------_------------;______
8
-55-

■\'

Case 3:‘19-cv-01217-SPM Document 15 Filed 12/03/20 Page 9 of 10 Page ID #123

\

<.

offenses against the laws of the United States.” 18 U.S.C.
§ 3231.

i

j

Jurisdiction in the underlying criminal matter, to wit: U.S.A. v.'White, Case

y

No. 08-cr-851, Dkt. No. 5 (N.D. Ill. October 21, 2008), was appropriate under Section
3231 as it was a criminal matter and fell under the auspices of Criminal Procedure.
This pending matter, White v. Sproul, Case No. 19-cv-1217, Dkt. No. 1 (S.D. Ill, Nov.
,

v

‘

f

'

*

•

'

6, 2019) falls under the realm of habeas corpus cases and was filed as such. (Doc. 1)
\

Finally, White’s claims that he is actually innocent of the solicitation of a
■ '

'

/

, '
f-

V

.

(

-

violent felony are predicated upon the holding in Davis, and,are not predicated upon
}

newly discovered evidence and/or the factors set forth in Schlup. (Doc. 1). It is also
irrelevant as he cannot overcome the first Davenport factor, so there is no need to
examine the third any further.

7

Conclusion
V.

*

For the foregoing reasons, William A. White’s Petition for writ of habeas corpus (
y

under 28 U.S.C. § 224i (Doc. 1), is DENIED and this case is DISMISSED WITH
PREJUDICE
'-'N
V.

The Clerk of Court is directed to enter judgment accordingly.
\

'

It is not necessary for Petitioner to obtain a certificate of appealability from
this disposition of his § 2241 Petition. Walker v. O’Brien, 216 F.3d 626 (7th Cir. 2000).
r

If Petitioner wishes" to appeal, he may file a notice of appeal with this Court within ’

60 days of the entry of judgment. Fed. R. App. P. 4(a)(l)(B)(iii). A proper ancl timely/

filed motion pursuant to Federal Rule of Civil Procedure 59(e) may toll the 60-day
:
/

9
/

-56t

j

■

/

/
(

(
\

f

\

y

>

APPENDIX D
>
i

698 F 3d 1005 (7th Cir 2012)

l

>
/•

/

r

\

j

V\.

\
s.

t

v
'5

<r*

t

}
1

■r

■%

/

:

/-\

58

i

UNITED STATES OF AMERICA, Plaintiff-Appellant, Cross-Appellee, v. WILLIAM WHITE.
Defendant-Appellee, Cross-Appellant.
UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
698 F.3d 1005; 2012 U.S. App. LEXIS 22229; 40 Media L. Rep. 2589
Nos. 11-2150 & 11-2209
October 26, 2012, Decided
June 8, 2012, Argued
Editorial Information: Subsequent History
Rehearing denied by, Rehearing, en banc, denied by United States v. White, 2012 U.S. App. LEXIS
24969 (7th Cir. III., Dec. 3, 2012)US Supreme Court certiorari denied by White v. United States, 569 U.S.
913, 133 S. Ct. 1740, 185 L. Ed. 2d 802, 2013 U.S. LEXIS 2547 (Apr. 1, 2013)Petition denied by White
v. United States, 137 S. Ct. 260, 196 L. Ed. 2d 200, 2016 U.S. LEXIS 4798 (U.S., Oct. 3, 2016)Writ of
habeas corpus dismissed, Judgment entered by White v. True, 2018 U.S. Dist. LEXIS 116325 (S.D. III.,
July 11, 2018)
Editorial Information: Prior History
{2012 U.S. App. LEXIS 1}
Appeals from the United States District Court for the Northern District of Illinois, Eastern Division. No.
1:08-cr-00851-1-Lynn Adelman, Judge.United States v. White, 779 F. Supp. 2d 775, 2011 U.S. Dist.
LEXIS 42026 (N.D. III., Apr. 19,2011)
For UNITED STATES OF AMERICA, Plaintiff - Appellant (11-2150):
Michael Ferrara, Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Chicago, IL.
For WILLIAM WHITE. Defendant - Appellee (11-2150): Nishay
K. Sanan, Attorney, Chicago, IL.
For UNITED. STATES OF AMERICA, Plaintiff - Appellee
(11-2209): Michael Ferrara, Attorney, OFFICE OF THE UNITED STATES ATTORNEY,
Chicago, IL.
For WILLIAM WHITE. Defendant - Appellant (11-2209): Nishay
K. Sanan, Attorney, Chicago, IL.
. Judges: Before POSNER, FLAUM, and WILLIAMS, Circuit Judges.
Counsel

CASE SUMMARY
PROCEDURAL POSTURE: The U. S. Government appealed from the United States District Court for
the Northern District of Illinois, Eastern Division, which granted defendant’s Fed. R. Crim. P. 29 motion
for acquittal, finding that the government failed to present sufficient evidence for a reasonable juror to
conclude that defendant was guilty of criminal solicitation, and that defendant's speech was protected by
the First Amendment. Defendant filed a cross-appeal.Fed. R. Evid. 404(b) admission of defendant's
white supremacist website posts concerning people other than the target of his alleged criminal
solicitation under 18 U.S.C.S. § 373(a) was not an abuse of discretion because the posts were close
enough in time to be relevant and the probative value of the posts was particularly strong.

A07CASES

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-59-

13888084

OVERVIEW: The foreperson of a jury that convicted a white supremacist was "Juror A," the target of the
alleged solicitation in the case before the court. Reversing, the court concluded that a rational jury could
have found beyond a reasonable doubt that, based on the contents of defendant's white supremacist
website, its readership, and other contextual factors, defendant intentionally solicited a violent crime
against Juror A by posting Juror A's personal information on his website. The court pointed out that
criminal solicitation in violation of 18 U.S.C.S. § 373(a) was simply not protected by the First
Amendment. The court rejected defendant's challenge to the district court's Fed. R. Evid. 404(b)
admission of defendant's website posts concerning people other than Juror A. The probative value of
those posts was particularly strong, in that they helped the government to satisfy its burden of producing
evidence of circumstances strongly corroborative of defendant's intent. In addition the court ruled that
defendant was not entitled to a new trial.
OUTCOME: The judgment of acquittal entered by the district court was reversed, the conviction was
reinstated, and the case was remanded for sentencing. Defendant's cross-appeal was dismissed.
LexisNexis Headnotes
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Solicitation > General
Overview
See 18 U.S.C.S. § 373.
Criminal Law & Procedure > Criminal Offenses > Miscellaneous Offenses > Obstruction of Justice
> General Overview
See 18 U.S.C.S. § 1503.
Criminal Law & Procedure > Trials > Motions for Acquittal
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review > General
Overview
Evidence > Procedural Considerations > Burdens of Proof > Allocation
A judgment of acquittal must be granted when the evidence is insufficient to sustain a conviction. Fed. R.
Crim. P. 29(a). The United States Court of Appeals for the Seventh Circuit's review is de novo. The
Seventh Circuit's job, however, is not to reweigh the evidence nor second-guess the jury's credibility
determinations. Rather, the court views the evidence in the light most favorable to the government and
asks whether any rational jury could have found the essential elements of the charged crime beyond a
reasonable doubt. The court will set aside a jury's guilty verdict only if the record contains no evidence,
regardless of how it is weighed, from which a jury could have returned a conviction. But the defendant
bears a heavy burden on appeal, as he must demonstrate that no rational trier of fact could decide
beyond a reasonable doubt that he committed the offense charged.
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Solicitation > General
Overview
Criminal Law & Procedure > Juries & Jurors > Province of Court & Jury > Factual Issues
Criminal Law & Procedure > Trials > Burdens of Proof > Prosecution
Criminal Law & Procedure > Scienter > Specific Intent
Evidence > Procedural Considerations > Circumstantial & Direct Evidence

A07CASES

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-60-

13888084

Typically, in a solicitation prosecution, the government will satisfy its burden of strongly corroborating the
defendant's intent by introducing evidence showing that the defendant: (1) offered or promised payment
or some other benefit to the person solicited; (2) threatened to punish or harm the solicitee for failing to
commit the offense; (3) repeatedly solicited the commission of the offense or expressly stated his
seriousness; (4) knew or believed that the person solicited had previously committed a similar offense; of
(5) acquired weapons, tools or information, or made other preparations, suited for use by the solicitee.
These factors are not exclusive or conclusive indicators of intent, but they are representative examples
of the types of circumstantial evidence that a rational jury could rely on to corroborate the defendant's
intent. The existence of strongly corroborating circumstances is a question of fact for the jury.
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Solicitation > Elements
Criminal Law & Procedure > Trials > Burdens of Proof > Prosecution
Criminal Law & Procedure > Scienter > Specific Intent
18 U.S.C.S. § 373 requires proof of intent "that another person" commit the felony, and a specific
person-to-person request is not required.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Scope of
Freedom
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Solicitation > General
Overview
Criminal solicitations are simply not protected by the First Amendment. Offers to engage in illegal
transactions are categorically excluded from First Amendment protection.
Criminal Law & Procedure > Trials > Motions for Acquittal
Criminal Law & Procedure > Postconviction Proceedings > Motions for New Trial
If the court enters a judgment of acquittal after a guilty verdict, the court must also conditionally
determine whether any motion for a new trial should be granted if the judgment of acquittal is later
vacated or reversed. Fed. R. Crim. P. 29(d)(1).
Constitutional Law > Bill of Rights > Fundamental Rights > Procedural Due Process > Scope of
Protection
Criminal Law & Procedure > Juries & Jurors > General Overview
Criminal Law & Procedure > Juries & Jurors > Voir Dire > General Overview
Criminal Law & Procedure > Trials > Defendant's Rights > Right to Fair Trial
A court weighing the need for an anonymous jury must balance the defendant's interest in preserving the
presumption of innocence and in conducting a useful voir dire against the jurors' interest in their own
security and the public's interest in having a jury assess the defendant's guilt or innocence impartially.
Factors bearing on the propriety of an anonymous jury include the defendant's involvement in organized
crime; his participation in a group with the capacity to harm jurors; whether he previously has attempted
to interfere with the judicial process; the severity of the punishment that the defendant would face if
convicted; and whether publicity regarding the case presents the prospect that the jurors' names could
become public and expose them to intimidation or harassment.
Criminal Law & Procedure > Trials > Judicial Discretion
Criminal Law & Procedure > Appeals > Reversible Errors > Juries & Jurors
Criminal Law & Procedure > Appeals > Standards of Review > Abuse of Discretion > General

A07CASES

3

-© 2021. Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-61-

13888084

Overview
The United States Court of Appeals for the Seventh Circuit reviews the decision to use an anonymous
jury only for an abuse of discretion, remaining particularly deferential to the district court's substantial
discretion in this area. Even if the district court errs in empanelling an anonymous jury, a new trial is
unwarranted where such error was harmless, such as when voir dire is extremely thorough, or when the
jurors are told that their names are withheld to prevent out-of-court contact, not out of concern for juror
safety, in combination with other factors mitigating prejudice.
Criminal Law & Procedure > Appeals > Standards of Review > Abuse of Discretion > Evidence
Evidence > Relevance > Prior Acts, Crimes & Wrongs
Fed. R. Evid. 404(b) prohibits the admission of evidence of prior bad acts to show that the defendant's
character is consistent with a propensity to commit the charged crime; however, it allows the court to
admit evidence of a defendant's prior acts for other permissible, non-propensity purposes, such as intent.
In order to be admissible, such evidence must: (1) be directed toward establishing a matter in issue other
than the defendant's propensity to commit the crime charged; (2) show that the other act is similar
enough and close enough in time to be relevant to the matter in issue; (3) be sufficient to support a jury
finding that the defendant committed the similar act; and (4) have probative value that is not
substantially outweighed by the danger of unfair prejudice. The United States Court of Appeals for the
Seventh Circuit reviews a district court's Rule 404(b) admission for abuse of discretion.
Criminal Law & Procedure > Appeals > Deferential Review > General Overview
Evidence > Relevance > Confusion, Prejudice & Waste of Time
The United States Court of Appeals for the Seventh Circuit gives special deference to the district court's
assessment of the balance between probative value and prejudice because that court is in the best
position to make such assessments.
Criminal Law & Procedure > Appeals > Standards of Review > Plain Error > Jury Instructions
Plain error review applies when counsel fails to object, on the record, to the judge's refusal to tender the
defendant's instructions and clearly state the reasons for his or her objections. Fed. R. Crim. P. 30(d).
Criminal Law & Procedure > Jury Instructions > Objections
So long as defense counsel alerts the court and the opposing party to the specific grounds for the
objection in a timely fashion, then there is no utility in requiring defense counsel to object again after the
court has made its final ruling. But in the case of the court's refusal to give a proposed instruction, some
of the cases of the United States Court of Appeals for the Seventh Circuit have suggested that objections
must be made after a ruling is made, or at least after the district court indicates how it intends to rule.
And counsel can simply object by stating that he or she objects and incorporates arguments previously
made.
Criminal Law & Procedure > Jury Instructions > Requests to Charge
Fed. R. Crim. P. 30(b) provides that court must inform the parties before closing arguments how it
intends to rule on requested instructions.
Criminal Law & Procedure > Jury Instructions > Particular Instructions > Theory of Defense
Evidence > Procedural Considerations > Burdens of Proof > Allocation

A07CASES

4

.©2021. Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-62-

13888084

To be entitled to a particular theory of defense instruction, the defendant must show the following: (1) the
instruction is a correct statement of the law, (2) the evidence in the case supports the theory of defense,
(3) that theory is not already part of the charge, and (4) a failure to provide the instruction would deny a
fair trial.
Criminal Law & Procedure > Appeals > Reversible Errors > Jury Instructions
The United States Court of Appeals for the Seventh Circuit will not find reversible error in jury
instructions if, taken as a whole, they fairly and accurately inform the jury about the law.
Opinion

(698 F.3d 1008} Per Curiam. William White was charged with soliciting the commission of a violent
federal crime against a juror in violation of 18 U.S.C. § 373. The alleged solicitations at issue were
messages that White posted to a website that he created to advance white supremacy, which
included White's 2005 statement that "[ejveryone associated with the Matt Hale trial has deserved
assassination for a long time," and his 2008 publication of information related to the foreperson,
"Juror A," of the jury that convicted Hale. The 2008 post disclosed Juror {2012 U.S. App. LEXIS
2}A's home address and mobile, home, and work phone numbers, though it did not contain an
explicit request for Juror A to be harmed.
White was tried and convicted by a jury. White then filed a Rule 29 motion for entry of a judgment of
acquittal, arguing that the evidence was insufficient to convict him of solicitation. The district court
granted the motion, finding that the government failed to present sufficient evidence for a reasonable
juror to conclude that White was guilty of criminal solicitation, and that White's speech was protected
by the First Amendment. The government appeals that ruling, and White has filed a cross-appeal
urging a new trial if we reverse the judgment of acquittal. After reviewing the trial record, we
conclude that a rational jury could have found beyond a reasonable doubt that, based on the
contents of the website, its readership, and other contextual factors, White intentionally solicited a
violent crime against Juror A by posting Juror A's personal information on his website. Criminal
solicitation is not protected by the First Amendment, and so we reverse White's acquittal and
reinstate his conviction. Also, because White is not entitled to a new trial, {2012 U.S. App. LEXIS
3}we remand for sentencing.
I. BACKGROUND
To best understand the facts of this case it is helpful to have some basic familiarity with another case
involving Matthew Hale, a white supremacist convicted of solicitation under 18 U.S.C. § 373. See
United States v. Hale, 448 F.3d 971 (7th Cir. 2006) (per curiam).
The defendant in that case led a white supremacist organization known as the World Church of the
Creator ("World Church"). A religious organization operating under the name "Church of the Creator"
sued World Church for trademark infringement in federal court. Both parties moved for summary
judgment and Judge Joan Lefkow granted the motion of Hale's organization, World Church. But we
reversed and remanded for judgment to be entered in favor of Church of the Creator. After Judge
Lefkow abided by our instructions, Hale informed his followers that they were "in a state of war with
this federal judge." Id. at 978. He then sent an email to Tony Evola, a cooperating witness who had
infiltrated World Church, requesting the home address of Judge Lefkow. One day later, Evola and

A07CASES

5

. © 2021Jslatthew. Bender. & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-63-

13888084

Hale met. Evola asked Hale if they were "gonna exterminate the rat." Hale answered, "I'm gonna
fight within the law" {2012 U.S. App. LEXIS 4}but "that {698 F.3d 1009} information’s been . . .
provided" so "fi]f you wish" to "do anything yourself, you can, you know?" Evola responded,
"Consider it done," to which Hale replied, "Good." Id. at 979. A jury convicted Hale for, among other
things, criminally soliciting harm to Judge Lefkow, and he received a sentence of 40 years in prison.
Id. at 982. The foreperson of that jury was "Juror A," the target of the alleged solicitation in this case.
William White is an avid supporter of Matthew Hale. An active white supremacist, White created
and served as editor of a website, Overthrow.com, which sought to advance that cause. On February
28, 2005, only hours after Judge Lefkow's husband and mother were tragically murdered, 1 White
applauded the crimes on his website. He wrote, "Everyone associated with the Matt Hale trial has
deserved assassination for a long time .... In my view, it was clearly just, and I look forward to
seeing who else this new white.nationalist group of assassins kills next." Not long afterward, in March
2005, White described an email, circulating on the internet, that contained the personal identification
information of the FBI agents and prosecutors ("scumbags") who investigated {2012 U.S. App.
LEXIS 5}and prosecuted Hale. White noted that they might be the "next targets of the unknown
nationalist assassin who killed the family of Chicago Judge Joan Lefkow." He explained on his
website that he would not disclose the agents' and prosecutors' personal information, however,
because there was "so great a potential for action linked to such posting."
On February 13, 2007, White published on his website the address of Elie Wiesel, an internationally
known Holocaust survivor, "In Case Anyone Was Looking For Him." White praised Eric Hunt, "a fan
of [the] website," as a "loyal soldier" for attacking Wiesel a few days earlier, on February 1. White
presented similar information about six black teenagers in Jena, Louisiana in September 2007,
suggesting that they be "lynch[ed]" for their involvement in a schoolyard fight that garnered national
attention due to its racial overtones. He continued this trend in 2008 by posting the personal
information of individuals whom he labeled "anti-racist" or "enemies" of white supremacy. One such
post, "Kill Richard Warman," advocated the murder of a noted Canadian {2012 U.S. App. LEXIS
6}civil rights lawyer. That particular message could be accessed from any page on the website
because it could be retrieved using a hyperlink located in a static column of the site, called "Top
Articles." Another post-"Kill This Nigger?"-contained images of and articles about then-presidential
candidate Barack Obama. One article displayed a photograph of the presidential candidate with
swastika-shaped crosshairs superimposed over his face,2 and stated that "White people must deny
[Barack Obama] the presidency ... by any means necessary."
Those postings, however, were mere prelude to the conduct that got White indicted for criminal
solicitation. On September 11, 2008, White authored a post titled, "The Juror Who Convicted Matt
Hale." In it, he disclosed personal, identifying information about Juror A. The post read:
Gay anti-racist [Juror A] was a juror who played a key role in convicting Matt {698 F.3d 1010}
Hale. Born [date], [he/she] lives at [address] {2012 U.S. App. LEXIS 7}with [his/her] gay black
lover and [his/her] cat [name]. [His/Her] phone number is [phone number], cell phone [phone
number], and [his/her] office is [phone number].The post further stated that the "gay Jewish
[Juror A], who has a gay black lover and ties to professional antiracist groups, and who also
personally knew [an individual] killed by Ben Smith, a follower of Hale, was allowed to sit on his
jury without challenge and played a leading role in inciting both the conviction and harsh
sentence that followed.” The entry featured a color photograph of Juror A.
One day later, White uploaded an identical message to a different portion of the website. The post
carried the title: "[Juror A] Updated-Since They Blocked the first photo." Apparently, Juror A's
employer had blocked public access to the page on its website that contained information about

A07CASES

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions ‘
"and terms and conditions of the Matthew Bender Master Agreement.

-64-

13888084

Juror A and the color photograph of the juror that appeared in White's first post. White's second post
stated, "Note that [Employer] blocked much of [Juror A's] information after we linked to [his/her]
photograph." The photograph of Juror A that appeared was embedded in the Overthrow server so
that only White could remove it.
On October 22, {2012 U.S. App. LEXIS 8}2008, a grand jury indicted White for soliciting the
commission of a violent federal offense against Juror A in violation of 18 U.S.C. § 373. Theindictment charged that White had "solicited and otherwise endeavored to persuade another person
to injure Juror A on account of a verdict assented to by Juror A, in violation of Title 18, United States
Code 1503." See also 18 U.S.C. § 1503 (outlawing injuring or threatening to injure a federal juror). A
grand jury returned a superseding indictment against White on February 10, 2009. White moved to
dismiss the indictment, and the district court granted his motion after finding that White's internet
postings were protected speech and that the indictment failed to sufficiently allege "corroborating
circumstances" of White's criminal intent.
The government appealed. We reversed because the indictment was facially valid and White's First
Amendment rights were protected by the government's burden to prove beyond a reasonable doubt
that White had the requisite intent for criminal solicitation. United States v. White, 610 F.3d 956, 961
(7th Cir. 2010) (per curiam). As we explained:
The government informed us at oral argument that it has further evidence (2012 U.S. App.
LEXIS 9}of the website's readership, audience, and the relationship between White and his
followers which will show the posting was a specific request to White’s followers, who understood
that request and were capable and willing to act on it. This evidence is not laid out in the
indictment and does not need to be. The existence of strongly corroborating circumstances
evincing White's intent is a jury question.... The government has the burden to prove, beyond a
reasonable doubt, that White intended, through his posting of Juror A's personal information, to
request someone else to harm Juror A. After the prosecution presents its case, the court may
decide that a reasonable juror could not conclude that White's intent was for harm to befall Juror
A, and not merely electronic or verbal harassment./d. at 962 (internal citations omitted).
On remand, White was tried before an anonymous jury. The government offered as evidence the
postings made by White that we described above. The government also called several witnesses.
FBI Special Agent Paul Messing testified that he installed highly sophisticated computer software on
the computer and server that (698 F.3d 1011} agents seized from White. The software allowed
{2012 U.S. App. LEXIS 10}the FBI to search for specific articles and words that White personally
posted on the Overthrow website. Officer John Dziedzic explained that an internet user who visited
the Overthrow website before the site had been disabled could have seen all of White's postings.
The government also presented the testimony of Juror A. That testimony established that at
approximately 9:30 a.m. on September 11, 2008, Juror A received a phone call from a telephone
registered to White's wife. The male caller asked Juror A to confirm Juror A's name, date of birth,
address, and service on the jury that convicted Hale. The caller did not, however, threaten Juror A.
Less than thirty minutes after the call was disconnected, White posted Juror A's personal information
on Overthrow. Juror A almost immediately began receiving harassing text messages. The messages
conveyed things like "sodomize Obama," "Bomb China," "kill McCain," and "cremate^ Jews." Juror A
testified that these messages were "all... really upsetting." Juror A reported receiving text
messages of the same nature for the next few days. Juror A was not personally threatened, stalked,
or physically harmed after White's initial post.
FBI Special {2012 U.S. App. LEXIS 11}Agent Maureen Mazzola also testified at trial. She described
what an internet user who viewed the Overthrow website on September 11, 2008 would have seen.

A07CASES

7

2Q2l.Matthew.Bendet.& Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-65-

13888084

According to her, on that day the site's visitors would have immediately been directed to the post
about Juror A. They would not have been able to see White's other posts unless they accessed them
via hyperlink or viewed other portions of the website. According to Agent Mazzola, a user would have
"to be either looking for it or reading every single article on the website" to access White's other
posts.
The last two witnesses the government called to testify were Phil Anderson and Michael Burks. Both
were former members of the American National Socialist Workers Party ("ANSWP"), a white
supremacist organization that White organized and directed. After his home was searched and his
computer seized, White asked Anderson to reach out to other white supremacists to find out if they
were aware of any plans to harm Juror A. White expressed concern that "someone may be trying to
do something" to Juror A. Anderson reported back that his associates had not seen the Juror A post
and were not aware of any plans to harm Juror A.
On October 29, {2012 U.S. App. LEXIS 12}2008, White was arrested. After his arrest, he sent letters
to both Anderson and Burks. White requested that Anderson testify regarding "the fact that you have
never done anything criminal, and do not interpret articles on Overthrow.com as criminal
instructions." And White asked Burks to testify about ANSWP's "rejection of criminal activity and
violent crime," and thanked him for his support. At trial, both Anderson and Burks maintained that
White never instructed them to commit criminal acts and they never interpreted anything he posted
on Overthrow as instructions to harm Juror A in particular.
Burks, however, acknowledged that some violent white supremacists-of whom White had knowledge
and approved-might have looked to Overthrow for criminal instructions. He cited the Richard
Warman post as an example. According to Burks, in addition to authoring that post, White disclosed
Warman's information during a radio show and stated at that time that "this bastard has lived way too
long. If somebody wants to kill him, here's his address." Burks testified that White repeated this
sentiment "two or three times," and White "really didn't care {698 F.3d 1012} if something did
happen." Burks interpreted the Warman, {2012 U.S. App. LEXIS 13}Wiesel, and Jena Six posts as
requests that people go out and do violent things. But he expressly denied ever seeing anything on
Overthrow or hearing anything from White that he understood as a call to harm Juror A.
At the close of the evidence, the district court instructed the jury that the government must prove the
following elements beyond a reasonable doubt:
First, that the defendant solicited, commanded, induced, or otherwise endeavored to persuade
another person to carry out a violent federal crime. Second, with strongly corroborative
circumstances, that the defendant intended for another person to commit a violent federal
crime.The court also crafted a First Amendment instruction, which combined two of White's six
proposed First Amendment instructions. The court explained:
The First Amendment protects vehement, scathing, and offensive criticism of others; however, a
solicitation, command, inducement, or endeavor to persuade another to engage in conduct
constituting a violent felony as defined in these instructions is not protected by the First
Amendment.
If the purpose of the speaker or the tendency of his words are directed to ideas or consequences
remote from the commission of {2012 U.S. App. LEXIS 14}the criminal act, then the speech is
protected by the First Amendment.
Speech is protected unless both the intent of the speaker... and the tendency of his words was
to produce or incite an imminent lawless act.

A07CASES

8

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-66-

13888084

An imminent lawless act is one that is likely to occur.
A statement which is mere political hyperbole or an expression of opinion does not constitute a
solicitation.
If you find that the defendant's statements were no more than an indignant or extreme method of
stating political opposition to the juror in the Matthew Hale case, then you are justified in finding
that no solicitation was, in fact, made and you may find the defendant not guilty.
The jury convicted White of soliciting a violent federal crime against Juror A. White filed a post-trial
motion for judgment of acquittal, requesting in the alternative a new trial. The district court ruled that
the government failed to present sufficient evidence to sustain White's conviction. The court found
that White's posts were not objective solicitations and nothing on the website "transformed" them into
solicitous instructions. Additionally, the court found that the government failed to present adequate
evidence of section 373's "strongly {2012 U.S. App. LEXIS 15}corroborative” circumstances, which
is necessary under the statute to prove intent. Finally, the court held that because the government
did not prove White's criminal intent beyond a reasonable doubt, White's posts were protected
speech under the First Amendment. The district court granted White's Rule 29 motion and
conditionally denied his request for a new trial. Both the government and White appeal.
II. ANALYSIS
Subsection (a) of 18 U.S.C. § 373 states, in relevant part, that:
Whoever, with intent that another person engage in conduct constituting a felony that has as an
element the use, attempted use, or threatened use of physical force against property or against
the person of another in violation of the laws of the United States, and under circumstances
strongly corroborative of that intent, solicits, commands, induces, or otherwise endeavors (698
F.3d 1013} to persuade such other person to engage in such conduct, shall be imprisoned ....
The underlying felony White allegedly solicited was harm to Juror A, which is prohibited by 18 U.S.C.
§ 1503 ("Whoever... by threats or force . . . endeavors to influence, intimidate, or impede any
grand or petit juror... or injures any such grand or petit {2012 U.S. App. LEXIS 16}juror... on
account of any verdict or indictment assented to by him, or on account of his being or having been
"). So to convict White of solicitation, the government had to
such juror. .. shall be punished
prove beyond a reasonable doubt: (1) with "strongly corroborative" circumstances that White
intended for another person to harm Juror A; and (2) that White solicited, commanded, induced, or
otherwise tried to persuade the other person to carry out that crime. 18 U.S.C. § 373(a); see also
Hale, 448 F.3d at 982 (”[T]he government had to establish (1) with 'strongly corroborative
circumstances' that Hale intended for Tony Evola to arrange the murder of Judge Lefkow; and (2)
that Hale solicited, commanded, induced, or otherwise tried to persuade Evola to carry out the
crime.").
A. The District Court's Judgment of Acquittal Must Be Reversed Because a Reasonable Jury
Could Have Convicted White of Criminal Solicitation
A judgment of acquittal must be granted when "the evidence is insufficient to sustain a conviction."
Fed. R. Crim. P. 29(a). Our review is de novo. United States v. Presbitero, 569 F.3d 691, 704 (7th
Cir. 2009). Our job, however, is not to "reweigh the evidence {2012 U.S. App. LEXIS 17}nor
second-guess the jury's credibility determinations." United States v. Tavarez, 626 F.3d 902, 906 (7th
Cir. 2010). Rather, we view the evidence in the light most favorable to the government and ask
whether any rational jury could have found the essential elements of the charged crime beyond a
reasonable doubt. Presbitero, 569 F.3d at 704. "We will set aside a jury's guilty verdict only if 'the

A07CASES

9

©2021-Matthew Bender & Company, Inc., a member of the.LexisN exis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-67-

13888084

record contains no evidence, regardless of how it is weighed,' from which a jury could have returned
a conviction." Id. (quoting United States v. Moses, 513 F.3d 727, 733 (7th Cir. 2008)). But the
defendant "bears a heavy burden on appeal, as he must demonstrate that no rational trier of fact
could decide beyond a reasonable doubt" that he committed the offense charged. See United States
v. Cervante, 958 F.2d 175, 178 (7th Cir. 1992).
We begin our analysis with our instructions to the district court on remand: "After the prosecution
presents its case, the court may decide that a reasonable juror could not conclude that White's intent
was-for harm to befall Juror A, and not merely electronic or verbal harassment." White, 610 F.3d at
962. The government bore not only the burden of proving White's {2012 U.S. App. LEXIS
18}intentional solicitation, but it also had to prove beyond a reasonable doubt the objective of that
solicitation: harm or the threat of harm to Juror A, not mere electronic or verbal harassment. Id.; ct.
United States v. Rahman, 34 F.3d 1331, 1337 (7th Cir. 1994) (requiring the government to show with
"strongly corroborative" circumstances that the defendant "intended for [the solicitee] to extort and
rob [the victim] of $60,000," and that the defendant "solicited, commanded, induced, or otherwise
tried to persuade [the solicitee] to carry out the extortion and robbery.” (emphasis added)).
A reasonable jury could have found that the government met this burden. Whether White’s post was
.a criminal solicitation depended on context, and the government provided ample evidence of such
context from which a rational jury could have concluded that the post was an invitation for others to
harm Juror A, though fortunately no one accepted the invitation. (698 F.3d 1014} The post attributed
to Juror A characteristics intended to make the target loathed by readers of White's neo-Nazi
website: a Jew, a homosexual with a black lover, and above all the foreman of the jury that had
convicted Overthrow.com's hero, Matthew {2012 U.S. App. LEXIS 19}Hale-an anti-Semitic white
supremacist-of soliciting the murder of a federal judge. And whereas White previously refrained from
"republish[ing] the personal information" of others involved in the Hale trial because, as White
acknowledged, "there [was] so great a potential for action linked to such posting," White expressly
published Juror A's personal information, including Juror A's photograph, home address, and
telephone numbers.
The post has a context created by previous posts on the website that had solicited the murder of
Barack Obama, Richard Warman (a Canadian civil rights lawyer and the bane of hate groups), Elie
Wiesel, and six black teenagers known as the "Jena 6.” Other posts had congratulated murderers or
urged the murder of enemies defined in terms that would embrace Juror A. All that was missing was
an explicit solicitation to murder Juror A. But the description summarized above would have made
Juror A seem to loyal readers of Overthrow.com as being at least as worthy of assassination as
Richard Warman, who had been described in a post, published only a few months before the Juror A
post, as "Richard, the sometimes Jewish, sometimes not, attorney behind the abuses of Canada's
{2012 U.S. App. LEXIS 20}Human Rights Tribunal," who "should be drug out into the street and
shot, after appropriate trial by a revolutionary tribunal of Canada's white activists. It won't be hard to
do, he can be found, easily, at his home, at [address]." And Juror A could be found at home just as
easily because White posted Juror A's personal contact information along with the denunciation.
The "abuses" of the Canadian Human Rights Tribunal had been left unspecified in the denunciation
of Warman, whereas Juror A was identified as instrumental in the conviction of the hero Hale: If "all
[Juror A] was . .. was another anonymous voice in a dirty Jewish mob, screaming for blood and for
the further impoverishment of the white worker.. . [he/she] would hardly be of note. But [Juror A] is
something more. [He/She] was not only a juror at the nationally publicized trial of Matt Hale, but the
jury foreman, and the architect of both Hale's conviction and his extreme and lengthy 40-year
sentence." If Warman should be killed, then a fortiori Juror A should be killed, or at least injured.
White didn't have to say harm Juror A. All he had to do and did do to invite violence was to sketch

A07CASES

10

-©-2021-Matthew-Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-68-

13888084

the characteristics that made {2012 U.S. App. LEXIS 21}Juror A a mortal enemy of White's
neo-Nazi movement and to publish Juror A's personal contact information.
The fact that White made an effort to discourage assassination attempts against Juror A when law
enforcement moved against his website shows at a minimum that he knew he was playing with fire.
But a reasonable jury could have also interpreted such evidence as intent to solicit violence against
Juror A followed by a change of mind when he realized that if someone harmed Juror A he could get
in trouble. There was enough evidence of White's intent to solicit the murder of, or other physical
violence against, Juror A, to justify a reasonable jury in convicting him.
It's true that the posts that establish the context that makes the solicitation to violence unmistakable
were not links to the posts on Overthrow.com about Juror A. That is, they were not words or phrases
in blue in the posts that if clicked on by the reader would appear on the reader's computer screen.
Some of the explicit solicitations to murder had been published on {698 F.3d 1015} Overthrow.com
months, even years, earlier, though others were recent. The Juror A posts had appeared between
September 11 and October 3, 2008, the postings {2012 U.S. App. LEXIS 22}regarding Wiesel and
the Jena 6 between February 3 and September 20, 2007. But the Warman and Obama death threats
were recent-March 26, 2008 and September 9, 2008 respectively-the latter threat having been
posted two days before the first threat against Juror A. .
Regardless of when these other still-accessible posts were technically created, a reasonable jury
cannot be expected to ignore the audience, who may not have been as concerned about such
chronological specifics. Readers of Overthrow.com were not casual Web browsers, but extremists
molded into a community by the internet-loyal and avid readers who, whether or not they remember
every specific solicitation to assassination, knew that Overthrow.com identified hateful enemies who
should be assassinated. A reasonable jury could infer that members of the Party were regular
readers of the Overthrow website, which prominently displayed links to the Party's own website, to its
streaming radio, and to its hotline. One witness testified that he learned of the Party through
Overthrow.com. White identified one reader in a post on the website as a "loyal soldier" and "fan of
this website," and there is similar language in other posts. Two {2012 U.S. App. LEXIS 23}members
of the party who testified made clear their familiarity with the contents of the website over a period of
years. Though these members specifically denied interpreting White's post as an invitation to harm
Juror A, a reasonable jury could have thought, based on White's reaching out to them for support
following the search of White's home, that they were biased in White's favor and therefore skewed
their testimony in order to protect a fellow supremacist.
The government also established "strongly corroborative circumstances" of White's intent to urge the
killing of, or harm to, Juror A. Typically, the government will satisfy its burden of strongly
corroborating the defendant's intent by introducing evidence showing that the defendant: (1) offered
or promised payment or some other benefit to the person solicited; (2) threatened to punish or harm
the solicitee for failing to commit the offense; (3) repeatedly solicited the commission of the offense
or expressly stated his seriousness; (4) knew or believed that the person solicited had previously
committed a similar offense; or (5) acquired weapons, tools or information, or made other
preparations, suited for use by the solicitee. {2012 U.S. App. LEXIS 2A}United States v. Gabriel, 810
F.2d 627, 635 (7th Cir. 1987) (citing S. Rep. No. 307, 97th Cong., 1st Sess. 183 (1982)). These
factors are not exclusive or conclusive indicators of intent, id., but they are representative examples
of the types of circumstantial evidence that a rational jury could rely on to corroborate the
defendant's intent. See Hale, 448 F.3d at 983 ("The existence of strongly corroborating
circumstances is a question of fact for the jury." (citation omitted)).
Such circumstantial evidence, much of which is already recounted above, exists here. In posts on his

A07CASES

11

TO 7071-ManhRw-RBTTrierA-rnrnpanv-.-lBC-.-a-member-of the LexisNexis Gtoup-All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-69-

13888084

website directed at his neo-Nazi readers, White wrote that "everyone associated with the Matt Hale
trial has deserved assassination for a long time;" he expressly solicited violence against Obama,
Warman, Wiesel, and the Jena 6; he praised Wiesel's assailant and appreciated that White's
expressed views "may have played a role in motivating" the assailant; he went to the trouble of
obtaining and publishing Juror A's contact information after expressly recognizing the "great []
potential for action" linked to the posting of personal contact information of other "scumbags"
involved in the Hale trial; {698 F.3d 1016} and after learning (2012 U.S. App. LEXIS 25}of the FBI's
investigation he demonstrated awareness that his posts might induce readers to commit a violent act
against Juror A.
,
Though the government did not present a specific "solicitee," it was unnecessary to do so given the
very nature of the solicitation-an electronic broadcast which, a reasonable jury could conclude, was
specifically designed to reach as many white supremacist readers as possible so that someone could
kill or harm Juror A. 18 U.S.C. § 373 requires proof of intent "that another person" commit the felony,
and White's desire for any reader to respond to his call satisfies this requirement. See White, 610
F.3d at 960 ("a specific person-to-person request is not required" (citing United States v. Rahman,
189 F.3d 88, 117-18 (2d Cir. 1999)).
White rightfully emphasizes that the First Amendment protects even speech that is loathsome. But
criminal solicitations are simply not protected by the First Amendment. See id.\ Chaplinsky v. New
Hampshire, 315 U.S. 568, 572, 62 S. Ct. 766, 86 L. Ed. 1031 (1942) ("[Tjhose [words] which by their
very utterance inflict injury or tend to incite an immediate breach of the peace" are not protected by
the First Amendment); see also United States v. Williams, 553 U.S. 285, 297, 128 S. Ct. 1830, 170 L.
Ed. 2d 650 (2008) (2012 U.S. App. LEXIS 26}("Offers to engage in illegal transactions are
categorically excluded from First Amendment protection." (citations omitted)). A reasonable jury
could have found that White's posts constituted "a proposal to engage in illegal activity" and not
merely "the abstract advocacy of illegality." See id. at 298-99. Accordingly, the First Amendment
provides no shelter for White's criminal behavior.
For the above reasons, White's acquittal must be reversed.
B. White Is Not Entitled to a New Trial
"If the court enters a judgment of acquittal after a guilty verdict, the court must also conditionally
determine whether any motion for a new trial should be granted if the judgment of acquittal is later
vacated or reversed." Fed. R. Crim. P. 29(d)(1). Upon acquitting White, the district court, pursuant to
this rule, conditionally denied White's motion for a new trial, which White now challenges as an
abuse of discretion. See United States v. Wilson, 237 F.3d 827, 831-32 (7th Cir. 2001). None of
White's arguments have merit.
1. Anonymous Jury
White first argues that the district court erred in empanelling an anonymous jury. "A court weighing
the need for an anonymous jury must... balance the defendant's {2012 U.S. App. LEXIS
27}interest in preserving the presumption of innocence and in conducting a useful voir dire against
the jurors' interest in their own security and the public's interest in having a jury assess the
defendant's guilt or innocence impartially." United States v. Mansoori, 304 F.3d 635, 650 (7th Cir.
2002), (citations omitted).
Factors bearing on the propriety of an anonymous jury include the defendant's involvement in
organized crime; his participation in a group with the capacity to harm jurors; whether he
previously has attempted to interfere with the judicial process; the severity of the punishment
that the defendant would face if convicted; and whether publicity regarding the case presents the

A07CASES

12

ISrZOZI 'Matthew Bender & Companv.-lnc- a member of the LexisN exis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-70-

13888084

prospect that the jurors' names could become public and expose them to intimidation or
harassment./d. at 650-51. "We review the decision to use an anonymous jury only for an abuse
of discretion, remaining particularly deferential to the district court's substantial {698 F.3d 1017}
discretion in this area." United States v. Morales, 655 F.3d 608, 621 (7th Cir. 2011) (citations
omitted). Even if the district court errs in empanelling an anonymous jury, a new trial is
unwarranted where such error was harmless, such {2012 U.S. App. LEXIS 28}as when voir dire
is "extremely thorough," Mansoori, 304 F.3d at 652, or when the jurors are told that their names
are withheld "to prevent out-of-court contact, not out of concern for juror safety," Morales, 655
F.3d at 623, in combination with other factors mitigating prejudice.
White almost exclusively emphasizes the alleged lack of "some evidence indicating that intimidation
is likely." Mansoori, 304 F.3d at 651. But such evidence could not be clearer here. It was certainly
clear by the time the district court granted the government's motion to empanel an anonymous jury
that White had posted the personal contact information-of ayuror-also in a case involving a white
supremacist, which resulted in harassment and intimidation. White also does not challenge the
district court's finding that his target audience had previously committed acts of violence against their
perceived enemies, particularly those involved in the justice system, or the fact that there had been
some publicity of the case, exacerbating the risk that the jurors' identities would become public. The
district court's consideration of these factors in deciding to empanel an anonymous jury was
therefore not an abuse {2012 U.S. App. LEXIS 29}of discretion.
Though unnecessary to address, we also note the absence of harm. White argues that the jury's
anonymity predisposed it to believe that White was dangerous and therefore a criminal, and
emphasizes Juror 8's expression of concern about putting his name on the juror sign-in sheet. But
the district court assured Juror 8 that the sign-in sheet was not public and that it could be sealed, and
it confirmed that Juror 8 did not discuss his concern with any other juror. Most importantly, the court
asked him whether he could still render a fair verdict, and he responded "Yes." We agree with the
district court that "some concerns on the part of jurors were likely unavoidable" given the context, but
the district court properly ensured that Juror 8's specific concerns would not give rise to improper
bias against White by confirming that he could be impartial. The district court also told the jurors that
they were kept anonymous in order to ensure a fair and impartial trial and to prevent contact with the
parties and lawyers; it did not mention security as a reason. And White does not challenge the rigor
of the district court's voir dire, or any other measure taken by the court to ensure {2012 U.S. App.
LEXIS 30}him a fair trial. Accordingly, even if the district court erred in empanelling an anonymous
jury, such error was harmless.
2. Admission of Rule 404(b) Evidence
Next, White challenges the district court's Rule 404(b) admission of his posts concerning people
other than Juror A. Rule 404(b) prohibits the admission of evidence of "prior bad acts to show that
the defendant's character is consistent with a propensity to commit the charged crime; however, it
allows the court to admit evidence of a defendant's prior [acts] for other permissible, non-propensity
purposes," such as intent. United States v. Perkins, 548 F.3d 510, 513-14 (7th Cir. 2008). In order to
be admissible, such evidence must:
(1) be directed toward establishing a matter in issue other than the defendant's propensity to
commit the crime charged; (2) show that the other act is similar enough and close enough in time
to be relevant to the matter in issue; (3) be sufficient to support a jury finding that the defendant
committed the similar act; and (4) have probative value {698 F.3d 1018} that is not substantially
outweighed by the danger of unfair prejudice./d. This court reviews a district court's Rule 404(b)
admission for abuse of discretion. {2012 U.S. App. LEXIS 31}/d. at 513.

A07CASES

13

QQ21-Matthew-BendeL&.Companv. Inc., a member of the LexisNexis Group. All rights reserved. Use ofthis product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-71-

13888084

Taking the last prong first, we note that the probative value of these posts was particularly strong, in
that they helped the government to satisfy its burden of producing evidence of circumstances
"strongly corroborative" of White's intent (and for that reason, the first prong is also satisfied).
Though there was an undeniable danger that the jury would be inflamed against him when exposed
to his "noxious views," Hale, 448 F.3d at 986, the jury had already been exposed to White's white
supremacist views from other evidence that was unquestionably admissible, and White never sought
a specific limiting instruction. The district court's conclusion that such danger did not "substantially
outweigh" the strong probative value of these posts was therefore not an abuse of discretion. While
the admission of prior posts might be improper in another electronic criminal solicitation case, we
simply cannot say that the district court, in its consideration of the unique facts and evidentiary
context, erred in this one. See id. at 985 ("We give special deference to the district court's
assessment of the balance between probative value and prejudice because that court is in the best
position {2012 U.S. App. LEXIS 32}to make such assessments.").
As for the remaining factors, though several of these posts were created a year or more before the
Juror A post, they were nonetheless "close enough in time to be relevant" in that they were
contemporaneously available at the time of the post about Juror A. And there is no dispute that these
posts were made by White. Accordingly, the district court's Rule 404(b) admission of White's posts
concerning people other than Juror A was not an abuse of discretion.
3. White's Proposed Jury Instructions Concerning the First Amendment
White finally argues that a new trial is warranted because the district court failed to include four of his
• proposed jury instructions concerning the First Amendment. Briefly summarized, these include: an
instruction that speech is protected when it incites imminent lawless action, an instruction that
speech may not be banned simply because it is unpopular, an instruction that speech scrutinizing
people involved in the prosecution of crimes (e.g., jurors) is protected, and an instruction that speech
approving of past violence by others is protected.
Plain error review applies when counsel fails to "object, on the record, to the judge's refusal {2012
U.S. App. LEXIS 33}to tender the defendant's instructions [and] clearly state the reasons for his or
her objections." United States v. Douglas, 818 F.2d 1317, 1320 (7th Cir. 1987); see Fed. R. Crim. P.
30(d). The government points out that after the court expressly made its instructions ruling and asked
White's counsel, "Do you have any objections, by the way,... or are you otherwise satisfied with the
instructions?", counsel responded, "Judge, I'm pretty sure-l haven't looked at the other ones, but I'm
satisfied with the elements instruction that I think is the main one." The government therefore argues
that no objection was made. White counters that his proposed First Amendment instructions were
vigorously debated, albeit before the district court ruled on the instructions.
We have said that, so long as defense counsel "alert[s] the court and the opposing party to the
specific grounds for the objection in a timely fashion," then "[t]here is no utility in requiring defense
counsel to object again after the court has made its final ruling." United States v. James, 464 F.3d
699, 707 n.1 (7th Cir. {698 F.3d 1019} 2006). But in the case of the court's refusal to give a proposed
instruction, some of our cases have suggested {2012 U.S. App. LEXIS 34}that objections must be
made after a ruling is made, or at least after the district court indicates how it intends to rule.3 See
United States v. Irorere, 228 F.3d 816, 825 (7th Cir. 2000) (objection not preserved where defendant
"did not object on the record at the time the district court refused to give the defendant's proposed
instruction"); United States v. Green, 779 F.2d 1313, 1320 n.6 (7th Cir. 1985) (objection not
preserved where "the defendant originally argued on behalf of his proposed instruction, but offered
no further comment, much less an objection" after court adopted other instructions). And counsel can
simply object by stating that he or she objects and incorporates arguments previously made. See

A07CASES

14

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-72-

13888084

United States v. Hollinger, 553 F.2d 535, 543 (7th Cir. 1977) ("While the process of stating for. the
record that such pre-charge objections are incorporated by reference is a somewhat pro forma
exercise, we are nevertheless of the opinion that the better practice would be for counsel to see that
the record affirmatively shows that counsel has renewed his specific objections by the incorporation
method."); see also United States v. Requarth, 847 F.2d 1249, 1254 (7th Cir. 1988) (2012 U.S. App.
LEXIS 35}("Specific objections to instructions that are distinctly made at an instructions conference
may be incorporated by reference."). It would have been wise for White's counsel to have at least
objected and incorporated his previous arguments by reference when the district court gave him an
express opportunity to do so after it had made its ruling on the instructions. See generally Hollinger,
553 F.2d at 543 (district court has discretion to determine when the "distinct statement of the matter
to which counsel objects and the grounds of the objections are stated" pursuant to Rule 30(d)).
In any event, we need not decide whether plain error review applies, because we find that the district court did not improperly exclude his proposed instructions even on de novo review. See James, 464
F.3d at 707 (review of district court's refusal to give proposed jury instructions is de novo). "To be
entitled to a particular theory of defense instruction, the defendant must show the following: (1) the
instruction is a correct statement of the law, (2) the evidence {2012 U.S. App. LEXIS 36}in the case
supports the theory of defense, (3) that theory is not already part of the charge, and (4) a failure to
provide the instruction would deny a fair trial." Id.
'
•<
Excluding White's proposed jury instructions was not improper. The district court essentially
incorporated White's proposed instruction about speech being protected unless it incites imminent
lawless action, and adopting any additional emphasis on that point as White proposed could have
been misleading because it would have suggested that the solicitation of a non-immediate crime was
protected, when it is not. See White, 610 F.3d at 960 ("solicitations^ remain categorically outside [the
First Amendment's] protection"). And the district court essentially incorporated White's proposed
instruction about unpopular speech when it told the jury that the "First Amendment protects ..
offensive criticism of others," and that speech that is nothing more than an "indignant or extreme
method of stating political opposition to the juror in the Matthew Hale case" was not criminal. This
latter instruction also captured White's proposed instruction about the First Amendment protecting
speech that scrutinizes (698 F.3d 1020} people involved in {2012 U.S. App. LEXIS 37}the
prosecution of crimes, such as jurors. And White was not clearly denied a fair trial by the exclusion of
his proposed instruction concerning speech approving of past violence by others. No reasonable
juror would interpret the district court's instruction about what solicitation means-"an endeavor to
persuade another to engage in conduct constituting a violent felony''-to mean that mere approval of
past violence automatically translates into solicitation of future criminal conduct.
The district court's jury instructions concisely described the protections of the First Amendment and
correctly informed the jury that criminal solicitations fall outside its protection. See Trident Inv.
Mgmt., Inc. v. Amoco Oil Co., 194 F.3d 772, 780 (7th Cir. 1999) ("[w]e will not find reversible error in
jury instructions if, taken as a whole, they fairly and accurately inform the jury about the law"). The
inclusion of White's proposed instructions would have been unduly cumulative and potentially
confusing, and White points to no indication that the jury failed to appreciate the protections of the
First Amendment, to the extent they were relevant in this criminal solicitation case. See DePaepe v.
Gen. Motors Corp., 33 F.3d 737, 743 (7th Cir. 1994) {2012 U.S. App. LEXIS 38}(’"lnadequate jury
instructions are cause for reversal only if it appears that the jury's comprehension of the issues was
so misguided that one of the parties was prejudiced."' (citation omitted)).
Therefore, the district court's exclusion of White's proposed jury instructions was not erroneous.
White’s argument that the cumulative impact of all the above alleged errors warrants a new trial is
also without merit.

A07CASES

15

■@-202I_Matthew Bender & Company, lnc„ a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-7 3-

13888084

III. CONCLUSION
For the reasons stated above, the judgment of acquittal entered by the district court is Reversed, the
conviction is Reinstated, and the case is Remanded for sentencing. White's cross-appeal is
Dismissed.
Footnotes

1
Neither Hale nor White (nor anyone connected to either of them) was responsible for the murders.
2
White moved in limine to prevent these posts from reaching the jury, but the district court denied his
request because the posts evidenced White's intent, or were direct evidence of the "strongly
corroborative circumstances" required under § 373, or both.
3
See Fed. R. Crim. P. 30(b) ("The court must inform the parties before closing arguments how it
intends to rule on the requested instructions.”).

A07GASES

16

.© 202LMatthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-74-

13888084

V

;
\

/

1

)

\_

I

i

\
>

\
\

)

]

;
>

APPENDIX E

-\

t
779 F Supp 2d 775 (ND 111 2011)

\

V

/
)

>

i

I

/

V

-}

3

v

*T

r

/'
Z"

t

/

)

V
/
\
/

75

UNITED STATES OF AMERICA, Plaintiff, v. WILLIAM WHITE, Defendant.
UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF ILLINOIS
779 F. Supp. 2d 775; 2011 U.S. Dist. LEXIS 42026
Case No. 08-CR-851
April 19, 2011, Decided
April 19, 2011, Filed
Editorial Information: Subsequent History
Reversed by, Remanded by, Appeal dismissed by, in part United States v. White, 698 F.3d 1005, 2012
U.S. App. LEXIS 22229 (7th Cir. III., Oct. 26, 2012)
Editorial Information: Prior History
United States v. White, 2011 U.S. Dist. LEXIS 42090 (N.D. III., Apr. 19, 2011)
For William White, Defendant: Nishay Kumar Sanan, LEAD
ATTORNEY, Nishay K. Sanan, Esq., Chicago, IL; Chris M. Shepherd, Law Office of Chris
Shepherd, Chicago, IL.
For USA, Plaintiff: Michael James Ferrara, William R. Hogan,
Jr., LEAD ATTORNEYS, AUSA, United States Attorney's Office (NDIL), Chicago, IL; Pretrial
Services; Probation Department.
Judges: LYNN ADELMAN, District Judge.
Counsel

Opinion
Opinion by:

LYNN ADELMAN
, Opinion

(779 F. Supp. 2d 777} DECISION AND ORDER
In 2003, a jury in the Northern District of Illinois convicted white supremacist leader Matthew Hale of
soliciting the murder of District Judge Joan Lefkow, who had presided over a civil case involving
Hale's organization, the World Church of the Creator. The district court sentenced Hale to 480
months in prison, and the Seventh Circuit affirmed Hale's conviction and sentence on direct appeal.
See United States v. Hale. 448 F.3d 971 (7th Cir. 2006).
In 2008, Hale filed a motion challenging his conviction and sentence on various grounds, including
the alleged ineffectiveness of his trial counsel. Among other errors, Hale alleged that his lawyer
botched jury selection, failing to challenge or strike a juror named Mark Hoffman, a gay man with an
African-American partner who ended up serving (2011 U.S. Dist. LEXIS 2}as the jury foreperson. On
September 11, 2008, after an article about Hale's motion appeared in the Chicago Sun-Times,
defendant William White (hereafter "defendant"), also a white supremacist and the leader of an
organization called the American National Socialist Workers Party ("ANSWP"), posted an article

lygcases

l

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-76-

13888084

about Hale's motion on his website, Overthrow.com. The article was entitled "Hale Seeks To Have
Sentence Overturned," with the sub-headline "Gay Jewish Anti-Racist Led Jury." (Govt. Ex. 2 at 1.)
Below the headline, defendant posted Hoffman's picture with the caption:
Gay Jewish anti-racist Mark P Hoffmann was a juror who played a key role in .convicting Hale.
Born August 24, 1964, he lives at 6915 HAMILTON #A CHICAGO, IL 60645 with his gay black
lover and his cat "homeboy". His phone number is (773)274-1215, cell phone is (773)426-5676
and his office is (847) 491-3783.
(Govt. Ex. 2 at 1.) Defendant also displayed Hoffman's picture and the above caption on the blog
section of the website. (Govt. Ex. 1.) The following day, after Hoffman's employer removed the
picture to which defendant had linked, defendant posted a "Mark P Hoffman Update," with the
sub-heading, "Since They Blocked the (2011 U.S. Dist. LEXIS 3}First Photo." (Govt. Ex. 4 at 1.) The
post contained the same photo and caption, with the additional text: "Note that Northwestern
University blocked much of Mr. Hoffman's information after we linked to his photograph." (Govt. Ex.
4 at 1.)
Based on these posts, the government charged defendant with soliciting or otherwise endeavoring to
persuade another person (779 F. Supp. 2d 778} to injure Hoffman based on his jury service in the
Hale case, in violation of 18 U.S.C. § 373. Section 373(a) provides:
Whoever, with intent that another person engage in conduct constituting a felony that has as an
element the use, attempted use, or threatened use of physical force against property or against
the person of another in violation of the laws of the United States, and under circumstances
strongly corroborative of that intent, solicits, commands, induces, or otherwise endeavors to
persuade such other person to engage in such conduct, shall be imprisoned not more than ...
18 U.S.C. §373.
I dismissed the indictment on the ground that it failed to allege a solicitation and as contrary to the
First Amendment, but the Seventh Circuit reversed, finding that I acted prematurely, and remanded
the case for a trial at which (2011 U.S. Dist. LEXIS 4}the context of the posts could be considered.
United States v. White. 610 F.3d 956 (7th Cir. 2010). The Seventh Circuit acknowledged that the
case presented important First Amendment issues and stated that after the government produced its
evidence, "the court may decide that a reasonable juror could not conclude that White's intent was
for harm to befall [Hoffman], and not merely electronic or verbal harassment." jd. at 962.
I granted the government's motion to try the case to an anonymous jury, which returned a verdict of
guilty. Before me now is defendant's motion for acquittal under Fed. R. Crim. P. 29. For the reasons
that follow, and based on the entire trial record, I find that the government failed to present sufficient
evidence to enable a reasonable juror to conclude either that defendant's posts regarding Hoffman
constituted a solicitation to harm Hoffman, or that defendant intended the posts to solicit harm to
Hoffman. I further find the posts protected by the First Amendment. Accordingly, I grant defendant's
motion.
I. BACKGROUND AND FACTS
A. Procedural History
The government originally indicted defendant in October 2008, alleging that through the posts quoted
above he solicited (2011 U.S. Dist. LEXIS 5}another person to harm "Juror A," the Hale jury
foreperson. As circumstances "strongly corroborative" of defendant's intent that another person harm
Juror A the indictment alleged that when he posted these statements defendant was aware that white
supremacists, Overthrow.com's target audience, sometimes committed acts of violence against

lygcases

2

■©1021 'Matthew'Bcnder&Companyrlnc-amemberoftheLexisN exis Group. Allrifilitsreserved. Use of this product is subject to the restrictions
and terms arid conditions of the Matthew Bender Master Agreement.

-77-

13888084

non-whites, Jews, homosexuals, and others perceived as acting contrary to the interests of the white
race. The indictment further alleged that before posting the statements, defendant displayed on
Overthrow.com other posts, some of which were still available, containing the home addresses of
individuals he criticized on the website, and that in some of these posts defendant expressed a
desire that these individuals be harmed. The indictment then listed various examples of such posts.
On February 10, 2009, the government obtained a superseding indictment, which tracked the original
indictment but also referred to additional posts allegedly corroborative of defendant's intent that Juror
A be harmed, including posts regarding the 2005 murders of Judge Lefkow's husband and mother
and an e-mail listing the home address of various federal prosecutors, agents, {2011 U.S. Dist.
LEXIS 6}and others involved in the Hale matter that had been circulating among white nationalist
discussion groups.
After the government filed the superseding indictment, defendant moved to transfer the case to a
federal court in (779 F. Supp. 2d 779} Virginia (where the government had charged him, in a
separate matter, with interstate transmission of threatening communications); to recuse the judges in
the Northern District of Illinois based on the references to the Lefkow murders; and to disqualify the
United States Attorney's Office in the Northern District of Illinois. The court granted the motion to
recuse, and the case was re-assigned to me. I denied defendant's motions to transfer and to
disqualify the prosecutors, and authorized defendant to file additional motions relating to the
superseding indictment. Defendant subsequently filed motions to exclude certain evidence under
Fed. R. Evid. 403 and 404(b), to strike surplusage from the indictment, and to dismiss the indictment
on various grounds, including the First Amendment. For its part, the government moved to empanel
an anonymous jury at trial.
As indicated above, I granted defendant's motion to dismiss the superseding indictment, holding that
defendant's {2011 U.S. Dist. LEXIS 7}speech, as alleged in the indictment, was protected by the
First Amendment and did not state a violation of § 373. United States v. White, 638 F. Supp. 2d 935
(N.D. III. 2009). I noted that defendant’s posts regarding Juror A did not expressly solicit or seek to
persuade another person to harm Juror A; rather, they disclosed personal information and
commented on his sexual orientation and attitude toward race. I further noted that while the posts
could reasonably be read as criticizing Juror A's vote to convict Hale, the Supreme Court has long
held that scrutiny and criticism of people involved in criminal cases, which may include the
disclosure of personal information about them, is protected by the First Amendment. i<± at 944-45
(citing The Florida Starv. B.J.F.. 491 U.S. 524, 109 S. Ct. 2603, 105 L. Ed. 2d 443 (1989); Globe
Newspaper Co. v. Superior Court for Norfolk County. 457 U.S. 596, 102 S. Ct. 2613, 73 L. Ed. 2d
248 (1982); Smith v. Daily Mail Publishing Co.. 443 U.S. 97, 99 S. Ct. 2667, 61 L. Ed. 2d 399 (1979);
Wood v. Georgia. 370 U.S. 375, 82 S. Ct. 1364, 8 L. Ed. 2d 569 (1962)). Finally, I concluded that the
other circumstances listed in the indictment, including defendant's other posts and his awareness that
white supremacists (the website's target audience) sometimes committed acts of violence against
{2011 U.S. Dist. LEXIS 8}alleged enemies of the white race, could not transform defendant's lawful
statements about Juror A into a criminal solicitation. I rejected the government's suggestion that
simply because defendant had previously disclosed personal information about individuals and
expressed a wish that they be harmed, his lawful statements about Juror A could be found to be a
violation of § 373. JcL at 945-46.
In reversing, the Seventh Circuit found the indictment legally sufficient under Fed. R. Crim. P. 7, as it
tracked the language of the charging statute, listed each element of the crime, provided
corroborating circumstances of defendant's intent, and made defendant aware of the specific conduct
against which he had to defend himself at trial. ]<± at 959. The court then turned to the constitutional
question, stating that any "potential First Amendment concern is addressed by the requirement of

lygcases

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-78-

13888084

proof beyond a reasonable doubt at trial, not by a dismissal at the indictment stage." J<± The court
noted that in the case of a criminal solicitation, the speech - asking another to commit a crime - is the
punishable act. The court explained that solicitation is an inchoate crime; the crime is complete once
{2011 U.S. Dist. LEXIS 9}the words are spoken with the requisite intent, and no further actions from
either the solicitor or solicitee are necessary. Nor, the court noted, is a specific person-to-person
request required, Jd. at 960. The (779 F. Supp. 2d 780} court further noted that a request for
criminal action can be coded or implicit. Jd. at 961.
The court concluded that:
White's argument boils down to this: his posting was not a solicitation and because it is not a
solicitation, it is speech deserving of First Amendment protection. The government sees the
posting in the opposite light: the posting and website constitute a solicitation and as such, fall
outside the parameters of First Amendment protection. This dispute turns out not to be an
argument about the validity of the indictment in light of the First Amendment, but is instead a
dispute over the meaning and inferences that can be drawn from the facts. The government
informed us at oral argument that it has further evidence of the website's readership, audience,
and the relationship between White and his followers which will show the posting was a specific
request to White's followers, who understood that request and were capable and willing to act on
it. This evidence is {2011 U.S. Dist. LEXIS 10}not laid out in the indictment and does not need
to be. The existence of strongly corroborating circumstances evincing White's intent is a jury
question. Of course, the First Amendment may still have a role to play at trial. Based on the full
factual record, the court may decide to instruct the jury on the distinction between solicitation and '
advocacy, and the legal requirements imposed by the First Amendment. See, e.q., United States
v. Freeman. 761 F.2d 549, 552 (9th Cir. 1985).
Jd. at 962 (internal citations omitted).
B. The Trial
The government's first witness was FBI Agent Sara Lopez, who provided background on the Hale
case. Lopez testified that in July 1999, while assigned to a domestic terrorism unit which investigated
white supremacists, she acted as the case agent in the investigation of a series of shootings
committed by a member of Hale's organization, Ben Smith, in which Smith wounded nine people and
killed two. All of Smith's victims were Jewish, African-American, or Asian. (Trial Tr. at 44-48.) Lopez
testified that Smith belonged to the World Church of the Creator, which Hale ran out of his father's
residence in East Peoria, Illinois. (Tr. at 49.)
Following Smith's death {2011 U.S. Dist. LEXIS 11}in a shoot-out with law enforcement, Lopez
investigated Hale's group, learning that Hale obtained a law degree but had been denied a law
license by the State of Illinois on June 30, 1999, days before Smith commenced his shooting spree.
(Tr. at 50-51.) Lopez testified that through her experience investigating white supremacist groups she
learned of the concept of "lone wolf activism," pursuant to a person is motivated to individually
commit criminal acts based on something he has heard or seen. (Tr. at 52.) Lopez developed no
evidence that Hale or other members of his group participated directly in the Smith shootings. (Tr. at
55.) Agents continued their investigation, however, developing a confidential informant, Tony Evola,
to keep tabs on Hale. Evola, who acted as Hale's head of security, accompanying him to meetings in
and out of Illinois, agreed to provide information, at times wearing a wire and recording
conversations. (Tr. at 55-56.)
In May 2000, a group called the TE-TA-MA Foundation, which also called itself the Church of the
Creator, filed a civil suit in the Northern District of Illinois against Hale and his organization,

lygcases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-79-

13888084

requesting that Hale cease using the "Church of the {2011 U.S. Dist. LEXIS 12}Creator" name. (Tr.
at 57.) In June 2002, Judge Lefkow ruled in favor of Hale, but in August 2002 the Seventh Circuit
reversed and directed Judge Lefkow to {779 F. Supp. 2d 781} rule in favor of TE-TA-MA. (Tr. at
58-59.) On November 19, 2002, Judge Lefkow entered judgment against Hale. Hale refused to
comply with the order, and Judge Lefkow issued an order finding him in contempt, setting a hearing
for January 8, 2003. Between November 19, 2002, and January 8, 2003, Hale solicited Evola to
commit a violent act against Judge Lefkow. Specifically, on December 4, Hale e-mailed Evola,
asking Evola to locate Judge Lefkow's home address, and on December 5, Evola and Hale
discussed "exterminat[ing] the rat," code for killing Judge Lefkow. (Tr. at 50-60, 74.) As a result of
those conversations, on January 7, 2003, Hale was indicted for soliciting the murder of Judge
Lefkow. (Tr. at 60-61, 74.)
Hale went to trial on April 7, 2004. One of the jurors selected was Mark Hoffman, who ended up
being the foreperson. On April 26, 2004, the jury convicted Hale. (Tr. at 62.) The day Hale was
convicted, defendant posted what purported to be Tony Evola's address and phone number on
Overthrow.com. (Tr. at 63.) However, the address {2011 U.S. Dist. LEXIS 13}turned out to be for a
different person, Antonio Evola. (Tr. at 64, 76.) No charges were filed against defendant related to
that posting. (Tr. at 76-77.) Nor did the investigation reveal that defendant was involved with Hale
between 2002 and 2005, or that he had anything to do with Ben Smith. (Tr. at 78-79.)
On February 28, 2005, Judge Lefkow's husband and mother were killed. (Tr. at 67.) Lopez, again
acting as the case agent, investigated whether someone involved in Hale's group was responsible,
but the investigation revealed that the murders were committed by a man named Bart Ross, a
disgruntled litigant, and had nothing to do with Hale. (Tr. at 68, 70, 77.) Hale was sentenced in April
2005. (Tr. at 67.)
On September 11, 2008, Lopez received a call from Hoffman, after which she viewed defendant's
website, Overthrow.com, where she saw the post relating to Hoffman. (Tr. at 70-72.) Lopez testified
that Hoffman's identity as one of the Hale jurors was public knowledge. (Tr. at 79-80.)
The government next called FBI Special Agent Paul Messing, a member of the Richmond, Virginia
Computer Analysis Response Team ("CART"), which performed computer forensic analysis on digital
media seized by {2011 U.S. Dist. LEXIS 14}the FBI. (Tr. at 80-81.) Messing testified that in October
2008 he assisted in two searches of properties associated with defendant in Roanoke, Virginia,
pursuant to which agents seized a variety of items, including the server/computer used to run
Overthrow.com. (Tr. at 85-88.) Messing further determined that the Hoffman post was created on a
computer seized from defendant's home. (Tr. at 97.) The government also presented a stipulation
that, if called to testify, FBI Agent David Church would testify that on October 27, 2008, he spoke to
defendant, and defendant indicated that he runs Overthrow.com and made the postings related to
Mark Hoffman. (Tr. at 102-03.) Messing testified that prior to sending a copy of the seized materials
to agents in Chicago he installed software called Forensic Tool Kit ("FTK"), which would enable them
to search for specific articles and words on Overthrow.com. (Tr. at 99-100).
The government then called John Dziedzic, an officer with the Cook County Sheriff's Department
and member of the Chicago Regional Computer Forensics Laboratory ("RCFL"). (Tr. at 103-04.)
Dziedzic testified that he verified the existence of various posts/articles, marked as government
{2011 U.S. Dist. LEXIS 15}exhibits 1-35 at trial, on the server processed by Special Agent Messing.
(Tr. at 106-07.) He further testified that, if the server were plugged into the internet, all of those
articles would be {779 F. Supp. 2d 782} available to an internet user who visited Overthrow.com.
(Tr. at 107-08.)
The government next called Hoffman, who testified that he moved to Chicago with his life partner in

lygcases

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-80-

13888084

1999, taking a job at Northwestern University. (Tr. at 117-19.) Hoffman indicated that after the Ben
Smith shootings Hale wanted to come to the Northwestern campus to speak, leading to student
protests, one of which he attended in his capacity as an Associate Dean of Students. The University
ultimately decided not to allow Hale to speak. (Tr. at 120-21.)
Hoffman testified that in April 2004 he was summoned for jury duty and ended up serving on the
Hale trial. (Tr. at 121-22.) During voir dire, Hoffman disclosed his knowledge of Hale but indicated
that he could be objective. (Tr. at 122-23.) He also disclosed his relationship with an
African-American man. (Tr. at 124.) Nevertheless, he was selected as a juror. (Tr. at 125.) The next
day, an article appeared in the newspaper identifying one of the Hale jurors as an Assistant {2011
U.S. Dist. LEXIS 16}Dean at Northwestern, which caused Hoffman to worry about his safety; he
removed the sign from his door and the message on his voice-mail saying he was "out for jury duty."
(Tr. at 126.) At the conclusion of the trial, which lasted about a week and a half, the jurors retired to
deliberate and selected Hoffman as the foreperson. (Tr. at 127-28.) Hoffman testified that after they
returned a guilty verdict, the jurors were escorted out of the building by the United States Marshal
Service through a tunnel, popping up a block and a half away, so they did not have to go out the
front entrance because of the press. (Tr. at 129-30.) Hoffman testified that on September 11, 2008,
at about 9:30 a.m. he received a call on his cell phone from a Virginia number. (Tr. at 134,171.) The
male caller asked if he was Mark Hoffman; Hoffman said yes. The man asked if his date of birth was
August 24, 1964, and Hoffman asked who was calling. The man then asked if his address was 6915
North Hamilton, 1 and Hoffman asked what this was regarding. The man then asked if he was on the
jury that convicted Matthew Hale. Hoffman either said he didn't remember or didn't know. The man
said, "that’s all I need to know" {2011 U.S. Dist. LEXIS 17}and hung up. (Tr. at 134, 171-73.) The
caller did not threaten Hoffman. (Tr. at 173.)
Hoffman testified that he immediately contacted Northwestern security and Agent Lopez. About 14
hour later, he began receiving text messages on his cell phone, saying things like "sodomize Obama,
Bomb China, kill McCain, cremated Jews, all these really upsetting things." (Tr. at 135.) Hoffman
indicated that he kept receiving text messages and broke down crying because he thought someone
was coming after him. (Tr. at 135.) However, he admitted that none of the texts threatened his life;
none said "I'm coming to get you"; and none were even directed towards him. (Tr. at 174-75.)
After speaking to his partner, who calmed him down, Hoffman, who had become a part-time law
student after the Hale trial, went to his law school library to study. At about 2:00 or 3:00 p.m., he
received an e-mail from a friend stating that he could do a "reverse lookup in Google." He typed in
his cell number and "all of a sudden what popped up was a picture of me on overthrow.com, a white
supremacist website." (Tr. at 136.) The text messages continued for a {2011 U.S. Dist. LEXIS
18}few days. (Tr. at 140.) Again, though, Hoffman testified that none of the texts he saw threatened
{779 F. Supp. 2d 783} him; nor were any threats later brought to his attention. (Tr. at 175.)
The government then introduced the three Overthrow.com posts pertaining to Hoffman. The first
appeared as part of the article defendant wrote discussing Hale's post-conviction motion challenging
his conviction based on Hoffman's service on the jury. The article was entitled "Hale Seeks To Have
Sentence Overturned. Gay Jewish Anti-Racist Led Jury." (Govt. Ex. 2 at 1.) Below the headline and
byline (9/11/2008 10:52 AM, Overthrow Staff), was a picture of Hoffman, with the caption:
Gay Jewish anti-racist Mark P Hoffmann was a juror who played a key role in convicting Hale.
Born August 24, 1964, he lives at 6915 HAMILTON #A CHICAGO, IL 60645 with his gay black
lover and his cat "homeboy". His phone number is (773)274-1215, cell phone is (773)426-5676
and his office is (847) 491-3783.
(Govt. Ex. 2 at 1; Tr. at 142.)2 The article then proceeded to discuss Hale's motion, stating:

lygcases

6

.©.2.02 LMatthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-si-

13888084

A white leader wrongfully imprisoned on charges of "conspiring" to kill a federal judge may have
his forty year prison sentence reduced if an Illinois {2011 U.S. Dist. LEXIS 19}judge assigned
the task of reviewing the qualifications of his jurors finds impropriety in their selection.
According to a motion put forward by Matt Hale yesterday in federal court, a gay Jewish
Assistant Dean at Northwestern University, Mark P Hoffmann, who has a gay black lover and ties
to professional anti-racist groups, and who also personally knew a Northwestern University
basketball coach killed by Ben Smith, a follower of Hale, was allowed to sit on his jury without
challenge and played a leading role in inciting both the conviction and the harsh sentence that
followed.
Hoffman, who was elected jury Foreman and who led the conviction of Hale, lives in West
Rogers Park with his gay black lover and his cat, "Homeboy".
The motion also asserts that Hale's counsel at trial, Thomas Anthony Durkin, failed to put on
evidence that Hale had praised Judge Joan Lefkow, referred to her as an "ally" of the cause, and
had referred to Jewish attorney James Amend as a "Jew rat" he would like to "exterminate", not
Lefkow.
Hale also states that his attorney failed to challenge a government search warrant, stipulated to
the accuracy of an inaccurate transcript, and put on evidence designed to convict {2011 U.S.
Dist. LEXIS 20}Hale.
It has long been believed among white organizations that Durkin was bribed by Jewish groups or
the federal government into deliberately sabotaging Hale's case.
{779 F. Supp. 2d 784} Hale was accused of conspiring with a federal informant, Tony Evola, to
murder Judge Lefkow, who had been hearing a copyright infringement case against Hale.
However, during the trial, it came out that Hale did not conspire with Evola, but when Evola, at
the instruction of the FBI, had tried to solicit the assassination of Lefkow, Hale had responded by
saying that he didn't care what Evola did one way or another.
Hale has appealed and sought a reduction of his criminally long sentence since the trial, without
avail, but his latest appeal may overturn the court's decision.
A cryptic article in the Chicago Sun-Times refused to identify which court Hale had filed his
appeal in or any details of the case, but documents filed in Illinois District Court Civil
.1:08-cv-00094 by his attorney, Clifford J. Barnard, document Hale's claims.

^

(Govt. Ex. 2 at 1-2.)3 The article ended with the notation:
Emailed to you by:
Overthrow.com
ATTN: Bill White, Editor
(Govt. Ex. 2 at 2.)
Hoffman testified that the first phone number listed in the caption about him (the 274 number) was
his phone number when he lived at the Hamilton address, but he had moved from there about a year
before. (Tr. at 143.) The cell number listed was his actual cell phone number, as was the office
number listed. Regarding the balance of the caption, Hoffman indicated that he was not Jewish, and
that his name was not spelled with a double "n." (Tr. at 143-44.)

lygcases

7

-© 2021-MatthewBender & Company, Inc., amember.of.the LexisNexis Group.AU rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-82-

13888084

On the left hand side of the Hoffman post were links to other articles referred to as "Top Articles
(2008)", the first of which was entitled "Nigger Candidate Comes Out Against The Constitution."
(Govt. Ex. 2 at 1; Tr. at 146.) Article number 11 on the list was entitled "Kill Richard Warman." (Govt.
Ex. 2 at 2; Tr. at 146-47, 320.) Also to the left of the Hoffman post was a depiction of the cover of
"National Socialist" magazine, which bore a picture of then-presidential candidate Barack Obama
with crosshairs over his head and bearing the title: "Kill This Nigger? Negro Deification And the
'Obama Assassination' Myth." (Govt. {2011 U.S. Dist. LEXIS 23}Ex. 2 at 1; Tr. at 147.) Hoffman
testified that if you clicked on the Obama picture you were taken "further back into the website to
additional materials," including a portion of the "official Blog of Overthrow.com." (Tr. at 148; Govt. Ex
1.) That portion of the site also contained a post entitled, "The Juror Who Convicted Matt Hale."
Below the same picture of Hoffman, the post included the same information: .
Gay Jewish anti-racist Mark P Hoffmann was a juror who played a key role in convicting Hale.
Born August 24, 1964, he lives at 6915 HAMILTON #A CHICAGO, IL 60645 with his gay black
lover and his cat "homeboy". His phone number is (773) 274-1215, cell phone is (773) 426-5676
and his office is (847) 491-3783.
(Govt. Ex. 1 at 1; Tr. at 148.) Following a post about defendant's appearance on a Columbia, South
Carolina radio show (Govt. Ex. 1 at 1-2), the blog section contained {779 F. Supp. 2d 785} a post
entitled, "'Kill This Nigger - Obama Assassination Magazine," followed by another photo of the
magazine's cover and a statement that the American National Socialist Workers Party was seeking
donors to help them raise money to print 20,000 copies of the new magazine:
for distribution in certain "swing markets" {2011 U.S. Dist. LEXIS 24}just prior to the November
election.
The controversial cover for a story on "Negro Deification And The 'Obama Assassination' Myth",
looks at the role of Barack Obama's radical communist politics and Jewish backers have played
in making his electoral career and how he plans genocide against white working people.
The article also looks into the phony "Obama assassination" conspiracies that have circulated in
the Jewish press, and how major Jewish newspapers, like the Washington Post, tried to promote
white supremacist opposition to Obama through planted and staged newspaper articles.
The ANSWP will print 10,000 copies of a 12-page magazine if it receives $3800 by October 1st,
and will print 20,000 copies of a 16-page magazine if it receives $10,000 by that time. (20,000
copies of a 12-page magazine will run about $7,000 - $7,500).
Those willing to contribute to this project should send donations to:
ANSWP
PO Box 8601
Roanoke, VA 24014
As little as ten donors putting up $380 each, or twenty donors contributing $190, will make this
project happen.
(Govt. Ex. 1 at 2-4.)
This section of the blog contained various other stories, followed by links to "White Blogs.” (Govt. Ex.
1 at 4-11; Tr. at 149.) {2011 U.S. Dist. LEXIS 25}At the end was a "Recent Comments" section,
which included two comments about the Hoffman post, one stating "This is why I advocate every
white racist/realist/nationalist register to vote so . .." and the other stating: "Wanna take bets on how

lygcases

8

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-83-

13888084

quick his cell phone turns off/number changes? My bet is by at least 5pm." (Govt. Ex. 1 at 11; Tr. at
150.) Hoffman testified that he initially refused to change his number but decided to do so about a
week later after he got a disturbing phone call.4 (Tr. at 150, 154.)
Hoffman testified that after he saw these posts he had Northwestern remove all of his identifying
information from its website. (Tr. at 150.) The school's IT people replaced Hoffman's photo with a
picture of a swastika in a red circle with a slash through it, which then appeared on the
Overthrow.com web page. (Tr. at 152.) However, the next day, September 12, 2008, at about 6:21
p.m., a new post {2011 U.S. Dist. LEXIS 26}appeared on Overthrow.com, entitled: "Mark P Hoffman
Update," with the sub-heading, "Since They Blocked the First Photo." (Govt. Ex. 4 at 1.) The post
contained the same photo of Hoffman, with the text:
Gay Jewish anti-racist Mark P Hoffman was a juror who played a key role in convicting Hale.
Born August 24, 1964, he lives at 6915 HAMILTON #A CHICAGO, IL 60645 with his gay black
lover and his cat "homeboy". His phone {779 F. Supp. 2d 786} number is (773) 274-1215, cell
phone is (773) 426-5676 and his office is (847) 491-3783.
Note that Northwestern University blocked much of Mr. Hoffman's information after we linked to
his photograph.
(Govt. Ex. 4 at 1; Tr. at 152-53.) On the left hand side, the site again contained links to the top
articles of 2008 and a picture of the Obama magazine cover. (Govt. Ex. 4 at 1; Tr. at 153.)
The government obtained a copy of the magazine, which also contained an article about Hoffman,
entitled "Hale's Jew-ror." (Govt. Ex. 5 at 4-6; Tr. at 156-58.)5 The article began:
Mark P Hoffman is typical of the trash you might see carrying signs and throwing urine bags at a
local rally against "racism," "sexism," or "homophobia". A former professor at Chicago's
Northwestern University who {2011 U.S. Dist. LEXIS 27}lives at 6915 Hamilton #A in Chicago,
Illinois, 60645, he's a homosexual Jew with a black lover and a cat named "homeboy." You can
call him at (773) 274-1215, cell phone is (773) 426-5676 and his office is (847) 491-3783.
If that was all that Hoffman was - another anonymous voice in a dirty Jewish mob, screaming for
blood and for the further impoverishment of the white worker - he would hardly be of note. But
Hoffman is something more - he was not only a juror at the nationally publicized trial of Matt
Hale, but the jury foreman, and the architect of both Hale's conviction and his extreme and
lengthy forty year sentence.
(Govt. Ex. 5 at 6.) The article then discussed suspicions that Hale's lawyer threw the case and may
have been bribed, other issues at Hale's trial, and Hale's recent court filing challenging Hoffman's
service on the jury. (Id.)
Nowhere in any of the Overthrow.com posts or the magazine article did defendant call for anyone to
kill or hurt Hoffman, his life partner, or his cat. (Govt. Ex. 1, 2 & 4; Tr. at 181, 183, 185-86, 190.)
Hoffman testified that from September 11, 2008, the date of the {2011 U.S. Dist. LEXIS 28}first
post, to the date of defendant's trial, no one threatened to kill him, showed up at his house, stalked
him, or physically harmed him in any way. (Tr. at 190-91.)
The government next called FBI Special Agent Maureen Mazzola, who acted as the case agent in
defendant's prosecution. (Tr. at 196-97.) Mazzola testified that as part of her investigation she
obtained phone records for Mark Hoffman's cell phone and the cell phone of Megan White,
defendant's wife, which reflected a call from Megan White's phone to Hoffman's on September 11,
2008, at 10:34. (Tr. at 201-02.) Mazzola further testified that as part of her investigation she
reviewed the Overthrow.com website in great detail. (Tr. at 202.) The government then introduced

lygcases

9

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
"an"d terms and conditions of the Matthew Bender Master Agreement.

-84-

13888084

through Mazzola various older posts, marked as exhibits 1-35,6 from the Overthrow.com server. (Tr.
at 202-03.) In these posts, defendant displayed what purported to be the addresses of the "Jena Six,"
a group of black teens accused of beating a white boy (Govt. Ex. 8, 10), along with an article entitled
"Lynch The Jena Six" (Govt. Ex. 35); discussed an attack on Holocaust survivor and author Elie
Wiesel by a white supremacist named Eric Hunt and displayed addresses {2011 U.S. Dist. LEXIS
29}for Wiesel "in {779 F. Supp. 2d 787} case anyone was looking for him" (Govt. Ex. 9); excoriated
Canadian civil rights lawyer Richard Warman, posting what purported to be Warman's address and
stating that Warman "should be drug out into the street and shot, after appropriate trial by a
revolutionary tribunal of Canada's white activists" (Govt. Ex. 11, 18, 19); discussed the murders of
Judge Lefkow's husband and mother, which defendant considered "justice" (Govt. Ex. 13-15);
mentioned an e-mail allegedly containing the home addresses of other persons involved in the Hale
case circulating among white nationalist discussion groups, but which defendant declined to
republish because "we feel there is so great a potential for action ... at this time" (Govt. Ex. 16);
discussed an attack on the former home of an individual who allegedly cooperated with federal
authorities against a white supremacist named Jake Laskey (Govt. Ex. 23); displayed the home
address and phone number of newspaper columnist Leonard Pitts after Pitts wrote a column
defendant did not like (Govt. Ex. 30), and which he refused to remove upon the request of Pitt's
editor, stating "if some loony took the info and killed him, I wouldn't shed {2011 U.S. Dist. LEXIS
30}a tear" (Govt. Ex. 31).
Mazzola, who viewed Overthrow.com when it was "live" on the internet, testified that a user who
visited the website on September 11, 2008 would first see the Hoffman post, exhibit 2. (Tr. at 287,
296.) However, such a user would not immediately see the other articles introduced by the
government; he would have to click on a link or otherwise visit another portion of the site to reach
those articles. (Tr. at 287-88, 290, 295, 301, 303.) To find a particular article, the user would have "to
be either looking for it or reading every single article on the website." (Tr. at 292.) And if one clicked
on a link to another article, Hoffman's information would disappear and no longer be on the same
page.7 (Tr. at 297, 299, 312.) Mazzola testified that she went through a "fair number" of the articles
on the site prior to trial and picked the ones that would be presented to the jury. (Tr. at 292-93.) She
stated that it was not difficult for her {2011 U.S. Dist. LEXIS 31}to find what she was looking for on
the site. (Tr. at 321.) However, in locating specific posts Mazzola had the assistance of the FTK
program installed by Messing; someone visiting the website would not have such a tool. (Tr. at 326.)
Nowhere on the Overthrow.com website or blog did Mazzola see any statement suggesting that
Hoffman be harmed. (Tr. at 317.) Nor did the National Socialist magazine article suggest that
Hoffman be harmed. (Tr. at 318.)
The government next called two former members of the ANSWP. Philip Anderson, a twenty-two
{2011 U.S. Dist. LEXIS 32}year old resident of Peoria Heights, Illinois, testified that he left the
ANSWP after defendant's arrest, about two years before trial. (Tr. at 327.) He stated that he
presently worked at McDonald's and lived with his parents. (Tr. at 328.)
Anderson testified that he was eighteen when he joined defendant's organization, which he
discovered through the internet, specifically the website Overthrow.com. (Tr. at 328.) In June 2007,
he obtained an {779 F. Supp. 2d 788} application for membership either from the website or the
back of the ANSWP magazine, filled it out, and sent it in. (Tr. at 329, 337; Govt. Ex. 55.) A few
weeks later, defendant called him and left a voice mail stating that he wanted to talk to Anderson
about activism and joining. (Tr. at 330-31.) Anderson attempted to return the call but didn't get
through. He then received an e-mail from defendant or one of the other members advising him of a
conference call. (Tr. at 332.) Anderson phoned in to join the conference call, which included other
members, Mike Downs from Virginia, Mike Burks from Kentucky, and a woman from Texas. (Tr. at

lygcases

10

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-85-

13888084

333-34.)
Shortly thereafter, in the summer of 2007, defendant appointed the eighteen-year-old Anderson
Illinois {2011 U.S. Dist. LEXIS 33}State leader. (Tr. at 332, 337.) Anderson testified that his
responsibilities as state leader included distributing fliers and recruiting others. (Tr. at 339.) However,
Anderson said that he was able to enroll just one other ANSWP member in the State of Illinois, a
high school friend who also lived in Peoria Heights and with whom Anderson listened to white
supremacist music. (Tr. at 333.)
Anderson testified that he personally met with defendant twice, the first time at the ANSWP
Congress in Kentucky in the summer of 2007, and the second at a Hitler celebration in Chicago in
April 2008. (Tr. at 334-35.) He also participated in regular, bi-weekly conference calls conducted by
defendant. (Tr. at 336-37, 370.) During these calls, defendant discussed the status of the
organization, finances and how the magazine was doing, and each unit leader would then provide a
report on the activities in his area. (Tr. at 337, 370-71.) Defendant would also ask the participants to
do certain things. However, at no time during such calls did defendant advocate violence. (Tr. at
340, 371.) Anderson testified that defendant never asked him to raise money or sell magazines; he
did ask Anderson to recruit others, {2011 U.S. Dist. LEXIS 34}but, as noted, Anderson was able to
recruit just one other person, his high school friend. (Tr. at 340.) Anderson testified that he also
attended rallies including one at St. Xavier College at which Elie Wiesel spoke. (Tr. at 340.)
Anderson testified that he saw the Hoffman post on Overthrow.com in September 2008. (Tr. at 341.)
He also saw the "Hale's Jew-ror" magazine article. (Tr. at 343.) Anderson testified that shortly after
these posts appeared, defendant called him and explained that the FBI had searched his home and
that he believed it may have something to do with the posts about the Hale juror. (Tr. at 343-44.)
Defendant asked Anderson if he had heard anything about anyone wanting to do something or if
someone had already done something to the Hale juror. Anderson said he hadn't. Defendant asked
Anderson to call around to others involved in the white supremacist movement, including Tom
McLaughlin, Steve Johnson, and Art Jones, to find out if they had heard anything. (Tr. at 344, 347.)
Anderson testified that defendant sounded shaken up and worried that someone would do something
to the juror. (Tr. at 344-46.) Anderson called Johnson, who indicated that he had not seen the post
{2011 U.S. Dist. LEXIS 35}about Hoffman. (Tr. at 347, 366.) Anderson testified that he made these
calls because defendant asked him to and because he was concerned about harm being done to the
juror. (Tr. at 353.) Anderson reported back to defendant during a conference call a few days later.
During that call, defendant described to the other participants what he had earlier told Anderson - the
FBI raided his house regarding the Hale juror. (Tr. at 354.) Defendant said "someone may be trying
to do something." (Tr. at 354.) Anderson told defendant he had gotten ahold of Art and Steve and
neither of them knew anything {779 F. Supp. 2d 789} about it, but they would listen to see if they
heard anything. (Tr. at 355.) Defendant said "okay." (Tr. at 356.) Defendant did not at that time
sound anxious and concerned, as he had in the previous one-on-one call with Anderson. (Tr. at 356.)
Shortly thereafter, Anderson learned that defendant had been arrested. (Tr. at 356.)
On October 29, 2008, about ten days after defendant's arrest, Anderson received a letter from
defendant. (Tr. at 357; Govt. Ex. 53.) The letter stated:
Phil, as you know, I've been arrested, and you are a very important witness in my case. I am
writing to you to remind you to {2011 U.S. Dist. LEXIS 36)please stay in touch with my wife and
my attorneys and let us know if your address changes or anything happens to you during the
course of this trial. You will be asked to testify to the following:

lygcases

11

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-86-

13888084

(1) to my phone call to you on or about Sunday, October 12th, in which I discussed the FBI
search warrant with you and asked you to contact Art Jones, Steve Johnson, and John
McLaughlin to discover what happened to this juror and to stop anyone, particularly the Creators,
who may have any plans against him.

(2) to our phone conference on or about Wednesday, October 15, in which I repeat the same
instructions and at which Dan Jones, Rudy Orr, Mike Burks, yourself and I were in attendance...
(3) you may be asked about other aspects of ANSWP activism and your reading of the
overthrow.com website. The key there will be to focus on the fact that you have never done
anything criminal, and do not interpret articles on overthrow.com as criminal instructions. . ..
(4) you should answer all questions truthfully, honestly, and with the fullness of the answer
required. Do not guess or theorize.
(Tr. at 358-61, 369.) Asked how he interpreted this letter, Anderson answered: "I figured that's {2011
U.S. Dist. LEXIS 37}just what he's asking me to testify about." (Tr. at 361.) Anderson testified that
he turned the letter over to the FBI, heard nothing further from defendant, and had not spoken to
defendant since. (Tr. at 361.)
Anderson testified that between September 11, 2008, when the Hoffman post first appeared, and
October 12, 2008, the date of the FBI search of defendant's house, defendant did not contact him
about the matter. (Tr. at 364-65.) During the October 12 conversation, defendant asked Anderson to
contact the Creators to find out if anything was going on; but defendant did not say that he had told
them to do anything to Hoffman. (Tr. at 366.)
Anderson testified that defendant never asked him to harm anyone or do anything criminal. (Tr. at
368.) Anderson stated that he had conversations with defendant prior to the Chicago conference
where Elie Wiesel spoke, which defendant did not attend, and defendant did not tell Anderson to hurt
Wiese! in any way. (Tr. at 369-70.) And defendant did not tell him to harm anyone else as part of his
ANSWP duties, including Mark Hoffman. (Tn at 371.)
Anderson testified that in order to become a member of ANSWP an applicant had to have "good
morals," which {2011 U.S. Dist. LEXIS 38}the application defined as:
not having a spouse or custody of children of non-white racial heritage within five years of the
date of application;
Not having had sexual relations with a person of non-white racial heritage within five years of the
date of the application;
{779 F. Supp. 2d 790} Having not been convicted, incarcerated, or under probation or parole for
any infamous crime within five years of the date of application;
Having not been treated for a mental illness with delusionary, hallucinatory, paranoid, or severe
abnormal personality characteristics within five years of the date of application;
Having not been treated for substance or alcohol abuse within five years of the date of
application;
Having not had an abortion within five years of the date of application;
Being heterosexual and without any public display of sexual fetish or deviance;

lygcases

12

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.
—

-87-

13888084

Providing maintenance for one's children;
Being gainfully employed insofar as one is capable of being so, though this shall not exclude the
right of those disabled by injury or disease to join the party;
Not being employed in an infamous profession;
And not being active in any organizations whose goals run contrary to those of the party.
(Tr. at 376-77.) The ANSWP {2011 U.S. Dist. LEXIS 39}also performed a criminal background
check on applicants, with a portion of the $50 membership fee going to the cost of the check. (Tr. at
377.) Generally, if something showed up on the check, the person was denied membership. (Tr. at
378.)
Regarding the Hoffman post, Anderson said he first saw it on the internet on September 11, 2008;
there was no prior discussion among the members about putting this information up. (Tr. at 378-79.)
The post did not say to harm Hoffman, and Anderson never saw anything on the website which said
to harm Hoffman. (Tr. at 379.) Regarding other articles on the site, Anderson testified that one had to
click on a link to see them. If one clicked on a link on September 11, 2008, the Hoffman information
would go away, and the linked article would appear. Regarding the "Kill This Nigger?" magazine
cover, which appeared next to the Hoffman post, Anderson testified that he had no knowledge that
any ANSWP member intended to kill Barack Obama. (Tr. at 380.) Anderson testified that this was a
catchy headline, and Overthrow.com was filled with catchy headlines. (Tr. at 380-81.)
The other ex-ANSWP member, Michael Burks, testified that he was twenty-nine, lived in Louisville,
{2011 U.S. Dist. LEXIS 40}Kentucky, and worked as a security guard. (Tr, at 381.) Burks testified
that at age nineteen he joined his first white supremacist group, participating in several before joining
the ANSWP, headed by defendant, in January 2007. (Tr. at 382-83.) Burks said he was aware of
defendant before then, having read defendant's website, Overthrow.com, since 2005 or 2006. (Tr. at
383.) Burks testified that defendant was a member of the National Socialist Movement ("NSM")
before splitting off to form the ANSWP. (Tr. at 384.)8
Burks testified that when he decided to join he first e-mailed the Kentucky leader, Michael Garrett,
then e-mailed defendant. (Tr. at 384-85.) Defendant responded, asked Garrett to speak with Burks,
and Burks joined after meeting with Garrett. (Tr. at 385.) In order to join, an applicant could download
an application from the website, answer the questions, and send in $50; defendant would then do a
background check. (Tr. at 385.) Burks testified {779 F. Supp. 2d 791} that after going through this
process he became a member, and within two months became the Kentucky state leader, as he
{2011 U.S. Dist. LEXIS 41}had more experience in the white power movement than Garrett. (Tr. at
385-86.) Defendant later nominated Burks the Midwest regional director, which included Kentucky,
Indiana, Iowa, Ohio, and Michigan, perhaps Missouri. At most, Burks had twenty to twenty-five
people under him in that position, and in some of the states in his region they had no members. (Tr.
at 386.) In September 2008, the group's contact list contained 300-400 names but only twenty to
thirty paid members under him. Burks was unable to say how many people total were in ANSWP, as
he never saw the membership lists for the other regions. (Tr. at 387.) Burks testified that at the time
of trial he was not a member of any white supremacist organization, and that his beliefs had changed
within the previous year and half. (Tr. at 388.)
Burks testified that after he joined the ANSWP he spoke to defendant on a weekly basis by phone.
Later, the group held bi-weekly conference calls, where members would call in; these calls would
include as few as three or four, sometimes as many as ten to twelve people. (Tr. at 388.) The calls
were conducted through Skype, and members would call a number in Oklahoma or Nebraska to be

lygcases

13

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of theMatthew Bender Master Agreement.

-88-

13888084

connected. {2011 U.S. Dist. LEXIS 42}(Tr. at 389.) During the calls, defendant would start by talking
about fund raising and things going on at the national level, then the regional leaders would talk
about things going on in their areas. (Tr. at 390.) As a regional leader, Burks could speak to the press
or field questions from state leaders. He would go to defendant with membership problems. (Tr. at
390.) Ultimately, defendant would decide what to do about the problem member. (Tr. at 391.)
Burks testified that he saw the Hoffman posts on Overthrow.com on or around September 11, 2008.
(Tr. at 391-92.) Later that month, during an ANSWP conference call, which also included Phil
Anderson, Dan Jones, and Michael Downs, defendant stated that he had been advised by one of his
lawyers that nobody contact Hoffman. (Tr. at 393-94.) Burks testified that in October 2008, he
learned from a neo-Nazi website called Vanguard News Network that defendant had been arrested.
(Tr. at 394.) Sometime thereafter, defendant's wife called Burks (Tr. at 395) and in late October or
early November 2008 he received a letter from defendant. (Tr. at 396; Govt. Ex. 52.) The letter
began: "I want to thank you for your support and your willingness to testify {2011 U.S. Dist. LEXIS
43}in the face of the Government's efforts against us. Your loyalty is not forgotten." (Tr. at 398.)
Despite this introduction, Burks stated that he had not agreed to testify or do anything on defendant's
behalf with respect to his arrest. (Tr. at 398.) Regarding the letter's use of the plural, i.e., "the
Government's efforts against us," Burks testified that he understood this to refer to the entire
ANSWP, or what defendant would refer to as white working class people in general. (Tr. at 398.)
Burks said that this was not the only time defendant referred to himself in the plural; sometimes on
Overthrow.com the article would be attributed to "staff," but defendant told Burks that only he wrote
articles for the site. (Tr. at 399.)
The letter continued:
I do not know what my wife has told you about the case, but the key elements to which we need
you to testify are as follows:
(1) To the October 15th, 2008, phone conference, attended by Phil Anderson, Randy Orr, Dan
Jones, yourself, and myself .. . you were at a baseball game {779 F. Supp. 2d 792} during the
call, I do not know how much you followed, where I asked Phil how his efforts in Chicago to
determine what had occurred ... to Mr. Hoffman and to stop any {2011 U.S. Dist. LEXIS
44}efforts to harm him were going, and Phil responded he was working on it.
(Tr. at 399-400.) Burks testified that he did not participate in this conference call. He stated that on
October 15, 2008, he was at a minor league baseball game with his dad, and while he was there
Michael Downs called him and asked why he was not on the conference call; he replied that he was
at a baseball game, and the conversation lasted less than thirty seconds. (Tr. at 400.) Accordingly,
Burks did not hear defendant ask about Anderson's efforts in Chicago. (Tr. at 401.)
The next paragraph of the letter stated:
if Justin Boyer is to be called as a witness against me, to our difficulties with him,... your desire
for me to remove him, my statements to you in response, and ... to his e-mails to you regarding
the events in Lima, Ohio.
(Tr. at 401.) Burks testified that Justin Boyer was the state ANSWP leader in Ohio. (Tr. at 401.)
Burks said that in 2007 and 2008 he had conversations with defendant about Boyer, in which he
(Burks) told defendant that he wanted Boyer removed as state leader and kicked out of the
organization. (Tr. at 402.) Burks testified that he wanted Boyer kicked out because he failed to show
{2011 U.S. Dist. LEXIS 45}up for events and allegedly abused the mother of his children. (Tr. at
402-03.) Burks also advised defendant that Boyer was stupid, would disappear for weeks or months
at a time, and that his phone was often disconnected. He told defendant more than once that he

lygcases

14

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-89-

13888084

thought Boyer was unstable. Defendant normally responded that they had nobody else suitable for a
leadership role in Ohio and "just go with the flow." (Tr. at 404.) Ultimately, defendant told Burks he
was going to leave Boyer in place. (Tr. at 405.)
The third paragraph of the letter indicates that Burks was to testify:
To the general activities of the ANSWP and to your reading of overthrow.com, particularly to our
rejection of criminal activity and violent crime and as to how our profiles of various personalities
in the news are intended to inform and educate and not to incite violent criminal activity.
(Tr. at 405.) Asked what he understood defendant to be asking here, Burks replied: "To make it seem
that everything that ANSWP was was legal, that there was no illegal activities or anything illegal in
some of the writings off overthrow.com." (Tr. at 405.) Burks said that he had a different
understanding of Overthrow.com. (Tr. {2011 U.S. Dist. LEXIS 46}at 405.) When asked to elaborate,
Burks testified:
He did a few - he also did a radio show. He wrote an article once called, Kill Richard Warman,
and also on the radio show he gave out the address of Richard Warman. He said this bastard
has lived way too long. If somebody wants to kill him, here's his address. And he repeated that
two or three times.
(Tr. at 406.) Burks said that although the third paragraph of the letter asked him to testify that nothing
on the website was intended to incite violent criminal activity, he had a different understanding:
Q And what was that?
A He really didn't care if something did happen. It would be kind of like with the, I know I'm going
to say his name wrong, but Ollie Wiesel.
Q Elie Wiesel?
A Yes. For instance, he was attacked and Bill bragged that the person that attacked him was a
loyal soldier and follower of his.
{779 F. Supp. 2d 793) Q So is it fair to say that on certain occasions, you actually understood
the defendant's words and, both spoken words and written words, on overthrow.com to actually
be requests that people go out and go violent things? ...

THE WITNESS: Yes
Q And so that is true with Richard Warman?
A That's correct.
Q And it's true with Elie Wiesel?
A {2011 U.S. Dist. LEXIS 47}Correct.
Q And do you remember any other instances where you understood it to be an actual request for
people to do violence?
A The Jena Six case.
Q Could you explain very briefly what your understanding of the Jena Six case is?
A He did a radio show on that topic, too, and he said they should be brought to town square and
hung and sacrificed to the pagan god Odin.

lygcases

15

'fi-?n?l-MarthRw-ftmrier&-f;ompanv^lnc-a mcmher-of.theLexisNexis-GrouD..All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-go-

13888084

Q And did it provide addresses for the people that the defendant referred to as the Jena Six?
A Yes, he did.
(Tr. at 407-08.)
The fourth paragraph of defendant's letter to Burks stated that "in all matters you should tell the truth ,
and fully answer questions without evasion. However, you should not guess or theorize or testify
beyond your certain knowledge." (Tr. at 408.) Burks said that he could not follow the first three
paragraphs and paragraph number four, because the first three paragraphs contained lies, such as
him being on the conference call when he was at a baseball game, and that there was no criminal
activity on Overthrow.com or defendant's radio show. (Tr. at 408-09.)
The next paragraph of the letter stated that defendant had been in discussions with Willis Carto and
Eric Gliebe "regarding a merger of the ANSWP and the {2011 U.S. Dist. LEXIS 48}National
Alliance. I think such talks should continue. Now is the time for making friends, building bridges, and
seeking alliances. We should seek refuge from the storm." (Tr. at 409.) Burks testified that Willis
Carto had been involved in the white power movement for many years, was in his 70s or 80s, and
ran a publishing company that promoted books and other white power material. (Tr. at 409.) Burks
testified that defendant normally spoke in favor of Carto, but found him a "little too old-fashioned."
(Tr. at 415-16.) Defendant normally viewed Gliebe "more negatively that he did Carto." (Tr. at 416.)
Defendant thought that Gliebe (and the chairman of the National Alliance before him) had caused
the downfall of the Alliance. (Tr. at 416.)
Burks further testified, based on conversations with defendant or reading defendant's statements,
that defendant referenced "the Order," a white supremacist organization from the early 80s, which
committed numerous crimes in the Northwest. (Tr. at 417.) Defendant "referred to what they did as
justice to an extent; but, you know, he didn't totally agree with how they handled certain things." (Tr.
at 417.) Defendant was aware of two particular members {2011 U.S. Dist. LEXIS 49}of the Order,
David Lane and Bruce Matthews. Lane died in prison while serving a murder sentence, and the white
power movement viewed him as a hero and a martyr to the cause; Matthews was killed in a gunfight
with federal agents. (Tr. at 418-19, 422.) Defendant's views of Matthews "were normally positive."
(Tr. at 419.) Defendant referred to Eric Hunt - the man who attacked Elie Wiesel - "as a loyal
soldier." (Tr. at 419.) Asked if defendant considered others to be martyrs to the cause, Burks said
that defendant {779 F. Supp. 2d 794} spoke highly of Hale and Laskey. (Tr. at 423.) However, Burks
also testified that Carto, Gliebe, Lane, and Matthews were not members of the ANSWP, and that
defendant's articles about Elie Wiesel were written after Eric Hunt attacked Wiesel. (Tr. at 426.)
Defendant's letter concluded that Burks was to work with Dan Jones and Chris Drake, the south
regional leader. However,
Chris is taking a hiatus because of his daughter's birth. The future of the ANSWP is with you
there. And remember that I have only been gone 13 days and may be released as early as
November 12th. I will not be continuing overthrow.com and will be able to do little activity with
the charge pending, but that does {2011 U.S. Dist. LEXIS 50}not mean that the world falls apart
in my absence.

[Tjrust both my wife and Robert Campbell. Robert in particular will speak for me in my absence.
Help build the legal defense fund and stay in touch with my wife so that we can bring you in to
testify.

lygcases

16

and terms and conditions of the Matthew Bender Master Agreement.

-91-

13888084

[Rjemember that they cannot hold me forever and that these nuisance arrests are part of the
business of sticking your thumb in the eyes of the powerful. Injury is part of struggle and struggle
is necessary for victory.

PS . . . keep me informed of the November 13th grand jury.

PPS ... if I am moved to Chicago, correspond with me through my wife.
(Tr. at 420-21.) Burks testified that by the time he received this letter, he had been subpoenaed to
testify before the Roanoke grandJjury. (Tr. at 421.)
Burks testified that the FBI approached him in 2007 about a mail fraud matter involving Dan Jones,
and that he was "a little afraid" they would also come after him. (Tr. at 428.) The FBI also
approached him regarding this case, and he turned over the letter defendant wrote him without
hesitation. (Tr. at 428-30.) He also admitted that the letter defendant sent him said to tell the truth "in
all matters." (Tr. at 431.) The letter {2011 U.S. Dist. LEXIS 51}did not tell Burks to contact other
people, either about a merger or to make sure nothing happened to Hoffman. (Tr. at 432.) Regarding
Boyer, Burks said that Boyer told him he had been arrested for abuse, but Burks did not obtain any
reports or otherwise verify that Boyer had in fact been arrested. (Tr. at 433.) As soon as the ANSWP
determined that there was a warrant for Boyer's arrest, Boyer was put on a leave of absence (Tr. at
433), and he later quit on his own (Tr. at 434).
Burks testified that an applicant for membership in the ANSWP could not have a criminal
background. Small, distant crimes might be overlooked, but major offenses would result in rejection.
(Tr. at 438-39.) The three goals of the ANSWP were to (1) gain a healthy following, (2) obtain
political position to gain power, and (3) divide the U.S. by race and deport non-whites back to their
country of origin. (Tr. at 439-40.) There was no goal to.harm people or commit violence. (Tr. at 440,
442.) Defendant never told Burks to harm anyone. (Tr. at 443-44.) Nor did Burks ever do anything
illegal for defendant. (Tr. at 444.) During the conference calls between September 11, 2008, and
October 12, 2008, defendant did not {2011 U.S. Dist. LEXIS 52}mention Hoffman other than the one
statement about what his lawyer told him to do. (Tr. at 445.) No one posted anything on
Overthrow.com saying they were going to do anything to Hoffman. Nor, during his {779 F. Supp. 2d
795} time as a member of the ANSWP, did Burks learn that anybody was going to hurt Hoffman. (Tr.
at 445-46.)
On re-direct, Burks confirmed that the ANSWP's stated goals did not include violence.
Q Nonetheless, what was your understanding of the posting such as, Kill Richard Warman?

THE WITNESS: I don't know any other definition of the word "kill." When somebody says kill this
bastard, I don't know what else that can possibly mean. When he gives out his address and says
somebody should kill this bastard. I don't know how else you can interpret that to mean.

Q How else other than what?
A To actually kill him. I mean, there's only one, like I said - word "kill" means to end somebody's

lygcases

17

’a~?07.TTOmhewBEnrier-&-CtmTpanvrlne~a-member-of-the-LexisNexisXiroup_AlLrightS-reseryed. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-92-

13888084

life.
Q What about lynch the Jena Six?
A Same concept. Like I said, when he did the radio show, he said they should be brought to the
town square and sacrificed to the god Odin.
(Tr. at 448.)
The government then rested. (Tr. at 451.) Subject to making a Rule 29 motion, defendant rested
without presenting evidence (2011 U.S. Dist. LEXIS 53}and then argued the motion outside the
presence of the jury. (Tr. at 451-52, 456.) I reserved decision and submitted the case to the jury. (Tr.
at 455.)
The jury deliberated from 4:17 p.m. to 6:04 p.m. on January 4, then went home for the evening. (Tr.
at 559.) It recommenced deliberation at 9:00 a.m. on January 5 and at about 11:25 a.m. sent me a
note stating:
Requests from the jury. And then the first thing is the courtroom be cleared of visitors/press.
Second thing is the jurors be taken out through a different exit building.
Third, jurors have reached a verdict.
(Tr. at 563.) After soliciting the views of counsel, I advised the jury that they would be escorted out
through a different exit, but that I had no authority to clear the courtroom of visitors and press. I also
advised that there were no photographers or sketch artists in the courtroom. (Tr. at 565-66.)9 The
jury then returned a verdict of guilty. (Tr. at 567.)
(779 F. Supp. 2d 796} II. RULE 29 STANDARD
Rule 29 provides that the court "must enter a judgment of acquittal of any offense for which the
evidence is insufficient to sustain a conviction." Fed. R. Crim. P. 29(a). In considering a challenge to
the sufficiency of the evidence, the court determines whether, viewing the evidence in the light most
favorable to the government and bearing in mind that it is the exclusive function of the jury to
determine the credibility of the witnesses, resolve evidentiary conflicts, and draw reasonable
inferences, a rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt. See, e.a.. United States v. Lewis. Nos. 09-3954, 09-3961, 10-1204, 641 F.3d 773,
2011 U.S. App. LEXIS 6879, 2011 WL 1261146. at *5 (7th Cir. Apr. 6. 20111: United States v. Allen.
383 F.3d 644, 646 (7th Cir. 2004); United States v. Pavne. 102 F.3d 289, 295 (,7th Cir. 1996); (2011
U.S. Dist. LEXIS 561United States v. Reed. 875 F.2d 107, 111 (7th Cir. 1989).
If the court reserved ruling on a motion made during trial, it decides the motion based on the
evidence at the time ruling was reserved. Charles A. Wright, Federal Practice and Procedure § 462,
at 282 (2000). Here, defendant moved for acquittal at the close of the government's case, at the
close of all evidence, and again after the verdict, I reserved decision on defendant's motion during
the trial. However, because the defense presented no evidence the evidence relevant to all of the
motions is the same.
III. DISCUSSION
In order to obtain a conviction in this case, the government had to prove two things. First, the
government had to show that defendant solicited, commanded, induced or otherwise endeavored to
persuade another person to commit a violent federal crime against Mark Hoffman. As I instructed the
jury and as the parties agreed, whether a particular statement is a solicitation is determined by an
objective standard. That is, a statement is a solicitation if a reasonable person hearing or reading it

lygcases

18

(P "202l~M atrhcwBendcr ■&-Companv.- Inc.. a memberofthe-LexisNexisGroup. Albrights reserved Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-93-

13888084

and familiar with its context would understand it as a serious expression that another person commit
a violent felony. Second, {2011 U.S. Dist. LEXIS 57}the government had to prove, with strongly
corroborative evidence, that defendant intended that another person commit a violent federal crime
against Hoffman. (Tr. at 551-54.)
After a careful review of all the evidence, I find that the government failed to present sufficient
evidence from which a reasonable jury could find either element.10 I further find that defendant's
statements about Hoffman were protected by the First Amendment. Accordingly, and as the Seventh
Circuit acknowledged I could do if the evidence warranted it, White. 610 F.3d at 962, I will grant
defendant's motion for a judgment of acquittal.
A. Whether There Was a Solicitation
The words defendant used in his three posts about Mark Hoffman did not expressly solicit anyone
{2011 U.S. Dist. LEXIS 58}to harm Hoffman. {779 F. Supp. 2d 797} Indeed, they did not suggest or
imply that anyone do anything to Hoffman. In its decision in this case, the Seventh Circuit noted that
a solicitation can be coded or implicit and remanded for consideration of the context of the posts
based on a complete presentation of the evidence. Having now heard all the evidence, I am
convinced that no reasonable factfinder considering the posts and the context in which they were
made could conclude, based on an objective standard, that they constitute a solicitation. If anything,
the evidence presented at trial weakened the government's case, as it is now clear that (1) the
context of the posts was that they were part of an article that defendant wrote on the occasion of
Matthew Hale's post-conviction motion relating to Hoffman's selection as a juror, as discussed in the
local media five years after Hale's conviction; (2) the posts were based entirely on publicly available
information, much of it drawn from Hoffman's own bio on the Northwestern University website; and
(3) there is no evidence that the posts could reasonably be regarded as a coded solicitation to harm
Hoffman or that any member of defendant's organization or target {2011 U.S. Dist. LEXIS
59}audience read them as a coded solicitation or that defendant had any followers who were ready
and willing to commit violence based on his writings.

.

Some of the other'posts the government introduced did contain violent imagery, but most did not
appear contemporaneously with the Hoffman posts. Further, many of them, read in their entirety and
in context, consist of little more than inflammatory statements of opinion. And the few that cross the
line show only that defendant knew how to call for violence when he wanted to; such posts cannot
reasonably transform the Hoffman posts which do not solicit violence into a violation of § 373.
1. The Context of the Initial Post
On September 11, 2008, the Chicago Sun-Times printed an article discussing Hale's post-conviction
motion, in which Hale challenged Hoffman's selection as a juror. In particular, Hale criticized his
lawyer for allowing Hoffman - a gay man with an African-American partner employed by
Northwestern University, where one of Ben Smith's shooting victims had also worked - to serve on
the jury. The evidence showed that defendant created the posts containing the alleged solicitations in
response to that article. In the initial post, {2011 U.S. Dist. LEXIS 60}defendant discussed the
particulars of Hale's motion, including Hale's lawyer's failure to challenge Hoffman, a government
search warrant, and an inaccurate transcript. The post also mentioned the belief "among white
organizations" that Hale's lawyer threw the case.
2. The Contents of the Post
The post also contained a photo of Hoffman drawn from the Northwestern website, along with the
caption the government contends constituted a solicitation. Again, that caption reads:

lygcases

19

TP 202TMatthewBcnder&Companv.-lnc.Tamemberofthe LexisNexis-Group-All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-94-

13888084

Gay Jewish anti-racist Mark P Hoffmann was a juror who played a key role in convicting Hale.
Born August 24, 1964, he lives at 6915 HAMILTON #A CHICAGO, IL 60645 with his gay black
lover and his cat "homeboy". His phone number is (773)274-1215, cell phone is (773)426-5676
and his office is (847) 491-3783.
As indicated above, neither this post, nor the two virtually identical posts that followed (one on the
blog portion of the site, the other appearing the next day after Northwestern blocked Hoffman's
photo), contained any express threat or solicitation. Further, the evidence at trial revealed that all of
the information in the post was in the public domain; indeed, (779 F. Supp. 2d 798} much of it came
from the Northwestern website containing (2011 U.S. Dist. LEXIS 61}the photo.11 At the Hale trial,
Hoffman revealed his sexual orientation and the race of his life partner, issues Hale also raised in his
post-conviction motion. Hoffman testified that he listed his cat's name on his on-line Northwestern
bio, 12 along with his office and cell phone numbers. His (former) home address and phone number
could be found in any number of locations, from the white pages to county records.
3. Defendant's Followers and "Target Audience"
In remanding the case, the court of appeals indicated that the government advised at oral argument
that it had further evidence of the website's readership, audience, and the relationship between
defendant and his (2011 U.S. Dist. LEXIS 62}followers, which would show that the posting was a
specific request to defendant's followers, who understood that request and were capable and willing
to act on it. White. 610 F.3d at 962. No such evidence was presented.
The government presented testimony from two former members of defendant's group, Anderson and
Burks, neither of whom testified that they read the Hoffman posts as a solicitation. 13 The
government presented no testimony from anyone in defendant's "target audience" that they read the
Hoffman posts as a solicitation.14 Nor did the government present any evidence that any member of
defendant's audience was prepared to act on the Hoffman posts. To the contrary, the evidence
showed that when Anderson contacted other members of the white supremacist community in the
Chicago area, none had even seen the Hoffman post, much less made plans to act on it.
Nor did the evidence show that defendant commanded some dangerous group ready to act on his
wishes. Hoffman lived in Chicago, and the evidence showed that the Illinois chapter of the ANSWP,
headed by the teen-aged Anderson, had two members: Anderson and the high school friend with
whom he listened to racist music. The entire Midwest region, under the command of Burks, had
twenty to twenty-five members. When the group would hold nationwide conference calls, just a
handful of people typically participated. Further, Burks and Anderson testified that defendant never
directed that anyone be harmed. It is true that Burks testified about illegal (2011 U.S. Dist. LEXIS
64}activities associated with the ANSWP, but when pressed for specifics he (779 F. Supp. 2d 799}
mentioned only defendant's inflammatory statements about Warman, Wiesel, and the Jena Six.
When asked directly, Burks testified that the ANSWP's goals did not include violence, and he was
never asked to engage in violence for defendant.
The government presented evidence that defendant was aware of and at times spoke favorably of
others who engaged in violence, including Hunt, Laskey, and "Order" members Matthews and Lane.
But none of these people were members of the ANSWP, and the government presented no evidence
that they read Overthrow.com: Laskey was in prison, and Matthews and Lane were dead (as was Ben
Smith). Defendant praised Hunt - and tried to take credit for inspiring him - but the evidence showed
that defendant's articles about Elie Wiesel came after Hunt attacked Wiesel; the government
presented no evidence of any post soliciting an attack on Wiesel before Hunt did so. 15 The
government also presented evidence that defendant initially resisted efforts to remove the allegedly

lygcases

20

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this prgductisjsuhie-Ct.tQJthejestrictions.
and terms and conditions of the Matthew Bender Master Agreement.

-95-

13888084

"unstable" Boyer from the Ohio leadership post, but the record contains no evidence that Boyer ever
saw the Hoffman posts or did {2011 U.S. Dist. LEXIS 65}anything illegal on behalf of the ANSWP.
To the contrary, Burks's testimony cast Boyer as an unreliable screw-up, not a soldier willing to act
on defendant's words.
This leaves the possibility that some unidentified "loan wolf" might read the posts as a solicitation
and act on them. But such speculation cannot take the place of proof beyond a reasonable doubt.
See United States v. Perez-Melendez. 599 F.3d 31,45 (1st Cir. 2010).
The government makes much of defendant's post-arrest request that Anderson reach out to the
Creators to make sure nobody harms Hoffman. The government argues that there would be no need
to ask them to stand down if he had not first asked them to stand up. But as the government agreed
at trial, whether a statement is a solicitation is judged by an objective standard; {2011 U.S. Dist.
LEXIS 66}further, as the Seventh Circuit stated in its opinion in this case, the crime of solicitation is
complete once the words are spoken with the requisite intent, and no further actions from either the
solicitor or the solicitee are necessary. White. 610 F.3d at 960. Thus, what defendant did afterwards
is irrelevant to the first element of this offense. 16
4. The Other Posts
With no evidence that the Hoffman posts themselves solicited violence against Hoffman, or any
evidence that the target audience read them as a solicitation, that leaves the other posts introduced
by the government, some of which contained inflammatory statements and/or calls for violence. A
careful look at these others posts shows that they cannot reasonably transform the Hoffman posts
into a solicitation. 17 The fact that a person has previously {779 F. Supp. 2d 800} listed an
individual's name and address along with a call for violence cannot mean that any time he
subsequently names a person on the same website such post is reasonably read as a solicitation of
violence. Moreover, most of these posts were far {2011 U.S. Dist. LEXIS 67}removed from the
Hoffman posts; only the Obama magazine cover and a link to the "Kill Richard Warman" article
appeared at the same time as the Hoffman posts. Thus, a reader who did not have the benefit of the
FBI's Forensic Tool Kit software would have to look around to find articles about, say, the Lefkow
murders, the Jena Six, Elie Wiesel, or Leonard Pitts.
Turning first to the contemporaneous post: The "Kill This Nigger?" magazine, which appeared next to
Hoffman's picture in exhibit 2, contains an inflammatory headline, but when one actually reads the
article, it is clear that defendant was not advocating any harm to Barack Obama (much less to
Hoffman). Rather, as indicated in the blog post (Govt. Ex. 1), defendant sought donations to print the
magazine for distribution in "swing markets" prior to the presidential election. {2011 U.S. Dist. LEXIS
68}The article attacked Obama's "radical communist politics" and looked "into the phony 'Obama
Assassination' conspiracies that have circulated in the Jewish press." Nowhere does it call for anyone
to harm Obama. The magazine cover appears to depict crosshairs on Obama's head, but this type of
imagery is not uncommon in our politics. See, e.a.. David M. Herszenhorn, After Attack. Focus in
Washington on Civility and Security. N.Y. Times, Jan. 10, 2011 (discussing former Republican
vice-presidential candidate's web post placing crosshairs over targeted congressional districts and
her call for supporters to "reload" rather than "retreat," and whether such posts contributed to the
later shooting of one of the representatives so targeted); see also Brian Stelter, Spotlight From Glenn
Beck Brings Threats. N.Y. Times, Jan. 22, 2011, at A14 (discussing comments on Glenn Beck's
website threatening the life of Frances Fox Piven, whom Beck had called "an enemy of the
Constitution"). In any event, defendant placed no crosshairs over Hoffman's photo.
Appearing beside the Hoffman post were links to various articles, including number 11 on the list "Kill Richard Warman." (Govt. Ex. 2.) Within that {2011 U.S. Dist. LEXIS 69}article, posted on

lygcases

21

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-96-

13888084

March 26, 2008, defendant states that Warman "should be drug out into the street and shot, after
appropriate trial by a revolutionary tribunal of Canada's white activists," stating that it "won't be hard
to do, he can be found, easily, at his home, at [address.]" (Govt. Ex. 11.) The article then proceeds to
discuss defendant's feud with Warman, and the alleged double standard whereby calls for the death
of Saddam Hussein or Osama bin Laden are permitted but calls for Warman's death are not.
Defendant was not in this case charged with soliciting harm to Warman, so it is unnecessary to fully
explore the context of this article. For purposes of the instant charge it suffices to note that nowhere
in this article does defendant mention Hoffman or the Hale trial, or advocate that any other
"enemies" be harmed, and the testimony showed that when a user clicked on the link to this article
the Hoffman post disappeared from the page.
Nor did defendant mention Hoffman in any of the other posts introduced by the government, which,
as indicated above, are set forth in the appendix.18 The closest (779 F. Supp. 2d 801} any of these
prior posts came was a March 1, 2005 article about the Lefkow murders, (2011 U.S. Dist. LEXIS
70}wherein defendant stated (among other things) that "everyone associated with the Matt Hale trial
has deserved assassination for a long time." (Govt. Ex. 14 at 1.) This is far too remote to transform
the September 2008 Hoffman posts into a solicitation. Mazzola was able to find this post by using the
FBI's FTK software, but an ordinary reader in September 2008 would have had to scroll through
years of entries, comprising thousands of posts, to find this article. The government presented no
evidence that anyone connected these posts or otherwise read both of them. Further, this post was
created long before the ANSWP came into being, at a time when defendant held no leadership
position in any white supremacist group.
For all of these reasons, the evidence was insufficient to establish that defendant's posts about
Hoffman constituted a solicitation of a violent crime.
B. Whether the Government Presented Strong Corroboration of Intent
While the issue of defendant's intent is a slightly closer question than whether there was a
solicitation, I conclude that no reasonable juror could find that the government {2011 U.S. Dist.
LEXIS 71}proved that defendant intended the Hoffman posts as requests that someone harm
Hoffman. On the issue of intent, Burks probably said it best: "[Defendant] really didn't care if
something did happen." (Tr. at 407; see also Govt. Ex. 31 at 2: "Frankly, if some loony took the info
and killed [Pitts], I wouldn't shed a tear.")
The government presented no direct evidence that defendant intended harm to Hoffman. Rather, the
government argues that the other Overthrow.com posts it introduced demonstrated defendant's
desire that harm come to his perceived enemies. That defendant may have intended others, such as
Richard Warman and the Jena Six, be harmed, only shows that defendant knew how to speak
directly when he wanted to. The absence of any language calling for harm to Hoffman, contrasted to
what he said in these others posts - "kill" Warman, "lynch" the Jena Six - cuts strongly against a
finding of intent.
The government further argues that Burks and Anderson's testimony showed that defendant was
aware of white supremacists willing and capable of performing acts of violence, and his intent to
reach such people to harm his enemies. But defendant's mere awareness that violent individuals
exist {2011 U.S. Dist. LEXIS 72}does not equate to specific intent that one of those individuals act
on defendant's post. Knowledge, suspicion, or even hope that something might happen to Hoffman is
not enough. The government had to show, through "strongly corroborative circumstances," that
defendant intended for another person to harm Hoffman.
Further, as discussed above, the Burks/Anderson testimony on this point was sparse. The

lygcases

22

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
lin'd terms and conditions of the Matthew Bender Master Agreement.

-9 3'r

13888084

government presented no evidence that any member of defendant's organization or target audience
was ready and willing to act on the Hoffman posts. The evidence instead showed that the other
members of Chicago's white supremacist community Anderson contacted had not even seen the
Hoffman post, much less made any plans to act on it. As also discussed above, the evidence showed
that the ANSWP was hardly a fearsome, disciplined, or violent organization. And the specific, violent
individuals Burks said defendant was aware of - Smith, Hunt, Laskey, Matthews, and Lane - were
either dead or in prison, and so far as the record shows none of them ever read Overthrow.com at
any time. Burks's testimony about former Ohio ANSWP leader Boyer {779 F. Supp. 2d 802} also
says little about defendant's intent, as Boyer was out of {2011 U.S. Dist. LEXIS 73}the group at the
time of the Hoffman posts and so far as the record shows never saw them and never committed any
acts of violence on behalf of the ANSWP or against defendant's "enemies."
As indicated, the government had to present circumstances "strongly corroborative" of defendant's
intent, and the jury was provided a list of relevant corroborating factors (Tr. at 552-53), a review of
which shows that the government failed to meet its burden. First, the government presented no
evidence that defendant offered or promised payment or some other benefit to anyone if he would
commit the offense. Nor did the government present any evidence that defendant threatened harm
or other detriment to anyone if he would not commit the offense.
Second, the government failed to show that defendant repeatedly solicited the commission of the
offense, held forth at length in soliciting the commission of the offense, or made express
protestations of seriousness in soliciting the commission of the offense. Defendant first displayed the
Hoffman post on September 11, 2008 (on the main page and blog sections of Overthrow.com), and
re-posted it on September 12, 2008, after Northwestern blocked Hoffman's photo. {2011 U.S. Dist.
LEXIS 74}Thereafter, he said nothing further about Hoffman on the website. This hardly qualifies as
a "repeated” solicitation. Nor did defendant at any time before he posted Hoffman's information
discuss the matter with the ANSWP or its members (or anyone else so far as the record shows).
Defendant's communications with ANSWP members after the post included his statement during a
conference call that no one was to contact Hoffman, and his request that Anderson find out if anyone
was planning to harm Hoffman and, if so, to stop them. The government argues that there would be
no need to prevent an attack unless one had first been provoked. But this is not strongly
corroborative evidence that defendant, at the time he posted Hoffman's information, intended
someone commit a crime of violence against this juror. See White. 610 F.3d at 960 (noting that the
crime is complete once the words are spoken with the requisite intent). Rather, it is evidence that in
October 2008, after the posts had been created, defendant came to believe that, after years of
similar posts, which provoked no searches or arrests, or actual attacks on the people defendant
named, something different and unforeseen may be occurring {2011 U.S. Dist. LEXIS 75}here. His
attempts to prevent any attacks or further contact with Hoffman more likely shows that he did not
want anything to happen to Hoffman than the converse. It is also important to note that this was not a
situation where defendant had secretly solicited a crime, came to believe that the law may be on to
him, then tried to stop the attacker from acting. Here, the alleged solicitation appeared on the world
wide web for all to see; any later attempt to "take it back" would be less than ineffectual and thus
very weak corroboration of intent. It is also important to note that when defendant, shortly after the
Lefkow murders, came into possession of personal identifying information about people involved in
the Hale case, he declined to republish it because "at this time we feel there is so great a potential
for action linked to such posting that we are not going to post email and its details at this time."
(Govt. Ex. 16; Tr. at 237-38.)
Third, the government presented no evidence that defendant believed or was aware that the person
he solicited had previously committed similar offenses. The government, through Burks, showed that

lygcases

23

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights rescued. Use of this product is subject to_the. restrictions,
and terms and conditions of the Matthew Bender Master Agreement.

-98-

13888084 .

defendant was aware that white supremacists like Smith, {201.1 U.S. Dist. LEXIS 76}Hunt,
Matthews, {779 F. Supp. 2d 803} and Lane committed acts of violence, but it failed to show that any
of those individuals read Overthrow.com or saw the Hoffman posts. As discussed above, the violent
individuals the government discussed at trial were either dead or in prison at all relevant times. The
possibility that "some loony" - as defendant stated in one of the Pitts posts - might act on defendant's
posts is simply insufficient to show the "strongly corroborative circumstances" the statute requires.
Fourth, the government presented no evidence that defendant acquired weapons or tools suited for
use by the person solicited in the commission of the offense, or made other apparent preparations
for the commission of the offense by the person solicited. And the re-posting of publicly available
information about Hoffman cannot constitute the sort of "information" required to strongly corroborate
defendant's intent that someone attack Hoffman on account of his jury service in the Hale case. The
government argues that defendant "went to great lengths" to acquire Hoffman's information (R. 153
at 5), but the record does not support that claim; as discussed, most of the information came from
Hoffman's bio {2011 U.S. Dist. LEXIS 77}on the Northwestern website, and all was publicly
available.
For all of these reasons, the evidence was insufficient to show that defendant intended his posts to
be a solicitation for someone to harm Hoffman.
C. The First Amendment
In my previous decision dismissing the indictment, I discussed in detail the First Amendment's
protection of speech that allegedly incites violence. White. 638 F. Supp. 2d at 942-58. As I indicated
there - and as I instructed the jury at trial - the First Amendment protects vehement, scathing, and
offensive criticism of others, including individuals involved in the criminal justice system, such as
Juror Hoffman. See id. at 945 (collecting cases). Speech is "protected unless both the intent of the
speaker and the tendency of his words was to produce or incite an imminent lawless act, one likely to
occur." Freeman. 761 F.2d at 552 (citing Brandenburg v. Ohio. 395 U.S. 444, 447-48, 89 S. Ct.
1827, 23 L. Ed. 2d 430 (1969)). Knowledge or belief that one's speech, even speech advocating law
breaking, might cause others to act does not remove the speech from the protection of the First
Amendment, unless the speech is directed to inciting imminent lawless action and is likely to produce
such action. {2011 U.S. Dist. LEXIS 781See Brandenburg. 395 U.S. at 447; see also Ashcroft v.
Free Speech Coalition. 535 U.S. 234, 245, 122 S. Ct. 1389, 152 L. Ed. 2d 403 (2002) ("The prospect
of crime ... by itself does not justify laws suppressing protected speech."). Nor may the government,
consistent with the First Amendment, penalize speech approving of past violence by others. Planned
Parenthood of Colombia/Willamette. Inc, v. American Coalition of Life Activists (hereafter PPCW),
290 F.3d 1058, 1091 n.3 (9th Cir. 2002) (Kozinski, J., dissenting) (citing Hess v. Indiana. 414 U.S.
105, 108-09, 94 S. Ct. 326, 38 L. Ed. 2d 303 (1973); Brandenburg. 395 U.S. at 447; Edwards v.
South Carolina. 372 U.S. 229, 237-38, 83 S. Ct. 680, 9 L. Ed. 2d 697 (1963); Noto v. United States.
367 U.S. 290, 297-99, 81 S. Ct. 1517, 6 L. Ed. 2d 836 (1961)). And this highly protective standard
applies to the type of speech at issue here - internet communications disclosing personal information
about others - even when that speech may tend to alarm or intimidate the persons so identified or
expose them to unwanted attention from others. See White. 638 F. Supp. 2d at 952-58 (citing United
States v. Carmichael. 326 F. Supp. 2d 1267 (M.D. Ala. 2004); Sheehan v. Gregoire, 272 F. Supp. 2d
1135 {779 F. Supp. 2d 804} (W.D. Wash. 2003); City of Kirkland v. Sheehan. No. 01-2-09513-7,
2001 WL 1751590 (Wash. Super. Ct. May 10, 2001)).
Applying {2011 U.S. Dist. LEXIS 79}these standards, it is clear that defendant's posts about
Hoffman are protected by the First Amendment. Even reading them within the overall context of
Overthrow.com, the Hoffman posts are not directed to inciting or producing imminent lawless action.

lygcases

24

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of tfie’Matthew Bender Master Agreement.

-99-

13888084

Neither these posts - nor any of the other content on Overthrow.com - solicit, command, request, or
even suggest that anyone do anything to Hoffman, presently or in the future. The fact that the posts
may have singled Hoffman out for the attention of unrelated, potentially violent third parties does not
remove them from the protection of the First Amendment. Sheehan. 272 F. Supp. 2d at 1150 (citing
Planned Parenthood of Columbia/Willamette. Inc.. 290 F.3d at 1063). Like the Sheehan court, I do
not "intend to minimize the real fear of harm and intimidation" that those involved in the court system
may experience based on disclosure of personal information about them.
However, we live in a democratic society founded on fundamental constitutional principles. In
this society, we do not quash fear by increasing government power, proscribing those
constitutional principles, and silencing those speakers of whom the majority disapproves. Rather,
{2011 U.S. Dist. LEXIS 80}as Justice Harlan eloquently explained, the First Amendment
demands that we confront those speakers with superior ideas:
The constitutional right of free expression is powerful medicine in a society as diverse and
populous as ours. It is designed and intended to remove governmental restraints from the arena
of public discussion, putting the decision as to what views shall be voiced largely into the hands
of each of us, in the hope that use of such freedom will ultimately produce a more capable
citizenry and more perfect polity and in the belief that no other approach would comport with the
premise of individual dignity and choice upon which our political system rests. To many, the
immediate consequence of this freedom may often appear to be only verbal tumult, discord, and
even offensive utterance. These are, however, within established limits, in truth necessary side
effects of the broader enduring values which the process of open debate permits us to achieve.
That the air may at times seem filled with verbal cacophony is, in this sense not a sign of
weakness but of strength. We cannot lose sight of the fact that, in what otherwise might seem a
trifling and annoying instance of individual {2011 U.S. Dist. LEXIS 81}distasteful abuse of a
privilege, these fundamental societal values are truly implicated.
]d at 1150 (quoting Cohen v. California. 403 U.S. 15, 24-25, 91 S. Ct. 1780, 29 L. Ed. 2d 284
(1971)).
Quoting from a portion of the Seventh Circuit's decision in this case, the government argues that the
jury, by finding a solicitation, "removed any involvement of the First Amendment in this case." (R.
153 at 7.) But the government ignores the fact that the Seventh Circuit also stated that, after the
government presented its case, the court may conclude a reasonable jury could not find that
defendant's intent was for harm to befall Hoffman, as opposed to mere electronic or verbal
harassment. White. 610 F.3d at 962. For the reasons stated, no reasonable jury could have found
defendant's posts about Hoffman unprotected, and I conclude based on the entire trial record that as
a matter of law they were covered by the First Amendment. {779 F. Supp. 2d 805} Therefore,
defendant's Rule 29 motion must be granted.
A final note: In remanding the case, the court of appeals stated that if defendant's intent was to make
a political point about sexual orientation or to facilitate opportunities for other people to make such
views known to the Juror, or to permit electronic {2011 U.S. Dist. LEXIS 82}or verbal harassment,
he would not be guilty of solicitation because he did not have the requisite intent required for the
crime. White. 610 F.3d at 961-62. While it is true that the crime of solicitation is complete at the time
the words are spoken with the requisite intent, and no further action need follow, it is worth noting
that "electronic and verbal harassment" is exactly what happened here. Hoffman received crude text
massages and one harassing phone call. But no one threatened him, and no attempts were made to
harm him.
IV. CONCLUSION

lygcases

25

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-100-

13888084

THEREFORE, IT IS ORDERED that defendant's motion for acquittal is GRANTED.19
Dated at Milwaukee, Wisconsin, this 19th day of April, 2011.
1st Lynn Adelman

,

LYNN ADELMAN
District Judge

^
Footnotes

1
Hoffman testified that this was his previous address. (Tr. at 133-34.)
2
The photo displayed as part of this post came from Hoffman's bio on {2011 U.S. Dist. LEXIS 21}the
Northwestern website. (Tr. at 152, 176.) Asked how defendant could have learned his cat's name,
Hoffman testified that he wrote on the Northwestern web page that he lived in West Rogers Park with
his life partner, and that they had a cat, Homeboy. (Tr. at 151, 163-64.) Hoffman also testified that
the Northwestern website listed his office and cell phone numbers. (Tr. at 162, 180.) Hoffman further
testified that his name and sexual orientation were publicly disclosed during the Hale trial; Hale also
mentioned those facts in his post-conviction motion. (Tr. at 166-67.) Hoffman also disclosed the race
of his partner during the trial. (Tr. at 167.) Hoffman could not recall whether his home phone number
was listed in the white pages (or listed under his name or his partner's) (Tr. at 165), but he did testify
that the press called him on his home phone after the Hale trial, indicating that the number was
publicly available (Tr. at 168).
3
Hoffman testified that he later learned that an article appeared in the Chicago Sun-Times, the same
day as the first Overthrow.com post about him, discussing Hale's court filing about the foreman of
the jury. Specifically, the Sun-Times article indicated {2011 U.S. Dist. LEXIS 22}that Hale sought a
new trial based on information about the foreman's sexuality and issues of race. (Tr. at 169-71.)
4
Hoffman testified that the caller left a voice mail, stating "hey, you fuckin' Jew bastard, are you too
busy fucking your nigger buddy, pick up the phone." (Tr. at 154, 175.) Hoffman testified that he never
received a message that someone was coming to kill or hurt him. (Tr. at 175-76.)
5
It is unclear whether the magazine was ever distributed to others. (Tr. at 284.)
6
Exhibits 1-35 were not sequential; certain numbers were skipped. (Tr. at 203.) For the reader's
convenience, rather than detailing all of these posts in the body of the opinion, I have placed them in
the appendix to the decision.
7
Once the user clicked on the link, the older article would appear, but the left side of the screen where^ as depicted in several of the exhibits, the "Obama assassination" magazine appeared - might
remain the same (Tr. at 288); on some of the exhibits, however, the left side of the screen was
different, i.e. it depicted a different cover of National Socialist magazine (Tr. at 294; ejj.. Govt. Ex. 9

lygcases

26

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
■andTerms andconditions ofThe Maflhew Bender Master Agreement.

-101-

13888084

at 1 & 3 and Ex. 35 at 1). Mazzola further admitted that the article entitled '"Kill This Nigger?' Goes
To Print," exhibit 5, which was dated October 3, 2008, was not on Overthrow.com when Hoffman's
information was posted on September 11, 2008. (Tr. at 288-89.)
8
Burks testified that defendant operated Overthrow.com before the ANSWP was created in late 2006.
(Tr. at 440-42.)

9
During the trial, one of the jurors also expressed concerns that his identity would be revealed.
Specifically, Juror 8 alerted the court security officer ("CSO") to his concern about placing his name
on the juror sign-in sheet used to track attendance and pay the jurors. {2011 U.S. Dist. LEXIS
54}(Tr. at 259-62.) On the agreement of the parties, I questioned Juror 8 in chambers (Tr. at 263),
advising him that the sign-in form was internal and not available to the public, and asked if he was
comfortable knowing that. He replied: "No, I'm not comfortable, no. I'm concerned about the names
being distributed on the form and it was displayed on the table and -" (Tr. at 264.) I told the Juror that
the "form is not available to the public. And if there's any concerns that you have about that, I think I
have the authority to seal it so that it could be - so that no one could ever ask for it and obtain it." (Tr.
at 264.) Juror 8 replied: ”l would appreciate that." (Tr. at 264.) On questioning from the government,
Juror 8 indicated that he did not discuss the issue with any other juror, and that no one else was
present when he raised it with the CSO. (Tr. at 264-65, 266.) Defense counsel asked what Juror 8
was concerned about, and he replied: "My concerns are about my name being associated with this
trial.” (Tr. at 265.) Counsel asked: "Based on fear or something else?" Juror 8 replied: "Based on
what the trial is about." (Tr. at 265.) I asked Juror 8, given the fact that I would seal {2011 U.S. Dist.
LEXIS 55}the list of juror names, whether he was "in a position to render a fair verdict to both - to
consider the evidence and to decide the case solely on the evidence and the law as I instruct you?"
He replied: "Yes." (Tr. at 266.) Defendant moved that Juror 8 be removed and replaced with an
alternate; I reserved decision at the time (Tr. at 267) and later denied the request (Tr. at 545).
10
In their post-verdict briefs, the parties focus on the second (intent) element. However, as the parties
agreed, the government had to first prove that the Hoffman posts, viewed objectively and in context,
constituted a solicitation. It cannot be the case, as the government seems to suggest, that proof of
defendant's intent is sufficient to prove both elements of the offense. If this were so, what defendant
actually said would be entirely irrelevant.
11
Hoffman testified that he is not Jewish. Ostensibly, defendant assumed that he was because of his
sur-name.
12
Perhaps the most troubling component of the Hoffman posts, as they appeared in the indictment,
was the reference to Hoffman's cat. What legitimate purpose would printing Hoffman's pet's name
serve? What sort of investigation into Hoffman's private life did defendant perform to learn his cat's
name? We now know that defendant simply pulled this name, like much of the other information, off
the Northwestern website.
13
Anderson testified that the post did not say to harm Hoffman, and he never saw anything on the
website that said to harm Hoffman. (Tr. at 379.) Burks testified that he did read certain other posts about Richard Warman, the Jena Six, and Elie Wiesel - as solicitations to violence, but he did not
testify that he read the Hoffman {2011 U.S. Dist. LEXIS 63}posts the same way.

lygcases

27

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
"and terms and conditions of the Matthew Bender Master Agreement.

-102-

13888084

14
Two readers of the Overthrow.com blog commented on the Hoffman post. One stated that this was
why he advocated that racists register to vote, presumably so they could serve on juries. The other
asked for bets on how quickly Hoffman would turn off his phone. Apparently, neither considered the
post as a solicitation of violence: the first took it as a call for racists to get themselves on juries, and
the second assumed that Hoffman would receive phone harassment based on the post (which, as it
turned out, is exactly what happened).

15
The government asked Burks about defendant's willingness to merge with Carto and Gliebe, but
nothing in the record suggests that the elderly Carto read Overthrow.com or was willing to act on
what he read. Defendant and Gliebe apparently didn't get along, and defendant blamed Gliebe for
the downfall of the National Alliance. And the government presented no evidence that Gliebe
engaged in acts of violence.

16
Defendant's actions after he posted Hoffman's information might be relevant to his intent, an issue I
discuss later in this decision.

17
It is important to note that I permitted the government to introduce these posts as evidence of
defendant's intent. (R. 133 at 7-8.) Defendant was not in this case charged with soliciting violence
against anyone other than Hoffman, and it would be improper to infer that defendant has,a
propensity to engage in threatening conduct based on these previous posts.

18
Anderson specifically testified that he saw nothing on Overthrow.com threatening Hoffman.

19
In his Rule 29 motion, defendant argues that his jury did not represent a reasonable fact-finder, as its
verdict was based on fear rather than the evidence and the law. He points to Juror 8's concerns
about the sign-in sheet, and the jury's note requesting that the courtroom be cleared before the
verdict was read and that they be escorted out through a different exit. However, defendant cites no
authority supporting the notion that this sort of claim supports entry of a judgment of acquittal (as
opposed to perhaps a new trial before a different jury, see United States v. O'Neal, 180 F.3d 115,
118 (4th Cir. 1999), {2011 U.S. Dist. LEXIS 83}an argument defendant does not make). In any
event, because I grant the motion based on the sufficiency of the evidence I need not further address
this claim.
20
Unlike the other exhibits, this document indicates at the top: "This is Google's cache of ^ It is a
snapshot of the page as it appeared on Oct 11, 2008 06:42:32 GMT. The {2011 U.S. Dist. LEXIS
921current page could have changed in the meantime. Learn more” (Govt. Ex. 10 at 1; Tr! at 298.)
On cross-examination, Agent Mazzola testified that she did not know if this article was deleted off the
website but still available on Google. (Tr. at 299.)

21
The older posts from 2005, such as exhibits 13-16, reference "Libertarian Socialist News" rather than
ANSWP on the ending byline. {2011 U.S. Dist. LEXIS 100}(Tr. at 303.) The ANSWP did not come
into existence until 2006. (Tr. at 304, 440-42.)
22

lygcases

28

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-103- (

13888084

At the bottom of the page, exhibit 15 indicates that it comes from . (Govt. Ex. 15 at 1; Tr. at 305-06.)
Nowhere on the document does it say that it came from Overthrow.com. (Tr. at 306.)
23
Although this article was posted in 2007, given the "dynamic environment" of the website, the
"Obama assassination" magazine appeared next to it on the print-out introduced in evidence. (Tr. at
271.)

lygcases

29

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-104-

13888084

APPENDIX F:
610 F 3d 956 (7th Cir 2010)

r

\

-105-

UNITED STATES OF AMERICA, Plaintiff-Appellant, v. WILLIAM WHITE, Defendant-Appellee.
UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
610 F.3d 956; 2010 U.S. App. LEXIS 13166; 38 Media L. Rep. 2045; 49 A.L.R. Fed. 2d 689
No. 09-2916
June 28, 2010, Decided
January 12, 2010, Argued
Editorial Information: Subsequent History
Rehearing denied by, Rehearing, en banc, denied by United States v. White, 2010 U.S. App. LEXIS
27487 (7th Cir. III., Aug. 6, 2010)On remand at, Motion denied by United States v. White, 2010 U.S. Dist.
LEXIS 146264 (N.D. III., Dec. 16, 2010)
Editorial Information: Prior History
{2010 U.S. App. LEXIS 1}
Appeal from the United States District Court for the Northern District of Illinois, Eastern Division. No.
08-CR-851--Lynn S. Adelman, Judge.United States v. White, 638 F. Supp. 2d 935, 2009 U.S. Dist.
LEXIS 65085 (N.D. III., July 21, 2009)
For UNITED STATES OF AMERICA, Plaintiff - Appellant: William E.
Ridgway, Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Chicago, IL.
For WILLIAM WHITE, Defendant - Appellee: Nishay K. Sanan,
Attorney, Chicago, IL.
Judges: Before POSNER, FLAUM, and WILLIAMS, Circuit Judges.

Counsel

CASE SUMMARY
PROCEDURAL POSTURE: A federal grand jury returned an indictment alleging that defendant solicited
a juror's murder in violation of 18 U.S.C.S. § 373. The United States District Court for the Northern
District of Illinois, Eastern Division, dismissed the indictment. The government appealed.A district court
erred in dismissing an indictment alleging that defendant's website solicited a juror's murder in violation
of 18 U.S.C.S. § 373, because the First Amendment, U.S. Const, amend. I, did not protect the internet
posting if the evidence at trial showed that defendant's intent was to request that one of his readers harm
the juror.
OVERVIEW: The indictment alleged that defendant's white supremacist website named a juror on the
panel that convicted a white supremacist leader of soliciting the murder of a federal district court judge,
and posted the juror's photo, address, and phone numbers. The district court dismissed the indictment on
grounds the internet posting was protected by the First Amendment, U.S. Const, amend. I. The appellate
court held that the indictment, which tracked the language of § 373, properly charged solicitation
because (1) injuring a juror for rendering a verdict was a federal offense under 18 U.S.C.S. § 1503; and
(2) by adding factual allegations and dates, the indictment made defendant aware of the conduct against
which he would have to defend himself. The potential First Amendment concern was addressed by the
requirement of proof beyond a reasonable doubt at trial, not by dismissal of the indictment. Whether the

A07CASES

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew'BerTder Master Agreement.

-106-

13888084

First Amendment protected defendant's right to post personal information about the juror turned on his
intent in posting that information. If the trial evidence proved his intent was to request one of his readers
to harm the juror, then the crime of solicitation would be complete.
OUTCOME: The dismissal of the indictment was reversed and the case was remanded for further
proceedings.
LexisNexis Headnotes
Criminal Law & Procedure > Accusatory Instruments > Indictments
An appellate court reviews questions of law in a district court's ruling on a motion to dismiss an
indictment de novo.
An indictment is legally sufficient if it (1) states all the elements of the crime charged; (2) adequately
informs the defendant of the nature of the charges so that he may prepare a defense; and (3) allows the
defendant to plead the judgment as a bar to any future prosecutions. Fed. R. Crim. P. 7(c)(1). An
indictment is reviewed on its face, regardless of the strength or weakness of the government's case. One
that tracks the words of a statute to state the elements of the crime is generally acceptable, and while
there must be enough factual particulars so the defendant is aware of the specific conduct at issue, the
presence or absence of any particular fact is not dispositive.
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Solicitation > Elements
See 18 U.S.C.S. § 373(a).
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Solicitation > Elements
Criminal Law & Procedure > Scienter > Specific Intent
In a solicitation prosecution, the government must establish (1) with strongly corroborative circumstances
that a defendant intended for another person to commit a violent federal crime, and (2) that a defendant
solicited or otherwise endeavored to persuade the other person to carry out the crime. 18 U.S.C.S. §
, 373(a). A list of non-exhaustive corroborating circumstances of the defendant's intent include whether
the defendant repeatedly solicited the commission of the offense, the defendant's belief as to whether
the person solicited had previously committed similar offenses, and whether the defendant acquired the
tools or information suited for use by the person solicited.
Criminal Law & Procedure > Criminal Offenses > Miscellaneous Offenses > Obstruction of Justice
> Elements
Injuring a juror for rendering a verdict is a federal offense under 18 U.S.C.S. § 1503.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > General
Overview
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Constitutional Law > Bill of Rights > Fundamental Freedoms > Judicial & Legislative Restraints >
General Overview

A07CASES

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-107-

13888084

The First Amendment, U.S. Const, amend. I, removes from the government any power to restrict
expression because of its message, its ideas, its subject matter, or its content. Even speech that a vast
majority of its citizens believe to be false and fraught with evil consequences cannot be punished. The
constitutional guarantees of free speech and free press do not permit a State to forbid or proscribe
advocacy of the use of force except where such advocacy is directed to inciting or producing imminent
lawless action and is likely to incite or produce such action. Speech related to the expression and
advocacy of unpopular, and even violent ideas, receives protection under Brandenburg v. Ohio.
Constitutional Law > Bill of Rights >Fundamental Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Constitutional Law > Bill of Rights > Fundamental Freedoms > Judicial & Legislative Restraints >
General Overview
Criminal Law & Procedure > Criminal Offenses > Inchoate Crimes > Solicitation > Elements
Although the speech protections of the First Amendment, U.S. Const, amend. I, are far-reaching, there
are limits. Speech integral to criminal conduct, such as fighting words, threats, and solicitations, remain
categorically outside its protection. In the case of a criminal solicitation, the speech-asking another to
commit a crime-is the punishable act. Solicitation is an inchoate crime; the crime is complete once the
words are spoken with the requisite intent, and no further actions from either the solicitor or the solicitee
are necessary. Also, a specific person-to-person request is not required. That a request for criminal
action is coded or implicit does not change its characterization as a solicitation.
Opinion

{610 F.3d 957} PER CURIAM. A superseding indictment alleged that William White was the founder
and content provider of a website that posted personal information about a juror who served on the
Matthew Hale jury, along with postings calling for the use of violence on enemies of white
supremacy. In connection with these postings, White was charged with soliciting a crime of violence
in violation of 18 U.S.C. § 373. The district court dismissed the indictment, holding that White's
internet posting could not give rise to a violation under § 373 because it was protected by the First
Amendment. Because we find that the indictment is legally sufficient to state an offense, we reverse
the district court's dismissal.
I. BACKGROUND
According to the government's indictment, William White created and maintained the (2010 U.S.
App. LEXIS 2}website Overthrow.com. Overthrow.com was affiliated with the "American National
Socialist Workers Party," an organization comprised of white supremacists who "fight for white
working people" and were "disgusted with the general garbage" that the white supremacist
movement had attracted. White used the website to popularize his views concerning "non-whites,
Jews, homosexuals, and persons perceived by white supremacists as acting contrary to the interests
of the white race." On multiple occasions, White advocated that violence be perpetrated on the
"enemies" of white supremacy and praised attacks on such enemies.
A repeated topic on his website was Matthew Hale, the leader of a white supremacist organization
known as the World Church of the Creator. In January 2003, Hale was charged with soliciting the
murder of a federal district court judge and obstruction of justice. Hale was convicted of two counts
of obstruction of justice and one count of solicitation and sentenced to 480 months' imprisonment.

A07CASES

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions ot tKFMatthew Bender Master Agreement.

-108-

13888084

Specifically related to the Matthew Hale trial, White wrote on his website in March 2005 that
"everyone associated with the Matt Hale trial has deserved assassination for a long time." He {2010
U.S. App. LEXIS 3}also wrote a posting naming individuals involved or related in some way to
Hale's conviction, such as federal agents and prosecutors and other citizens advocating for Hale's
arrest, stating that any of them may be the next targets of an "unknown nationalist assassin." White
did not publish their personal information in that post because he felt "there is so great a potential for
action."
On September 11, 2008, White posted personal information about the foreperson of the jury in the
Hale trial ("Juror A"). At the time of the posting, Overthrow.com was an active website, and as such,
each link and posting was contemporaneously accessible. So, a reader of this September 11 posting
would have had access to the past posts about Hale, Hale's trial, and other calls for violence against
"anti-racists." The September 11 entry by White was entitled "The Juror Who Convicted Matt Hale."
It identified Juror A by name, featured a color photograph of Juror A and stated the following:
Gay anti-racist [Juror A] was a juror who played a key role in convicting Matt Hale. Born [date],
[he/she] lives at [address] with [his/her] gay black lover and [his/her] cat [name]. [His/Her] phone
number is [phone number], {2010 U.S. App. LEXIS 4}cell phone {610 F.3d 958} [phone
number], and [his/her] office is [phone number].
On the following day, White posted a follow-up entry entitled "[Juror A] Update--Since They Blocked
the first photo." This posting contained all the same information as above, with the added sentence,
"Note that [University A] blocked much of [Juror A's] information after we linked to [his/her]
photograph."
On October 21, 2008, a federal grand jury returned a one-count indictment charging White with
soliciting a crime of violence against Juror A, in violation of 18 U.S.C. § 373. On February 10, 2009,
the grand jury returned a superseding indictment, maintaining the single charge of solicitation and
adding additional examples of the circumstances corroborating the defendant's intent to solicit a
crime of violence against Juror A. The superseding indictment charged that:
2. From on or about September 11, 2008, through at least on or about October 11, 2008, in the
Northern District of Illinois, Eastern Division, and elsewhere, WILLIAM WHITE, defendant
herein, with intent that another person engage in conduct constituting a felony that has as an
element the use, attempted use, or threatened use of force against the person {2010 U.S. App.
LEXIS 5}of Juror A, in violation of the laws of the United States, and under circumstances
strongly corroborative of that intent, solicited and otherwise endeavored to persuade such other
person to engage in such conduct; in that defendant solicited and otherwise endeavored to
persuade another person to injure Juror A on account of a verdict assented to by Juror A, in
violation of Title 18, United States Code Section 1503.
3. It was part of the solicitation, inducement, and endeavor to persuade that on or about
September 11, 2008, defendant WILLIAM WHITE caused to be displayed on the front page of
"Overthrow.com" a posting entitled, "The Juror Who Convicted Matt Hale."

5. The above-described solicitation, inducement, and endeavor to persuade occurred under the
following circumstances, among others, strongly corroborative of defendant WILLIAM WHITE'S
intent that another person engage in conduct constituting a felony that has as an element the
use, attempted use, or threatened use of force against the person of Juror A ....
White moved to dismiss the superseding indictment on the grounds that it violated the First

A07CASES

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
"anil terms and conditions of the Matthew Bender Master Agreement.

-109-

13888084

Amendment, and on July 22, 2009, the district court granted White's motion {2010 U.S. App. LEXIS
6}to dismiss. The government timely appealed.
II. ANALYSIS
A. Indictment Valid on Its Face
The government argues on appeal that the superseding indictment is legally sufficient to charge the
offense of solicitation. We review questions of law in a district court's ruling on a motion to dismiss
an indictment de novo. United States v. Greve, 490 F.3d. 566, 570 (7th Cir. 2007); United States v.
Risk, 843 F.2d 1059, 1061 (7th Cir. 1988). An indictment is legally sufficient if it (1) states all the
elements of the crime charged; (2) adequately informs the defendant of the nature of the charges so
that he may prepare a defense; and (3) allows the defendant to plead the judgment as a bar to any
future prosecutions. See Fed. R. Crim. P. 7(c)(1); United States v. Smith, 230 F.3d 300, 305 (7th Cir.
2000). An indictment is reviewed on its face, regardless of the strength or weakness of the
government's case. Risk, 843 F.2d at 1061. One that "tracks" the words of a statute to state the
elements of{610 F.3d 959} the crime is generally acceptable, and while there must be enough
factual particulars so the defendant is aware of the specific conduct at issue, the presence or
absence of any particular fact is not dispositive. (2010 U.S. App. LEXIS 7}Smith, 230 F.3d at 305.
Applying these standards, the indictment here is legally sufficient. Title 18 of the United States Code,
section 373(a) provides, in pertinent part:
Whoever, with intent that another person engage in conduct constituting a felony that as an
element the use, attempted use, or threatened use of physical force against property or against
the person of another in violation of the laws of the United States, and under circumstances
strongly corroborative of that intent, solicits, commands, induces, or otherwise endeavors to
persuade such other person to engage in such conduct.ln a solicitation prosecution, the
government must establish (1) with strongly corroborative circumstances that a defendant
intended for another person to commit a violent federal crime, and (2) that a defendant solicited
or otherwise endeavored to persuade the other person to carry out the crime. 18 U.S.C. § 373(a);
see United States v. Hale, 448 F.3d 971 (7th Cir. 2006). A list of non-exhaustive corroborating
circumstances of the defendant's intent include whether the defendant repeatedly solicited the
commission of the offense, the defendant's belief as to whether the person solicited had
previously (2010 U.S. App. LEXIS 8}committed similar offenses, and whether the defendant
acquired the tools or information suited for use by the person solicited. United States v. Gabriel,
810 F.2d 627, 635 (7th Cir. 1987) (citing S. REP. NO. 97-307, at 183 (1982)).
The indictment here tracks the language of the statute, and lists each element of the crime. It
charges White with having the intent for another person to injure Juror A, and soliciting another
person to do so. It provides corroborating circumstances of White's intent. As one example of his
intent, the government points to the re-posting of the information once action was taken by Juror A's
employer to remove his picture from public access. As another, the government argues that White
knew the persons solicited were prone to violence. The indictment properly charges a federal
solicitation because injuring a juror for rendering a verdict is a federal offense under 18 U.S.C. §
1503. Finally, by adding factual allegations and dates, it makes White aware of the specific conduct
against which he will have to defend himself at trial. In judging the sufficiency of this indictment, we
do not consider whether any of the charges have been established by evidence or {2010 U.S. App.
LEXIS 9}whetherthe government can ultimately prove its case. United States v. Sampson, 371 U.S.
75, 78-79, 83 S. Ct. 173, 9 L. Ed. 2d 136 (1962); Smith, 230 F.3d at 305. We only look to see if an
offense is sufficiently charged, and on its face, this indictment adequately performs that function.

A07CASES

5

0 2021 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-110*?

13888084

B. No First Amendment Violation
Having found that the face of the indictment is legally sufficient to charge White with solicitation, our
inquiry would ordinarily end. But the district court held that the indictment's allegations could not
support a prosecution under 18 U.S.C. § 373 because White's internet posting was speech protected
by the First Amendment. As detailed below, this potential First Amendment concern is addressed by
the requirement of proof beyond a reasonable doubt at trial, not by a dismissal at the indictment
stage.
The First Amendment removes from the government any power "to restrict expression because of its
message, its ideas, its subject matter, or its content."{610 F.3d 960} Ashcroft v. ACLU, 535 U.S. 564,
573, 122 S. Ct. 1700, 152 L. Ed. 2d 771 (2002) (quotation marks omitted). Even speech that a "vast
majority of its citizens believe to be false and fraught with evil consequence[sj" cannot be punished.
Whitney v. California, 274 U.S. 357, 374, 47 S. Ct. 641, 71 L. Ed. 1095 (1927). This {2010 U.S. App.
LEXIS 10}broad protection ensures that the right of the Nazi party to march in front of a town hall is
protected, Collin v. Smith, 578 F.2d 1197, 1202 (7th Cir. 1978), as is the right of an individual to
express an unpopular view against the government, Texas v. Johnson, 491 U.S. 397, 419-20,109 S.
Ct. 2533,105 L. Ed. 2d 342 (1989) (holding that the First Amendment protects the expressive act of
flag burning). In Brandenburg v. Ohio, the Supreme Court invalidated a state statute targeting people
who "advocate or teach the duty, necessity, or propriety" of violence as a means of accomplishing
reform, and held that even certain statements advocating violence had social value and received
First Amendment protection. 395 U.S. 444, 448, 89 S. Ct. 1827, 23 L. Ed. 2d 430 (1969). At issue
were Ku Klux Klan members' statements such as, "we're not a revengent organization, but if our
President... continues to suppress the white, Caucasian race, it's possible that there might have to
be some revengeance taken." Id. at 446. The Supreme Court held that "the constitutional guarantees
of free speech and free press do not permit a State to forbid or proscribe advocacy of the use of
force ... except where such advocacy is directed to inciting or producing imminent lawless {2010
U.S. App. LEXIS 11}action and is likely to incite or produce such action." Id. at 447. Speech related
to the expression and advocacy of unpopular, and even violent ideas, receives Brandenburg
protection.
Although First Amendment speech protections are far-reaching, there are limits. Speech integral to
criminal conduct, such as fighting words, threats, and solicitations, remain categorically outside its
protection. United States v. Williams, 553 U.S. 285, 297, 128 S. Ct. 1830, 170 L. Ed. 2d 650 (2008)
("Offers to engage in illegal transactions are categorically excluded from First Amendment
protection."). This type of speech "brigaded with action" becomes an overt act or conduct that can be
regulated. Brandenburg, 395 U.S. at 456 (Black, J., concurring). For this reason, a state cannot
forbid individuals from burning crosses to express an opinion, but it can forbid individuals from
burning crosses with the intent to intimidate others. See Virginia v. Black, 538 U.S. 343, 365-66, 123
S. Ct. 1536,155 L. Ed. 2d 535 (2003). In the case of a criminal solicitation, the speech-asking
another to commit a crime-is the punishable act. Solicitation is an inchoate crime; the crime is
complete once the words are spoken with the requisite intent, and no further actions from either the
{2010 U.S. App. LEXIS 12}solicitor or the solicitee are necessary. See Wayne R. LaFave, 2
Substantative Criminal Law § 11.1 (2d ed. 2009). Also, a specific person-to-person request is not
required. United States v. Rahman, 189 F.3d 88, 117-18 (2d Cir. 1999).
For example, in United States v. Sattar, a district court, without requiring any evidence or allegations
of further acts, found sufficient an indictment where the alleged solicitation consisted of a generally
issued fatwa urging Muslims to "fight the Jews and to kill them wherever they are." 272 F. Supp. 2d
348, 373-74 (S.D.N.Y. 2003). In United States v. Rahman, Rahman was convicted of soliciting

A07CASES

6

■<a-?n?l-M»»thp.w-Rpnrif-r^ r,nmpany.4nc..a.member..of.theLcxisNexis Group.. Allfightsreseryed. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-Ill-

13888084

violence based on his public speeches calling for an attack on military installations and the murder of
an Egyptian president. 189 F.3d at 117. Furthermore, that a request for criminal action is coded or
implicit does not change its characterization as a solicitation. In{610 F.3d 961} United States v. Hale,
this court held sufficient evidence existed to uphold a solicitation conviction where Hale never
explicitly asked his chief enforcer to do anything. He simply asked his chief enforcer to locate a
judge's home address and made statements such as "that information's been pro-, {2010 U.S. App.
LEXIS 13}provided. If you wish to, ah, do anything yourself, you can, you know?" 448 F.3d 971, 979
(7th Cir. 2006). Hale's multiple attempts to distance himself from any illegal actions with statements
such as "I'm gonna fight within the law" and "I can't take any steps to further anything illegal," were
not enough to overturn the solicitation conviction. Id. We held that a rational jury could have inferred
his true intention from the evidence, regardless of any coded or disguised language. Id. at 984-85.
So, whether or not the First Amendment protects White's right to post personal information about
Juror A first turns on his intent in posting that information. If White's intent in posting Juror A's
personal information was to request that one of his readers harm Juror A, then the crime of
solicitation would be complete. No act needed to follow, and no harm needed to befall Juror A. If, on
the other hand, White's intent was to make a political point about sexual orientation or to facilitate
opportunities for other people to make such views known to Juror A, then he would not be guilty of
solicitation because he did not have the requisite intent required for the crime.
White argues that NAACP v. Claiborne Hardware Co., 458 U.S. 886, 102 S. Ct. 3409, 73 L. Ed. 2d
1215 (1982), {2010 U.S. App. LEXIS 14}stands for the proposition that the only permissible view of
his posting is to see it as a constitutionally protected expression and subject to the Brandenburg test.
In Claiborne, black citizens of Claiborne County, Mississippi, sent a letter to white merchants with a
list of particularized demands for racial equality and integration. After receiving an unsatisfactory
response, they began a boycott that lasted years. Several of the white merchants sued members of
the boycott to recover losses and enjoin further boycott activity, and won. The Mississippi Supreme
Court upheld liability as to 92 participants by finding that members had agreed to use force, violence
and threats to ensure compliance with the boycott, but the Supreme Court reversed, holding that an
individual could not be held liable for his mere association with an organization whose members
engage in illegal acts. Id. at 920. Claiborne primarily focused on the constitutionality of group-based
liability, but it also concluded that Charles Evers, the field secretary of the NAACP and chief
proponent of the boycott at the time, could not be held liable based on his "emotionally charged
rhetoric." Id. at 928. In speeches given {2010 U.S. App. LEXIS 15}before and during the boycott,
Evers stated that there would be "discipline" coming to those who did not participate in the boycott,
and that any "uncle toms" would "have their necks broken." Id. at 900 n.28.
White reads too much into Claiborne. A careful reading of the Court's analysis of Evers's liability
does not provide the support White believes it does. Given that the speeches were mainly an
"impassioned plea" for unity, support, and nonviolent participation in the boycott, and the few choice
phrases were the only example of threatening language, the Court found there was no evidence that
Evers authorized violence or threatened anyone. In this context, the speeches did not exceed the
bounds of Brandenburg-protected advocacy and could not be the basis of liability. But, the Supreme
Court acknowledged that there would be no constitutional problem with imposing liability for losses
caused by violence and threats of {610 F.3d 962} violence, id. at 916, and that if there was evidence,
of such "wrongful conduct" the speeches could be used to corroborate that evidence, id. at 929.
White's argument boils down to this: his posting was not a solicitation and because it is not a
solicitation, it is speech {2010 U.S. App. LEXIS 16}deserving of First Amendment protection. The
government sees the posting in the opposite light: the posting and website constitute a solicitation
and as such, fall outside the parameters of First Amendment protection. This dispute turns out not to

A07CASES

7

and terms and conditions of the Matthew Bender Master Agreement.

-112-

13888084

be an argument about the validity of the indictment in light of the First Amendment, but is instead a
dispute over the meaning and inferences that can be drawn from the facts. The government
informed us at oral argument that it has further evidence of the website's readership, audience, and
the relationship between White and his followers which will show the posting was a specific request
to White's followers, who understood that request and were capable and willing to act on it. This
evidence is not laid out in the indictment and does not need to be. Sampson, 371 U.S. at 78-79;
Smith, 230 F.3d at 306. The existence of .strongly corroborating circumstances evincing White's
intent is a jury question. Hale, 448 F.3d at 983. Of course, the First Amendment may still have a role
to play at trial. Based on the full factual record, the court may decide to instruct the jury on the
distinction between solicitation and advocacy, and the legal requirements {2010 U.S. App. LEXIS
17}imposed by the First Amendment. See, e.g., United States v. Freeman, 761 F.2d 549, 552 (9th
Cir. 1985). The government has the burden to prove, beyond a reasonable doubt, that White
intended, through his posting of Juror A's personal information, to request someone else to harm
Juror A. After the prosecution presents its case, the court may decide that a reasonable juror could
not conclude that White's intent was for harm to befall Juror A, and not merely electronic or verbal
harassment. But, this is not a question to be decided now. We have no idea what evidence or
testimony will be produced at trial. The government has laid out the elements of the crime and the
statute that White is accused of violating, along with some specific factual allegations for support,
and that is all it is required to do. The question of. White's intent and the inferences that can be drawn
from the facts are for a jury to decide, as the indictment is adequate to charge the crime of
solicitation. The indictment is legally sufficient and should not have been dismissed.
III. CONCLUSION
We REVERSE and REMAND for further proceedings consistent with this opinion.

A07CASES

8

and terms and conditions of the Matthew Bender Master Agreement.
i

-113-i

13888084

APPENDIX F:

638 F Supp 935 (ND Ill 2009)

-114-

UNITED STATES OF AMERICA, Plaintiff, v. WILLIAM WHITE. Defendant.
UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF ILLINOIS
638 F. Supp. 2d 935; 2009 U.S. Dist. LEXIS 65085
Case No. 08-CR-851
July 21, 2009, Decided
Editorial Information: Subsequent History
Reversed by, Remanded by United States v. White, 610 F.3d 956, 2010 U.S. App. LEXIS 13166 (June
28, 2010)Habeas corpus proceeding at White v. True, 2017 U.S. Dist. LEXIS 207455 (S.D. III., Dec. 15,
2017)Writ of habeas corpus dismissed White v. True, 2018 U.S. Dist. LEXIS 118134, 2018 WL 3427783
(S.D. III., July 16, 2018)
Editorial Information: Prior History
Te-Ta-Ma Truth Foundation-Family of URI, Inc. v. World Church of the Creator, 2005 U.S. Dist. LEXIS
10363 (N.D. III., May 23, 2005)United States v. Hale, 448 F.3d 971,2006 U.S. App. LEXIS 13318 (7th
Cir. III., May 30, 2006)
For William White. Defendant (1): Nishay Kumar Sanan, LEAD
ATTORNEY, Nishay K. Sanan, Esq., Chicago, IL; Chris M. Shepherd, Law Office of Chris
Shepherd, Chicago, IL.
For USA, Plaintiff: Michael James Ferrara,William R. Hogan,
Jr., LEAD ATTORNEYS, AUSA, United States Attorney's Office (NDIL), Chicago, IL; Pretrial
Services.
Judges: LYNN ADELMAN, District Judge.
Counsel

CASE SUMMARY
PROCEDURAL POSTURE: The government charged defendant with violating 18 U.S.C.S. § 373 by
soliciting another person to harm the foreperson of the federal jury that convicted white supremacist
leader Matthew Hale. Defendant moved to dismiss the indictment.lndictment charging defendant with
violating 18 U.S.C.S. § 373 by soliciting another person to harm a former juror was dismissed because
defendant's speech on his website, while intimidating and distasteful, contained no threat, did not solicit
violence, and therefore was protected by the First Amendment and did not state a violation of § 373.
OVERVIEW: Defendant operated a website on which he expressed white supremacy, anti-Semitic, and
sometimes violent views. He was indicted on a charge of violating 18 U.S.C.S. § 373 for soliciting or
otherwise endeavored to persuade another person to harm the jury foreperson in a high-profile case in
which an individual was convicted of soliciting the murder of a federal district court judge. Defendant
moved to dismiss the indictment, arguing that the indictment did not charge a punishable offense. The
postings at issue disclosed personal information about the juror, including the juror's home address, and
commented on the juror's sexual orientation and attitude toward race. However, the court concluded that
the postings contained no threat and did not solicit violence. The alleged corroborating circumstances set
forth in the indictment were insufficient to transform the postings into a solicitation of violence and also

lygcases

1

^->mi-Mntihewfimrier<^nrnpanv.4nc-amremherof&e-LexisNexis Group^Alljiahtsreserved.Use of.thisproduct is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-115-

13888084

failed to provide the strong corroboration necessary for a lawful prosecution under § 373 and the First
Amendment. Noting that recent case law supported the conclusion that the indictment did not charge a
punishable offense, the court ordered the indictment dismissed.
OUTCOME: The court granted defendant's motion to dismiss the indictment.
LexisNexis Headnotes
Criminal Law & Procedure > Criminal Offenses > Crimes Against Persons > General Overview
See18U.S.C.S. §373.
Criminal Law & Procedure > Accusatory Instruments > Dismissal
Under Fed. R. Crim. P. 12(b)(3)(B), a defendant may move to dismiss an indictment for failure to state
an offense. A defendant may likewise move to dismiss an indictment when it seeks to punish speech
protected by the First Amendment.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > General
Overview
Criminal Law & Procedure > Accusatory Instruments > Dismissal
When the government prosecutes a person based on the content of his speech, the inquiry into the
sufficiency of the indictment is often intertwined with the First Amendment analysis.
In ruling on a motion to dismiss an indictment, the court focuses on the allegations in the indictment,
which it must accept as true. While the indictment should be tested solely by its sufficiency to charge an
offense, regardless of the strength or weakness of the government's case, if the allegations in the
indictment are insufficient to state a violation of the governing statute, the court may dismiss.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > General
Overview
The First Amendment provides that Congress shall make no law abridging the freedom of speech. In a
democratic society, it is axiomatic that the Amendment's protections are not limited to the genteel, the
enlightened or the tasteful. Thus, the government may not ban speech that even a vast majority of its
citizens believes to be false and fraught with evil consequence.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Advocacy 61
Illegal Action
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Scope of
Freedom
The First Amendment's protections are not absolute and legislative bodies may proscribe certain
categories of expression. Such categories include advocacy of the use of force or of violation of the law
where such advocacy is directed to inciting or producing imminent lawless action and is likely to incite or
produce such action, "true threats," i.e. those statements where the speaker means to communicate a
serious expression of an intent to commit an act of unlawful violence to a particular individual or group of
individuals, and offers to engage in illegal transactions. There is an important distinction between a

lygcases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions ofthtTMatthew Bender Master Agreement.

-116-

13888084

proposal to engage in illegal activity and the abstract advocacy of illegality.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > General
Overview
Scrutiny and criticism of people involved in the investigation and prosecution of crimes is protected by
the First Amendment. Such scrutiny may involve disclosure of information about the people involved.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Knowledge or belief that one's speech, even speech advocating law breaking, may cause others to act
does not remove the speech from the protection of the First Amendment, unless the speech is directed
to inciting imminent lawless action and is likely to produce such action. The approval of past violence by
others cannot be made illegal consistent with the First Amendment.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Scope of
Freedom
Even when the circumstances surrounding a disclosure are intimidating, the speech may not be punished
consistent with the First Amendment unless it is directed to inciting imminent lawless action and likely to
produce such action.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Criminal Law & Procedure > Criminal Offenses > Crimes Against Persons > General Overview
18 U.S.C.S. § 373, construed consistently with the First Amendment and congressional intent, does not
criminalize general calls to action.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Criminal Law & Procedure > Criminal Offenses > Crimes Against Persons > General Overview
In order to ensure that 18 U.S.C.S. § 373 only punishes speech that is intended to incite imminent
lawless action and is likely to produce such action, as required by the First Amendment and
contemplated by Congress, courts considering solicitation cases should construe the statute to require (1)
that the solicitation be communicated to a specific person or group of persons, rather than to a general
audience or the public at large, and/or (2) that the corroborating circumstances relate specifically to the
alleged solicitation at issue and not consist of unrelated threats, general calls for violence, and other
intemperate statements.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Brandenburg stands for the proposition that, as a general rule, the constitutional guarantees of free
speech and free press do not permit a State to forbid or proscribe advocacy of the use of force or of law
violation. To fall outside the First Amendment's protection, advocacy of violence must be directed to
inciting or producing imminent lawless action and be likely to incite or produce such action.
Computer & Internet Law > Censorship > First Amendment Protections

lygcases

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-117-

13888084

The Supreme Court has held that speech on the internet is subject to no greater or lesser constitutional
protection than speech in more traditional media. The general rule in the case law is that speech that is
broadcast to a broad audience is less likely to be a true threat, not more.
Computer & Internet Law > Criminal Offenses > General Overview
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Scope ot
Freedom
The posting of personal information about an individual involved in a judicial proceeding, even under
circumstances that are intimidating or unsettling, cannot, absent a true threat or an incitement to
imminent lawless action, be criminalized consistent with the First Amendment.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Political
Speech
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Scope ot
Freedom
In the absence of a credible specific threat of harm, the publication of lawfully obtained addresses and
telephone numbers, while certainly unwelcome to those who had desired a greater degree of anonymity,
is traditionally viewed as having the ability to promote political speech. Publication may arguably expose
wrongdoers and/or facilitate peaceful picketing of homes or worksites and render other communication
possible.
Opinion
Opinion by:

LYNN ADELMAN
Opinion

{638 F. Supp. 2d 937} DECISION AND ORDER
The government charged defendant William White with violating 18 U.S.C. § 373 by soliciting
another person to harm the foreperson of the federal jury that convicted white supremacist leader
Matthew Hale. 1 Defendant now moves to dismiss the indictment, to strike surplusage, and to vacate
the orders of the judge, since recused, who was originally assigned to the case. I conclude that I
must dismiss the indictment. I will, therefore, not address defendant's other motions.
I. BACKGROUND
In 2003, a jury in the Northern District of Illinois convicted Hale of soliciting the murder of District
Judge Joan Lefkow, who had presided over a civil case involving Hale's organization. See
TE-TA-MA Truth Foundation-Family of URI, Inc. v. World Church of the Creator, 392 F.3d 248 (7th
Cir. 2004). Hale was sentenced to 480 months in prison. See United States v. Hale, 448 F.3d 971
(7th Cir. 2006).
On October 21, 2008, the government indicted defendant, alleging that on his website,
Overthrow.com, he solicited or otherwise endeavored to persuade another person to harm "Juror A,"
the Hale jury foreperson. Specifically, the government alleged that on or about September 11, 2008,

lygcases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-118-

13888084

defendant displayed on the front page of his website a post entitled, "The Juror Who Convicted Matt
Hale." The post read:
Gay anti-racist [Juror A] was a juror who played a key role {2009 U.S. Dist. LEXIS 3}in
convicting Matt Hale. Born [date], [he/she] lives at [address] with [his/her] gay black lover and
[his/her] cat [name], [His/Her] phone number is [phone number], cell phone [phone number], and
[his/her] office is [phone number].(Indictment [R. 5] at 2 P3, alterations in original.) The post did
not expressly advocate that Juror A be harmed.
The indictment further alleged that on September 12, 2008, defendant displayed on the front page of
his website a post entitled: "[Juror A] Update -- Since They Blocked the first photo" and stating:
Gay anti-racist [Juror A] was a juror who played a key role in convicting Matt Hale. Born [date],
[he/she] lives at [address] with [his/her] gay black lover and [his/her] cat [name]. [His/Her] phone
number is [phone number], cell phone [phone number], and [his/her] office is [phone number].
Note that [University A] blocked much of [Juror A's] information after we linked to [his/her]
photograph.(Indictment at 3 P 4, alteration in original.) This post also did not expressly advocate
that Juror A be harmed.
As "circumstances strongly corroborative of [defendant's] intent" that another person harm Juror A,
the indictment alleged that when he posted the above {2009 U.S. Dist. LEXIS 4}statements,
defendant was aware that white supremacists, Overthrow.com's target audience, sometimes
committed acts of violence against non-whites, Jews, homosexuals and others perceived as acting
contrary to the interests of the white race. (Indictment {638 F. Supp. 2d 938} at 3 P5.a.) The
indictment also alleged that before he posted the above statements, defendant displayed on
Overthrow.com other posts, some of which were still available, purporting to contain the home
addresses of and/or other identifying information about individuals who had been criticized on the
website, and that in certain of these posts, defendant expressed a desire that the individuals be
harmed. (Indictment at 3-4 P5.b.)
For example, the indictment quoted a March 26, 2008 post regarding "Individual B," a Canadian civil
rights lawyer who had published material regarding the use of the internet in hate crimes:
Kill [Individual B] Man Behind Human Rights Tribunal's Abuses Should Be Executed.
Commentary -- [Individual B], the sometimes Jewish, sometimes not, attorney behind the abuses
of Canada's Human Rights Tribunal should be drug out into the street and shot, after appropriate
trial by a revolutionary tribunal of Canada's white activists. {2009 U.S. Dist. LEXIS 5}lt won't be
hard to do, he can be found, easily, at his home, at [Address]...
We may no longer have the social cohesion and sense of purpose necessary to fight as a
country, but those of us who have the social cohesion and sense of purpose necessary to unify
as a race must take notice of an irreconcilable fact: [Individual B] is an enemy, not just of the
white race, but of all humanity, and he must be killed. Find him at home and let him know you
agree: [Address](lndictment at 4 P5.c.)
The indictment further alleged that on February 13, 2007, defendant posted material regarding Elie
Wiesel, an internationally known Holocaust survivor and author, who had been attacked on February
1,2007 by a man named Eric Hunt. The material was entitled "Where Elie Wiesel Lives -- In Case
Anyone was Looking For Him," and it listed three addresses. The indictment also alleged that on
February 21,2007, defendant posted the following statement:
Elie Wiesel should be afraid to walk out his front door but for the rightful vengeance of white
working people he and his holocaust lies have exploited.

lygcases

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
"and terms and conditions oftHTMatthew BenderMaster Agreement.

-119-

13888084

For decades, the Jews and the liars have used physical force, violent attacks on peaceful
demonstrators {2009 U.S. Dist. LEXIS 6}and peaceful meetings, and the violent physical force
of unjust and tyrannical laws to silence those who question the holocaust lie. If white people are
going to undo this system, we have to be ready to adapt and use the tactics of our exploiters.
Insofar as my views may have played a role in motivating Mr. Hunt, I can only say that I hope to
inspire a hundred more young white people to sacrifice themselves for our collective racial
whole. The only thing more noble than sacrifice is victory.
Heil Hitler(lndictment at 5 P5.d.) The indictment further alleged that on or about September 25,
2008, defendant displayed a post stating: "Last year, a fan of this website kidnapped Wiesel and
tried to force him to confess his books on the 'Holocaust' were knowing lies." (Indictment at 6
P5.d.)
Finally, the indictment alleged that in September 2007, defendant posted an article entitled,
"Addresses of the Jena 6 Niggers -- In case Anyone Wants To Deliver Justice." (Indictment at 6
P5.e.) The article listed the names and addresses of six individuals involved in a highly publicized
matter in Jena, Louisiana. And in response to a Virginia newspaper's criticism of the post, defendant
posted a second article (2009 U.S. Dist. LEXIS 7}stating:
When the courts start enforcing laws against Internet threats and actual violence {638 F. Supp.
2d 939} against anti-racists and the mainstream, Jewish owned media which finances and
encourages them, I will stop broadcasting people's names and address[es] with the opinion they
should be lynched. However, as long as we live in a society in which laws are not enforced
against Jews, Marxists and other privileged members of the bourgeoisie, I will take advantage of
that and use the lawless chaos they've created to push my view, which is that all Jews and
Marxists (including their fellow traveling neo-cons, neo-liberals, Zionists and Judaized-Christians
in both Republican and Democratic Parties) should be shot, rather than debated -- along with
their fellow travelers and chosen pets in the Negro 'rights' movement.(lndictment at 6-7 P5.e.)
The case was originally assigned to Judge Hibbler, who on January 26, 2009, denied defendant's
motions to dismiss, to strike surplusage from the indictment, and for a change of venue. On February
10, 2009, the government obtained a superseding indictment, which tracked the original indictment
but also referred to additional posts allegedly corroborative of defendant's {2009 U.S. Dist. LEXIS
8}intent that Juror A be harmed, including a 2005 post relating to the February 28, 2005 murders of
Judge Lefkow's husband and mother, which stated as follows:
The husband and mother of the judge who shut down the World Church of the Creator have
been assassinated by white nationalists who are promising to kill every federal agent and Jewish
official associated with the case. According to a statement released tonight to white nationalist
news service, individuals identifying themselves as members of the World Church of the Creator
took responsibility for the killings and promised that other bodies would follow ...
The killing is not the first linked to the Creator group. Benjamin Smith, the most prominent, killed
nine people and wounded two others in a 1999 shooting rampage ...
According to a statement released to the white-oriented press, other individuals associated with
the case, most likely federal informer Tony Evola ... and other minor anti-racists who taunted
and encouraged the frame-up of Hale, may be future targets.
After the Hale trial, this website published personal information on Tony Evola, the federal

lygcases

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-120-

13888084

informer who originally set Hale up, leading FBI officials to say {2009 U.S. Dist. LEXIS 9}that
they would do 'whatever was in their power' to shut this website down -- something they have still
not succeeded in doing. . .(Superseding Indictment [R. 54] at 7-8 P5.f.)
The superseding indictment also quoted defendant's March 1, 2005 post entitled "I Don't Feel Bad
About The Hit On Judge Lefkow- And I Don't Think Others Should, Either." (Superseding Indictment
at 8 P5.g), as follows:
I don't feel bad that Judge Lefkow's family was murdered today. In fact, when I heard the story I
laughed. 'Good for them!' was my first thought.
Everyone associated with the Matt Hale trial has deserved assassination for a long time. At the
time, I believe I said that if I were Hale and I was railroaded like this I would kill - not the judge but the ADL officers involved and their witnesses. In general, I would not kill a judge's family -- it
strikes me as overly harsh -- but in this case the family members were Jews (well, in one case a
converso), and really I can't mourn over dead Jews....
But the abstract question of the ethics of killing Jews in general must be set aside {638 F. Supp.
2d 940} here, because the meat of this question is whether it was just or unjust in this specific
case for people who have {2009 U.S. Dist. LEXIS 10}been persecuted and denied their religion
by the dictates of Judge Lefkow and the system she promotes to retaliate and wreck vengeance
against her. In my view, it was clearly just, and I look forward to seeing who else this new white
nationalist group of assassins kills next.
Judge Lefkow was the instrument by which the Jewish system of government in this country took
from thousands of people in the religious creed which they held to be the truth. The ADL, through
their lackeys in the TE-TA-MA foundation, were the specific group of Jews that directed and
stage managed this persecution. What these people did to Matt Hale and the Creativity
movement was evil, and they deserved to experience the consequences of the evil they had
done...
Yesterday, when the ADL officials and FBI agents and federal prosecutors and federal judges
who are responsible for the persecution of the white race went to bed, they had no fear that they
would ever be held accountable for any unreasonable or immoral ruling against a white activist.
White activists were ridiculed. They were mocked. They were the kind of silly
Jewish-television-show bad guy that anyone could kick around and know they could get away
with {2009 U.S. Dist. LEXIS 11}it. For all the propaganda alleging white activists were 'violent'
'terrorist' or 'dangerous,' to the Jewish system white nationalists were nothing more than a bunch
of fringe losers, not to be taken seriously.
Tonight, as these same ADL officials and FBI agents and federal prosecutors and federal judges
go to bed, they have to think that tomorrow they may wake up and find their families murdered.
Just as anti-racists routinely terrorize the families of white activists, threatening rape and murder
against people who have nothing but a relative who is a dissident, and the same ADL officials
and FBI agents and federal prosecutors and federal judges can go to bed with the same vague
feeling of unease and fear that they have inflicted and perpetuated through their miscarriage of
justice, their subservience to evil, and their refusal to enforce the law.
I do not mourn the assassination of Judge Lefkow's family, and I hope the killer wrecks more
havoc among the enemies of humanity, and the killer is never found. I do not say that because I
have personal animosity for Judge Lefkow, or because I sick [sic] have a love of violence or
death. What I love is justice, and this act of violence, publicized {2009 U.S. Dist. LEXIS 12}as it
is to millions of those who passively engage in evil in the name of the Jew, sends a message of

lygcases

7

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions ofthe’Matthew BenderMaster Agreement.

-121-

13888084

justice to those who thought they could be protected in the performance of evil.
Killing people -- killing people's families -- is not good. It is not a right thing to do. In a world that
was right there would be no murder. But an eye for an eye is justice, and such acts of justice
make me think, sometimes, that maybe there are some things still right with the
world.(Superseding Indictment at 9-10, P5.g.)
The superseding indictment further alleged that on March 1, 2005, defendant posted a statement that
an e-mail with the home address of various federal prosecutors, agents and others involved in the
Hale matter had been circulating among white nationalist discussion groups, and that it indicated that
they could be the next targets of the killer of Judge Lefkow's husband and mother. The post further
stated:
{638 F. Supp. 2d 941} While Overthrow would usually not hesitate to republish the personal
information of these scumbags in full, at this time we feel there is so great a potential for action
linked to such posting that we are not going to post email and its details at this time.

Whether the email represents {2009 U.S. Dist. LEXIS 13}a legitimate threat, or just some angry
activists blowing off steam, remains to be seen. After the unexpected assassination of Judge
Lefkow's family, it seems that anything may be possible.(Superseding Indictment at 11 P5.h.)
Finally, the superseding indictment alleged that on or about May 22, 2008, defendant posted an
article entitled "Feeling Better," in which he stated:
Things have become progressively worse, day by day, and I have woke up more and more often
feeling the need to kill, kill, kill, and I have tried to get through my day while ignoring the need to
destroy the wicked. Its not been easy.
I realized the other day that I have, almost without realizing it -- though that may seem a bit
strange - developed a very intricate plot for the murder of about a score of Roanoke City's negro
nuisances and their annoying counterparts at the Roanoke Times. I know everything about these
assholes, where they live, who they live with, what they look like, where they go, when they go
there. I estimate I could probably in the course of a few hours kill 15,19 out of the 20 easy if I
pick the right day and time, and still lived long enough to travel the country and begin picking off
the ridiculous {2009 U.S. Dist. LEXIS 14}'independent journalists' that staff the Southern Poverty
Law Center's Intelligence Report. I have a list of those as well.(Superseding Indictment at 11-12
P5.i.)
After the government filed the superseding indictment, defendant moved to transfer the case to a
federal court in Virginia, 2 to recuse all judges in the Northern District of Illinois and to disqualify the
United States Attorney's Office in the Northern District of Illinois. The government did not contest
defendant's motion to recuse, and Judge Hibbler granted it. On behalf of the Executive Committee,
Chief Judge Holderman then recused all judges in the Northern District of Illinois, and the case was
re-assigned me. I denied defendant's motions to transfer and to disqualify the prosecutors, and
authorized defendant to file motions relating to the superseding indictment; as indicated, such
motions are before me now. 3
II. APPLICABLE LEGAL STANDARDS
A. Motion to Dismiss
Under Fed. R. Crim. P. 12(b)(3)(B),.{2009 U.S. Dist. LEXIS 15}a defendant may move to dismiss an
indictment for failure "td state an offense." A defendant may likewise move to dismiss an indictment

lygcases

8

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew BendeFM’aster Agreement.

-122-

13888084

when it seeks to punish speech protected by the First Amendment. E.g., United States v. Baker, 890
F. Supp. 1375, 1385 (E.D. Mich. 1995), afTd sub nom., United States v. Aikhabaz, 104 F.3d 1492
(6th Cir. 1997); see also United States v. Bly, 510 F.3d 453, 457-58 (4th Cir. 2007) (stating that
whether "a written communication contains either constitutionally protected 'political hyperbole' or an
unprotected 'true threat' is a question of law," as is the issue of whether "an indictment properly
charges a criminal offense”); United {638 F. Supp. 2d 942} States v. Popa, 187 F.3d 672, 674-75,
337 U.S. App. D.C. 411 (D.C. Cir. 1999) (reviewing de novo the defendant's pre-trial motion arguing
that application of a statute to his speech violated the First Amendment). 4
In ruling on a motion to dismiss, the court focuses on the allegations in the indictment, which it must
accept as true. E.g., United States v. Moore, 563 F.3d 583, 586 (7th Cir. 2009). While the indictment
should be tested solely by its sufficiency to charge an offense, regardless of the strength or
weakness of the government's case, if the allegations in the indictment are insufficient to state a
violation of the governing statute, the court may dismiss. See United States v. Risk, 843 F.2d 1059,
1061 (7th Cir. 1988). In the present case, the parties treat the question of whether the government's
allegations are sufficient to support a conviction under § 373 as one of law; neither side argues that
further factual development is necessary. Therefore, I may properly determine whether the facts set
forth in the indictment state an offense. See id. (holding that the district court properly dismissed an
indictment where the parties argued the applicability of a statute based on a set of undisputed facts).
B. Section 373 and the First Amendment
The First Amendment provides that "Congress shall (2009 U.S. Dist. LEXIS 17}make no law . . .
abridging the freedom of speech.” In a democratic society, it is axiomatic that the Amendment's
protections are not limited to the genteel, the enlightened or the tasteful. See, e.g., Texas v.
Johnson, 491 U.S. 397, 414, 109 S. Ct. 2533, 105 L. Ed. 2d 342 (1989) ("If there is a bedrock
principle underlying the First Amendment, it is that the government may not prohibit the expression
of an idea simply because society finds the idea itself offensive or disagreeable"). Sixty years ago,
the Supreme Court explained that:
[A] function of free speech under our system of government is to invite dispute. It may indeed
best serve its high purpose when it induces a condition of unrest, creates dissatisfaction with
conditions as they are, or even stirs people to anger. Speech is often provocative and
challenging. It may strike at prejudices and preconceptions and have profound unsettling effects
as it presses for acceptance of an idea. That is why freedom of speech, though not absolute, is
nevertheless protected against censorship or punishment, unless shown likely to produce a clear
and present danger of a serious substantive evil that rises far above public inconvenience,
annoyance, or unrest. There is no room {2009 U.S. Dist. LEXIS 18}under our Constitution for a
more restrictive vlew.Terminiello v. City of Chicago, 337 U.S. 1, 4-5, 69 S. Ct. 894, 93 L. Ed.
1131 (1949) (internal citations omitted). Thus, the government may not ban speech that even "'a
vast majority of its citizens believes to be false and fraught with evil consequence.'" Virginia v.
Black, 538 U.S. 343, 358, 123 S. Ct. 1536, 155 L. Ed. 2d 535 (2003) (quoting Whitney v.
California, 274 U.S. 357, 374, 47 S. Ct. 641, 71 L. Ed. 1095 (1927) (Brandeis, J., concurring)).
The Court recognizes that the Amendment's protections are not absolute and that legislative bodies
may proscribe certain categories of expression. Black, 538 U.S. at 358. As is relevant here, such
categories include advocacy {638 F. Supp. 2d 943} of the use of force or of violation of the law
"where such advocacy is directed to inciting or producing imminent lawless action and is likely to
incite or produce such action," Brandenburg v. Ohio, 395 U.S. 444, 447, 89 S. Ct. 1827, 23 L. Ed. 2d
430 (1969), "true threats," Waffs v. United States, 394 U.S. 705, 708, 89 S. Ct. 1399, 22 L. Ed. 2d
664 (1969), i.e. "those statements where the speaker means to communicate a serious expression of

lygcases

9

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-123-

13888084

an intent to commit an act of unlawful violence to a particular individual or group of individuals,"
Black, 538 U.S. at 359, and offers to engage in illegal transactions, United States v. Williams, 553
U.S. 285, 128 S. Ct. 1830, 1841, 170 L. Ed. 2d 650 (2008). {2009 U.S. Dist. LEXIS 19}5 As the
Williams Court stated, there is "an important distinction between a proposal to engage in illegal
activity and the abstract advocacy of illegality." 128 S. Ct. at 1842 (citing NAACP v. Claiborne
Hardware Co., 458 U.S. 886, 928-929, 102 S. Ct. 3409, 73 L. Ed. 2d 1215 (1982); Brandenburg, 395
U.S. at 447-448).
In its report on the Bill which became § 373, the Senate Judiciary Committee explained that it crafted
the statute with these First Amendment limitations in mind. The Committee noted that some cases
speak of:
the need for a relatively high degree of proximity, probability, or seriousness in the evil the state
seeks to prevent by the regulation of speech. Others have emphasized the need for incitement to
unlawful activity, as opposed to abstract advocacy of the propriety {2009 U.S. Dist. LEXIS 20}of
such activity. Still others have combined these themes, as in Brandenburg v. Ohio, where the
standard was said to be that advocacy of the use of force or law violation could be proscribed
only where it was "directed to inciting or producing imminent lawless action and is likely to incite
or produce such action."S. Rep. 97-307, at 180 (1981). The Committee quoted with approval a
commentator's explanation of why the crime of solicitation would not ordinarily create a First
Amendment issue:
-

"Solicitation involves a hiring or partnership arrangement, designed to accomplish a specific
action in violation of law, where the communication is an essential link in a direct chain leading
to criminal action, though the action may have been interrupted. In short, the person charged
with solicitation must, in a direct sense, have been a participant in an abortive crime of
violence.'7d. at 181 (quoting Emerson, Toward a General Theory of the First Amendment 83
(1966)).
The Committee further explained that the proof required to establish the elements of the offense
would, in most cases, obviate First Amendment issues. The government would first have to establish
that the offender had the intent that {2009 U.S. Dist. LEXIS 21}another person commit a violent
crime, and that the intent was manifested by circumstances strongly corroborative thereof. Id. at 182.
"Included expressly in the first element is a requirement that the circumstances show that the actor is
serious in his intention." Id. The Committee listed a number of circumstances that would be highly
probative of intent, including an offer of payment or other promise of benefit to the person solicited if
he would commit {638 F. Supp. 2d 944} the offense; a threat to the person solicited if he would not
commit the offense; repeated solicitations or express protestations of seriousness in soliciting the
commission of the offense; the defendant's knowledge that the person solicited previously committed
similar offenses; and the fact that the defendant acquired weapons, tools or information suited for
use by the person solicited, or made other preparations for the commission of the offense by the
person solicited. Id. at 183.
Second, the government would have to establish that the defendant commanded, entreated, induced
or otherwise endeavored to persuade the other person to commit the crime of violence. Congress
specifically rejected words such as "counsels," "encourages" {2009 U.S. Dist. LEXIS 22}or
"requests" because they suggest equivocation too close to casual remarks. Id. at 182. For example,
an order to commit an offense made by a person to another with whom he stands in a relation of
influence or authority would constitute a "command"; and threatening another if he will not commit an
offense, or offering to pay him if he will, would constitute "inducement." Id. at 183. "The phrase
'otherwise endeavors to persuade' is designed to cover any situation where a person seriously seeks

lygcases

10

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
lin'd "terms and conditions of ht TMatthew Bender Master Agreement.

-124-

13888084

to persuade another person to engage in criminal conduct." Id. at 183-84. 6
The Committee concluded that because {2009 U.S. Dist. LEXIS 23}the typical case would involve
activity such as an heir soliciting the murder of a relative from whom he expected to inherit, a person
importuning another to commit arson on his business so he can collect insurance money, or an
organized crime boss directing a subordinate to kill a rival gang leader, First Amendment issues were
unlikely to arise. Id. at 181. However, in an unusual case in which such issues did arise, the
Committee understood that the First Amendment principles discussed above would "operate as
supplementary restrictions on the applicability of the section." Id. at 182. 7
III. ANALYSIS
For the following reasons, I conclude that defendant's speech, as alleged in the indictment, is
protected by the First Amendment and does not state a violation of § 373.
A. Posts Regarding Juror A
Defendant's posts regarding Juror A do not expressly solicit or endeavor to persuade another person
to harm Juror A. Rather, they disclose personal {2009 U.S. Dist. LEXIS 24}information about Juror A
and comment on his/her sexual orientation and attitude toward race. Although the posts may be
reasonably read as criticizing Juror A's vote to convict Hale, nowhere in them does defendant
expressly advocate that Juror A be harmed. 8
{638 F. Supp. 2d 945} Scrutiny and criticism of people involved in the investigation and prosecution
of crimes is protected by the First Amendment. See Wood v. Georgia, 370 U.S. 375, 82 S. Ct. 1364,
8 L. Ed. 2d 569 (1962) (holding that the First Amendment protects the right to criticize a grand jury
investigation); see also Globe Newspaper Co. v. Superior Court for Norfolk County, 457 U.S. 596,
605-06, 102 S. Ct. 2613, 73 L. Ed. 2d 248 (1982) (discussing the importance of public access to, and
scrutiny of, criminal trials). 9 Such scrutiny may involve disclosure of information about the people
involved. See The Florida Starv. B.J.F., 491 U.S. 524, 109 S. Ct. 2603, 105 L. Ed. 2d 443 (1989)
(holding that the imposition of damages on a newspaper for publishing the name of a rape victim,
lawfully obtained from a publicly released police report, in violation of a Florida {2009 U.S. Dist.
LEXIS 25}statute and the newspaper's own internal policy, violated the First Amendment); Smith v.
Daily Mail Publishing Co., 443 U.S. 97, 99 S. Ct. 2667, 61 L. Ed. 2d 399 (1979) (finding
unconstitutional the indictment of two newspapers for violating a state statute barring publication,
without written approval of the juvenile court, the name of any youth charged as a juvenile offender);
see also Eugene Volokh, Crime-Facilitating Speech, 57 Stan. L. Rev. 1095, 1142-43 (2005)
(discussing how the publishing of names and addresses can help people evaluate and participate in
public debate, as well as facilitate lawful remonstrance and social ostracism).
B. Alleged Corroborating Circumstances
In order to state an offense under § 373, the indictment must allege that defendant intentionally
solicited or endeavored to persuade another person to harm Juror A, under circumstances strongly
corroborative of defendant's intent that the person commit {2009 U.S. Dist. LEXIS 26}a violent crime
against Juror A. As stated, defendant's posts about Juror A do not expressly solicit or endeavor to
persuade another person to harm him/her. Moreover, as discussed, defendant's posts about Juror A,
in themselves, are protected by the First Amendment. Thus, the corroborating circumstances alleged
must, consistent with the First Amendment, transform defendant's lawful statements about Juror A
into a criminal solicitation. The corroborating circumstances alleged in the indictment fail to do so.
1. Defendant's Awareness That White Supremacists Sometimes Commit Violent Acts

lygcases

11

©,2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-125-

13888084

The first alleged corroborating circumstance is that when he posted information about Juror A,
defendant was aware that white supremacists, the target audience of Overthrow.com, sometimes
committed acts of violence against persons viewed as acting against the interests of the white race.
However, the fact that defendant knew that white supremacists sometimes viewed his website and
sometimes harmed people they perceived as enemies is insufficient to transform his lawful
statements about Juror A into criminal advocacy, i.e., advocacy directed to inciting or producing
imminent lawless action, as required by {2009 U.S. Dist. LEXIS 27}the First Amendment and § 373.
See Brandenburg, 395 U.S. at 447. Knowledge or belief that one's speech, even speech advocating
law breaking, may cause others to act does not remove the speech from the protection of the First
Amendment, unless the speech is directed to inciting imminent lawless action and is likely to produce
such action. {638 F. Supp. 2d 946} See id. (holding that the First Amendment protected an
incendiary speech by a Ku Klux Klan leader to a Klan gathering); see also Ashcroft v. Free Speech
Coalition, 535 U.S. 234, 245, 122 S. Ct. 1389, 152 L. Ed. 2d 403 (2002) ("The prospect of crime . . .
by itself does not justify laws suppressing protected speech."). 10
2. {2009 U.S. Dist. LEXIS 28}Defendant's Pre-Juror A Posts
The second alleged corroborating circumstance is that on several occasions ranging in time from six
months to three years before his posts about Juror A, defendant posted information, sometimes
including home addresses, about other individuals criticized on his website and sometimes
expressed a desire that these individuals be harmed. Several of these posts were accessible to
persons visiting Overthrow.com at the time defendant posted about Juror A. The government's
theory with respect to defendant's pre-Juror A posts appears to be that because defendant previously
disclosed personal information about individuals and expressed a wish that they be harmed, his
lawful statements about Juror A could be found to be a violation of § 373. This theory is untenable.
Defendant's other posts were created well before his Juror A posts, and none of them mention Juror
A. The post closest in time to defendant's posts about Juror A, his May 22, 2008 "Feeling Better"
post, discusses defendant's plot to personally kill people in Roanoke, Virginia, but like defendant's
other pre-Juror A posts, it has no apparent connection to defendant's statements about Juror A.
Further, {2009 U.S. Dist. LEXIS 29}the fact that in some of his pre-Juror A posts, defendant may
have expressed a wish that the individuals named be harmed is hardly sufficient to transform his
lawful statements about Juror A into advocacy directed to inciting imminent lawless action and likely
to cause such action as is required for the indictment to allege an offense under § 373 and the First
Amendment.
C. Case Law
It may not be necessary to discuss First Amendment case law any more than I already have.
However, I find it significant that the cases relating to disclosure of personal information, even under
threatening or intimidating circumstances, uniformly support the proposition that defendant's speech
is protected. 11 In the interest of completeness, I will, therefore, discuss the Claiborne Hardware
case, which was decided in 1982, and the more recent cases dealing with issues similar to those
presented here.
In Claiborne Hardware, the Supreme Court considered a boycott by black citizens of white-owned
businesses in Claiborne County, Mississippi. {2009 U.S. Dist. LEXIS 30}As is pertinent here, the
boycott involved stationing individuals, known as "enforcers," "deacons" or "black hats," near
white-owned businesses for the purpose of reporting blacks who violated the boycott. Boycott
supporters read the names of such persons at meetings of the Claiborne County NAACP {638 F.
Supp. 2d 947} and at church services and published them in a mimeographed paper entitled the
"Black Times." Such persons "were branded as traitors to the black cause, called demeaning names,

lygcases

12

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject io the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

— 126 —

13888084

and socially ostracized for merely trading with whites." 458 U.S. at 903-04. Some also became
targets of violence. Id. at 904.
While acknowledging that persons who committed acts of violence could be held liable, the Supreme
Court held that others involved in the boycott, including the leader, Charles Evers, could not be. This
was so despite Evers's statements that "blacks who traded with white merchants would be
answerable to him," id. at 900 n.28, that "any 'uncle toms' who broke the boycott would 'have their
necks broken' by their own people," id. at 900 n.28, that if "we catch any of you going in any of them
racist stores, we're gonna break your damn neck," id. at 902, that "boycott violators would be
'disciplined' {2009 U.S. Dist. LEXIS 31}by their own people" and "that the Sheriff could not sleep
with boycott violators at night," id. at 902.
Regarding this aspect of the boycott, the Court noted that speech does not lose its protected
character "simply because it may embarrass others or coerce them into action." Id. at 909-10. Even
when the speech arguably contains threats of violence, "in the context of constitutionally protected
activity . . . 'precision of regulation' is demanded." Id. at 916-17 (quoting NAACP v. Button, 371 U.S.
415, 438, 83 S. Ct. 328, 9 L. Ed. 2d 405 (1963)). The Court thus held that, although the "black hats"
who engaged in violence could be punished, there "is nothing unlawful in standing outside a store
and recording names. Similarly, there is nothing unlawful in wearing black hats, although such
apparel may cause apprehension in others." Id. at 925.
Finally, the Court held that Evers could not be held liable for his statements about the boycott
violators:
While many of the comments in Evers' speeches might have contemplated "discipline" in the
permissible form of social ostracism, it cannot be denied that references to the possibility that
necks would be broken and to the fact that the Sheriff could not sleep with boycott violators
{2009 U.S. Dist. LEXIS 32}at night implicitly conveyed a sterner message. In the passionate
atmosphere in which the speeches were delivered, they might have been understood as inviting
an unlawful form of discipline or, at least, as intending to create a fear of violence whether or not
improper discipline was specifically intended.
It is clear that "fighting words" -- those that provoke immediate violence -- are not protected by
the First Amendment. Similarly, words that create an immediate panic are not entitled to
constitutional protection. This Court has made clear, however, that mere advocacy of the use of
force or violence does not remove speech from the protection of the First Amendment. In
Brandenburg v. Ohio, 395 U.S. 444, 89 S. Ct. 1827, 23 L. Ed. 2d 430, we reversed the conviction
of a Ku Klux Klan leader for threatening "revengeance" if the "suppression" of the white race
continued; we relied on "the principle that the constitutional guarantees of free speech and free
press do not permit a State to forbid or proscribe advocacy of the use of force or of law violation
except where such advocacy is directed to inciting or producing imminent lawless action and is
likely to incite or produce such action." {2009 U.S. Dist. LEXIS 33}ld., at 447, 89 S. Ct., at 1829.
See Noto v. United States, 367 U.S., at 297-298, 81 S. Ct., at 1520 ("the mere abstract teaching
... {638 F. Supp. 2d 948} of the moral propriety or even moral necessity for a resort to force
and violence, is not the same as preparing a group for violent action and steeling it to such
action").
The emotionally charged rhetoric of Charles Evers' speeches did not transcend the bounds of
protected speech set forth in Brandenburg. ... Strong and effective extemporaneous rhetoric
cannot be nicely channeled in purely dulcet phrases. An advocate must be free to stimulate his
audience with spontaneous and emotional appeals for unity and action in a common cause.
When such appeals do not incite lawless action, they must be regarded as protected speech. To

lygcases

13

2021'MattheW Bender&Company,-inc-a member of the LexisNcxisGroup.All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-127-

13888084

rule otherwise would ignore the "profound national commitment" that "debate on public issues
should be uninhibited, robust, and wide-open."/d. at 927-28 (internal citations and footnotes
omitted). 12
In the present case, defendant also disclosed the identity of a person, Juror A, with whom he
disagreed on a matter of social importance, i.e. the conviction of Hale in a high profile criminal case.
Although he did so under potentially intimidating circumstances, as Claiborne Hardware holds, even
when the circumstances surrounding a disclosure are intimidating, the speech may not be punished
consistent with the First Amendment unless it is directed to inciting imminent lawless action and
likely to produce such action. Defendant's speech lacked both of these characteristics.
In PPCW, a case which split the en banc Ninth Circuit Court of Appeals 6-5, the majority upheld a
damages award and injunctive relief against anti-abortion activists under the Freedom of Access to
Clinics Entrances Act ("FACE"). The defendants in PPCW created "wanted" posters, some of which
included personal information about the abortion providers depicted, including home addresses, and
operated a website called the "Nuremberg Files," which also included personal information about the
{2009 U.S. Dist. LEXIS 35}providers - with lines drawn through the names of doctors killed or
wounded. 290 F.3d at 1062-63.
PPCW supports my conclusion here. First, unlike the present case, which involves a solicitation to
commit a crime of violence, PPCW was a "true threat" case. Realizing that they could not show that
the defendants' communications were likely to produce the imminent unlawful action required by
Brandenburg, the PPCW plaintiffs did not even attempt to support their claims under an incitement
theory. Id. at 1092 n.5 (Kozinski, J., dissenting). Second, under both the PPCW majority and
dissenting opinions, defendant's disclosures about Juror A are protected under the First Amendment.
The PPCW majority held that under the circumstances present there, which included statements by
the defendants supporting violence against abortion providers, a backdrop of actual violence against
the providers depicted on the posters (including murders), and the posters themselves, which carried
a historical connotation of "wanted -- dead or alive," the posters represented a true threat. Id. at
1071, 1079-80. However, the majority found the website "somewhat different." Id. at 1080. It stated
that the defendants {2009 U.S. Dist. LEXIS 36}created the site for the purpose of:
"collecting dossiers on abortionists in anticipation that one day we may be able {638 F. Supp. 2d
949} to hold them on trial for crimes against humanity." The web page states: "One of the great
tragedies of the Nuremberg trials of Nazis after WWII was that complete information and
documented evidence had not been collected so many war criminals went free or were only
found guilty of minor crimes. We do not want the same thing to happen when the day comes to
charge abortionists with their crimes. We anticipate the day when these people will be charged in
PERFECTLY LEGAL COURTS once the tide of this nation's opinion turns against child-killing (as
it surely will)." However offensive or disturbing this might be to those listed in the Files, being
offensive and provocative is protected under the First Amendment. But, in two critical respects,
the Files go further. In addition to listing judges, politicians and law enforcement personnel, the
Files separately categorize "Abortionists" and list the names of individuals who provide abortion
services, including, specifically, Crist, Hern, and both Newhalls. Also, names of abortion
providers who have been murdered because of their {2009 U.S. Dist. LEXIS 37}activities are
lined through in black, while names of those who have been wounded are highlighted in grey. As
a result, we cannot say that it is clear as a matter of law that listing Crist, Hern, and the Newhalls
on both the Nuremberg Files and the GUILTY posters is purely protected, political expression.
Accordingly, whether the Crist Poster, the Deadly Dozen poster, and the identification of Crist,
Hern, Dr. Elizabeth Newhall and Dr. James Newhall in the Nuremberg Files as well as on

lygcases

14

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-128-

13888084

"wanted"-type posters, constituted true threats was properly for the jury to decide.Id. at 1080. 13
Thus, the majority found that simply identifying and providing personal information about the
providers on the website, while offensive and disturbing, was protected by the First Amendment.
Liability was possible only because the defendants (1) highlighted the names of the doctors who had
been killed or injured, and (2) also {2009 U.S. Dist. LEXIS 38}depicted the doctors on the wanted
posters that the court had found threatening. The speech alleged in the present case is not
comparable. Defendant did not threaten Juror A either directly or through wanted posters. He did
nothing more than disclose personal information regarding Juror A and criticize him.
The PPCW dissenters concluded that both the posters and the website were protected by the First
Amendment. Speaking for the dissenters, Judge Kozinski explained that neither the website nor the
posters were overtly threatening and that speech does not lose its protected character because it
may embarrass, frighten or intimidate. Id. at 1089-90. Regarding the highlighting of names on the
website, Judge Kozinski wrote: "At most, the greying out and strikeouts could be seen as public
approval of those actions, and approval of past violence by others cannot be made illegal consistent
with the First Amendment." Id. at 1091 n.3.
Judge Kozinski further noted that the providers' fear came not from the defendants who created the
posters or the website, or those acting in direct concert with them, "but from being singled out for
attention by abortion protesters across the country," id. at 1091, {2009 U.S. Dist. LEXIS 39}and that
although from the providers' perspective it made {638 F. Supp. 2d 950} little difference whether the
violence came from the defendants or others, it did make a difference under the First Amendment.
Where the speaker is engaged in public political speech, the public statements themselves
cannot be the sole proof that they were true threats, unless the speech directly threatens actual
injury to identifiable individuals. Absent such an unmistakable, specific threat, there must be
evidence aside from the political statements themselves showing that the public speaker would
himself or in conspiracy with others inflict unlawful harm. 458 U.S. at 932-34, 102 S. Ct. 3409.
The majority cites not a scintilla of evidence -- other than the posters themselves -- that plaintiffs
or someone associated with them would carry out the threatened harm.
Given this lack of evidence, the posters can be viewed, at most, as a call to arms for other
abortion protesters to harm plaintiffs. However, the Supreme Court made it clear that under
Brandenburg, encouragement or even advocacy of violence is protected by the First
Amendment: "[Mjere advocacy of the use of force or violence does not remove speech from the
protection of {2009 U.S. Dist. LEXIS 40}the First Amendment." Claiborne Hardware, 458 U.S. at
927, 102 S. Ct. 3409 (citing Brandenburg, 395 U.S. at 447) (emphasis in the original)./d. at 1092.
In the present case, defendant's posts about Juror A are disturbing because of the possibility that
others might respond to them, but the cases hold that the government may not, consistent with
the First Amendment, criminalize general calls to action.
Nor does § 373, construed consistently with the First Amendment and congressional intent,
criminalize general calls to action. Because defendant's posts about Juror A, standing alone or
considered in conjunction with the other posts referenced in the indictment, do not include a
solicitation or entreaty that Juror A be injured, I need not decide whether § 373 may ever be used to
punish a general call to action. However, the legislative history of § 373 indicates that Congress
contemplated -- and the reported cases generally involve - the solicitation of specific individuals.
In order to ensure that § 373 only punishes speech that is intended to incite imminent lawless action
and is likely to produce such action, as required by the First Amendment and contemplated by
Congress, courts considering {2009 U.S. Dist. LEXIS 41}solicitation cases should construe the

lygcases

15

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-129-o

13888084

statute to require (1) that the solicitation be communicated to a specific person or group of persons,
rather than to a general audience or the public at large, and/or (2) that the corroborating
circumstances relate specifically to the alleged solicitation at issue and not consist of unrelated
threats, general calls for violence and other intemperate statements. 14 In the present case,
defendant {638 F. Supp. 2d 951} communicated his statements about Juror A on a website
available to the general public rather than to a specific person or group of persons, and the alleged
corroborating posts do not mention or relate to Juror A. Thus, even assuming that § 373 may
criminalize some general calls to action and that defendant's posts about Juror A could be construed
as such a call, the corroborating circumstances set forth in the indictment are plainly insufficient. 15
The dissent in PPCW made a related point that is also relevant to the present case, noting:
There is no allegation that any of the posters in this case disclosed {2009 U.S. Dist. LEXIS
44}private information improperly obtained. We must therefore assume that the information in
the posters was obtained from public sources. All defendants did was reproduce this public
information in a format designed to convey a political viewpoint and to achieve political goals.
The "Deadly Dozen" posters and the "Nuremberg Files" dossiers were unveiled at political rallies
staged for the purpose of protesting Roe v. Wade .... The Nuremberg Files website is clearly
an expression of a political point of view. The posters and the website are designed both to rally
political support for the views espoused by defendants, and to intimidate plaintiffs and others like
them into desisting abortion-related activities. This political agenda may not be to the liking of
many people -- political dissidents are often unpopular -- but the speech, including the
intimidating message, does not constitute a direct threat because there is no evidence other than
the speech itself that the speakers intend to resort to physical violence if their threat is not
heeded.Id. at 1092-93. In the present case, the indictment does not allege that defendant
obtained the information about Juror A improperly. Further, {2009 U.S. Dist. LEXIS 45}although
Juror A undoubtedly found the posting of his/her name and address unsettling, for the reasons
stated above, the speech cannot be criminalized. 16
{638 F. Supp. 2d 952} In United States v. Carmichael, 326 F. Supp. 2d 1267, 1272 (M.D. Ala. 2004),
the government sought a protective order prohibiting the defendant, charged with drug offenses,
from operating a website containing -- beneath the word "wanted" in large red letters — the names
and likeness of agents and informants involved in the case, along with a request for information
about them. The government alleged that the site constituted harassment of witnesses, contrary to
18 U.S.C. §§ 1512 & 1514, and sought an {2009 U.S. Dist. LEXIS 47}order limiting him to posting
information in the case record. Id. at 1273. The government argued that the site encouraged
retaliation against witnesses, discouraged witnesses from coming forward and hindered undercover
officers. Id. at 1273-74. Two informants depicted on the site testified that they felt apprehensive, and
agents testified that due to an "atmosphere of intimidation" other potential witnesses had declined to
cooperate in the case. Id. at 1275.
The court acknowledged that § 1514 authorized it to issue the requested order but noted that the
First Amendment limited its authority. Id. at 1279. It then considered the posted language and the
context in which the defendant created the site. Id. at 1280-81. The court first noted that the
defendant had posted no threats and in fact had disclaimed any intent to threaten. Id. at 1281. It then
compared the defendant's statements to those in United States v. Khorrami, 895 F.2d 1186, 1189
(7th Cir. 1990), which also involved a wanted poster. In Khorrami, the court of appeals affirmed the
defendant's conviction for violating 18 U.S.C. § 876, which prohibits the mailing of threatening
communications. Khorrami mailed to the Jewish National {2009 U.S. Dist. LEXIS 48}Fund ("JNF") a
"poster-like paper that state[d] at its top 'Wanted for crimes against humanity and Palestinians for
fifty years.'" Id. at 1189. The poster featured photographs of Israeli political figures, disfigured with

lygcases

16

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-iso13888084

swastikas and epithets, and the statements "His blood need," "Must be killed," and "Execute now!"
next to some of the photos. Id. In addition, Khorrami repeatedly called the JNF, leaving obscene and
threatening telephone messages, and he mailed it a threatening letter. Id. at 1188-90. Applying an
objective, reasonable person standard, the Khorrami court held that, in light of the defendant's other
actions, "there was more than sufficient evidence to support the jury's conclusion that [the
defendant's] 'wanted poster' constituted a 'true threat.'" Id. at 1193.
The Carmichael court noted that the posts under its consideration were not nearly as threatening as
the wanted poster in Khorrami. The defendant's site did not refer to killing, execution or blood and
contained no disfigured photographs or epithets. Nor did the defendant contact individuals {638 F.
Supp. 2d 953} featured on his site. Id. at 1281-82. The court acknowledged that the term
"informant," which the defendant used, had a negative {2009 U.S. Dist. LEXIS 49}connotation, but
stated that:
The First Amendment, however, does not prohibit name-calling. The First Amendment protects
"vehement, caustic, and sometimes unpleasantly sharp attacks" as well as language that is
"vituperative, abusive, and inexact." Watts, 394 U.S. at 708. Further, the First Amendment
protects such speech even when it is designed to embarrass or otherwise coerce another into
action. NAACP v. Claiborne Hardware Co., 458 U.S. 886, 910, 102 S. Ct. 3409, 73 L. Ed. 2d
1215 (1982). Thus, "threats of vilification or social ostracism" are protected by the First
Amendment and outside the reach of § 1512. Id. It is only when speech crosses the line
separating insults from "true threats" that it loses its First Amendment protection./d. at 1282.
Similarly, in the present case, while clearly identifying Juror A, defendant's posts contain no
threat. And, defendant's derogatory comments about Juror A's sexual orientation and attitude
towards race are protected.
The Carmichael court proceeded to consider context, first contrasting the case before it with PPCW.
Unlike in PPCW, the defendant in Carmichael did not create his website after a string of murders and
violence linked to similar publications. Id. at 1284. The court {2009 U.S. Dist. LEXIS 50}also
considered the broader context of violence against informants in drug cases, stating: "Viewed in light
of the general history of informants being killed in drug conspiracy cases and the evidence of a
drug-conspiracy and other criminal activity in this case, looks more like a threat. Indeed it may be
that it is only this context that gives the site a threatening meaning." Id. at 1285.
Nevertheless, it is important to recall that the inquiry here is whether a reasonable person would
view Carmichael's website as a serious expression of an intention to inflict bodily harm, not
whether the site calls to mind other cases in which harm has come to government informants,
not whether it would be reasonable to think that Carmichael would threaten an informant, and not
whether Carmichael himself is somehow threatening. Context can help explain the website's
meaning, but it is the website that is the focus of the court's inquiry. Although the broad social
context makes the case closer, the background facts described above are too general to make
the Carmichael case site a "true threat."/d. at 1285 (internal citations and quote marks omitted).
Most relevant to the present {2009 U.S. Dist. LEXIS 51}case, the Carmichael court also considered
whether, even if the site did not contain a threat, it encouraged others to harm those depicted. Id. at
1286.
The problem with this argument is that [it] implicates the Supreme Court's stringent "incitement"
doctrine. Brandenburg v. Ohio, 395 U.S. 444, 447, 89 S. Ct. 1827, 23 L. Ed. 2d 430 (1969).
Brandenburg stands for the proposition that, as a general rule, "the 'constitutional guarantees of
free speech and free press do not permit a State to forbid or proscribe advocacy of the use of
force or of law violation." Id.; see also NAACP v. Claiborne Hardware Co., 458 U.S. 886, 927,

lygcases

17

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All fights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-f 11-

13888084

102 S. Ct. 3409, 73 L. Ed. 2d 1215 (1982) ("mere advocacy of the use of force or violence does
not remove speech from the protection of the First Amendment"). To fall outside the First
Amendment's protection, advocacy of violence must be "directed to inciting or producing
imminent lawless action and {638 F. Supp. 2d 954} [be] likely to incite or produce such action."
Brandenburg, 395 U.S. at,447. There is no evidence that Carmichael's site meets the imminency
requirement of Brandenburg. Indeed, in Planned Parenthood, Judge Kozinski in dissent noted
that there was so little chance of proving that the posters and website in that case met the
imminency requirement {2009 U.S. Dist. LEXIS 52}in Brandenburg that the plaintiffs did not
even raise the argument. 290 F.3d at 1092 n.5 (Kozinski, J., dissenting). Thus, the court cannot
proscribe Carmichael's site as constitutionally unprotected advocacy of violence.Id. at 1287. The
court also found the case analogous to Claiborne Hardware:
Like Evers, Carmichael has used language with a threatening connotation, and, as with Evers,
there is no evidence that he has authorized, ratified, or directly threatened acts of violence. If
Evers's literal threat - "If we catch any of you going in any of them racist stores, we're going to
break your damn necks," -- was not outside the First Amendment's protection, it is hard to see
how Carmichael's use of language with at most only non-specific threatening connotations could
be unprotected.Id. at 1288 (internal citations and quote marks omitted).
The Carmichael court acknowledged that the case involved the internet, and that some
commentators had suggested that the internet's unique features made information posted on- line
more threatening. Id. at 1288 (citing articles). The court nevertheless found the site protected:
First, notwithstanding the commentary cited above, the Supreme Court has {2009 U.S. Dist.
LEXIS 53}held that speech on the internet is subject to no greater or lesser constitutional
protection than speech in more traditional media. Reno, 521 U.S. at 870. Second, the general
rule in the case law is that speech that is broadcast to a broad audience is less likely to be a "true
threat," not more. United States v. Bellrichard, 994 F.2d 1318, 1321 (8th Cir.1993)
("correspondence .. . delivered to a person at home or at work is somewhat more likely to be
taken by the recipient as a threat than is an oral statement made at a public gathering"); Planned
Parenthood, 290 F.3d at 1099 (Kozinski, J., dissenting) ("[Statements communicated directly to
the target are much more likely to be true threats than those ... communicated as part of a
public protest."). Thus, to the extent that the government's concern is that Carmichael's website
will be seen by a lot of people, that fact makes the site look less like a "true threat," not more.ld.
at 1288-89.
Finally, the court considered that while the defendant had a First Amendment interest in publicizing
his trial and criticizing the prosecution, his posts of the names and photographs of witnesses might
not constitute political advocacy or involve {2009 U.S. Dist. LEXIS 54}a matter of social importance.
Id. at 1290. Nevertheless, the court concluded that because speech is presumptively protected by
the First Amendment and because the government had failed to demonstrate that the defendant's
speech fell within an excepted category, the site was protected. Id. I reach the same result here. The
posting of personal information about an individual involved in a judicial proceeding, even under
circumstances that are intimidating or unsettling, cannot, absent a true threat or an incitement to
■ imminent lawless action, be criminalized consistent with the First Amendment.
In Sheehan v. Gregoire, 272 F. Supp. 2d 1135, 1139 (W.D. Wash. 2003), the court considered a
statute providing:
{638 F. Supp. 2d 955} A person or organization shall not, with the intent to harm or intimidate,
sell, trade, give, publish, distribute, or otherwise release the residential address, residential
telephone number, birthdate, or social security number of any law enforcement-related,

lygcases

18

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-132-

13888084

corrections officer-related, or court-related employee or volunteer, or someone with a similar
name, and categorize them as such, without the express written permission of the employee or
volunteer unless specifically exempted by {2009 U.S. Dist. LEXIS 55}law or court order.The
plaintiff in Sheehan operated a website, , which criticized police officers. In response to the
statute quoted above, he removed personal identifying information about law enforcement
officers, corrections officers and court employees and volunteers from his site, and then
challenged the statute under the First Amendment. Id.
The defendants first defended the statute as proscribing threats. The court rejected the argument:
[0]n its face, the statute does not purport to regulate true threats or any other proscribable mode
of speech, but pure constitutionally-protected speech. Defendants cite no authority for the
proposition that truthful lawfully-obtained, publicly-available personal identifying information
constitutes a mode of constitutionally proscribable speech. Rather, disclosing and publishing
information obtained elsewhere is precisely the kind of speech that the First Amendment
protects. Bartnicki v. Vopper, 532 U.S. 514, 527, 121 S. Ct. 1753, 149 L. Ed. 2d 787.Id. at
1141-42 (footnote omitted). The defendants cited no historical or anecdotal evidence indicating
that the disclosure of personal identifying information had a long and pernicious history as a
signal of impending {2009 U.S. Dist. LEXIS 56}violence, like the cross burning at issue in
Virginia v. Black, which might enable the court to regard it as a true threat. The court rejected the
notion that revealing names, addresses and phone numbers, coupled with a subjective intent to
intimidate, could transform pure speech into a true threat. Id. at 1143.
The defendants next argued that the statute only banned speech lacking public significance and
served the important state interests of preventing harassment and retaliation. Id. at 1144. Citing
Florida Star, the court rejected this argument, finding that the plaintiffs website, a vehicle of mass
communication, was analytically indistinguishable from a newspaper, and that it communicated
truthful, lawfully-obtained, publicly-available personal identifying information with respect to a matter
of public significance -- police accountability. Id. at 1145. The court noted that Florida Star also
involved a concern with physical safety, that of crime victims who could be targeted for retaliation if
their names become known to their assailants. Id. at 1145 (citing 491 U.S. at 537). The Justices
nevertheless held that "punishing the press for its dissemination of information which is {2009 U.S.
Dist. LEXIS 57}already publicly available is relatively unlikely to advance the interests in the service
of which the State seeks to act." Florida Star, 491 U.S. at 535. Finally, the court noted that, under the
statute, for-profit commercial entities remained perfectly free to sell, trade, give, or release personal
identifying information to third-parties who intend to harm or intimidate individuals purportedly
protected by the statute, making the statute significantly under-inclusive. Sheehan, 272 F. Supp. 2d
at 1145.
The court thus determined that the statute prohibited constitutionally protected speech based on
content, and that its "with the intent to harm or intimidate" provision did not alleviate the
constitutional problem. {638 F. Supp. 2d 956} The court rejected the defendants' contention that the
statute could be analyzed as a time, place and manner regulation aimed at the "secondary effects" of
the speech, i.e. the potential harm to and intimidation of those covered by the law.
[Ljisteners' reactions to speech or the motive impact of speech on its audience is not a
secondary effect. As plaintiff notes, defendants' rationale would allow the secondary effects
doctrine to completely swallow the First Amendment. It {2009 U.S. Dist. LEXIS 58}would grant
the government a dangerous tool to proscribe any speech based solely on the government's
speculation as to what harms might result from its utterance./d. at 1146 (internal citations
omitted).

lygcases

19

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-133-

13888084

Defendants assert a compelling state interest in protecting law enforcement-related, corrections
officer-related, and court-related employees from harm and intimidation.... Any third party
wishing to actually harm or intimidate these individuals may freely acquire the personal
identifying information from myriad public and private sources, including for-profit commercial
entities, without entering the scope of the statute. Yet, defendants argue, "Even the fact that an
individual may gather the same information and use that information to harm someone does not
detract from the state's compelling interest behind prohibiting the publication or distribution of
such information with the intent to harm or intimidate." Thought-policing is not a compelling state
interest recognized by the First Amendment./cf. at 1147 (internal citations and footnotes omitted).
The court concluded:
As the foregoing makes clear, the First and Fourteenth Amendments preclude the State of
Washington from proscribing {2009 U.S. Dist. LEXIS 59}pure speech based solely on the
speaker's subjective intent. Likewise, there is cause for concern when the legislature enacts a
statute proscribing a type of political speech in a concerted effort to silence particular speakers.
Defendants' position is troubling. Defendants boldly assert the broad right to outlaw any speech whether it be anti-Semitic, anti-choice, radical religious, or critical of police -- so long as a jury of
one's peers concludes that the speaker subjectively intends to intimidate others with that speech.
This brash stance strikes at the core of the First Amendment and does not comport with
constitutional requirements. "[Pjutting [certain individuals] in harm's way by singling them out for
the attention of unrelated but violent third parties is [conduct] protected by the First Amendment."
Planned Parenthood, 290 F.3d at 1063. .. .
This Court does not intend to minimize the real fear of harm and intimidation that law
enforcement-related, corrections officer-related, and court-related employees, and their families,
may experience. [J]udges and court employees are common targets of threats and harassment.
However, we live in a democratic society founded on fundamental (2009 U.S. Dist. LEXIS
60}constitutional principles. In this society, we do not quash fear by increasing government
power, proscribing those constitutional principles, and silencing those speakers of whom the
majority disapproves. Rather, as Justice Harlan eloquently explained, the First Amendment
demands that we confront those speakers with superior ideas:
The constitutional right of free expression is powerful medicine in a society as diverse and
populous as ours. It is designed and intended to remove governmental restraints from the arena
of public discussion, putting the decision as to what views shall be voiced largely into the hands
of each {638 F. Supp. 2d 957} of us, in the hope that use of such freedom will ultimately
produce a more capable citizenry and more perfect polity and in the belief that no other
approach would comport with the premise of individual dignity and choice upon which our
political system rests. To many, the immediate consequence Of this freedom may often appear
to be only verbal tumult, discord, and even offensive utterance. These are, however, within
established limits, in truth necessary side effects of the broader enduring values which the
process of open debate permits us to achieve. That the air {2009 U.S. Dist. LEXIS 61}may at
times seem filled with verbal cacophony is, in this sense not a sign of weakness but of strength.
We cannot lose sight of the fact that, in what otherwise might seem a trifling and annoying
instance of individual distasteful abuse of a privilege, these fundamental societal values are truly
implicated./d. at 1150 (quoting Cohen, 403 U.S. at 24-25).
Finally, in City of Kirkland v. Sheehan, No. 01-2-09513-7, 2001 WL 1751590, at *1 (Wash. Super. Ct.
May 10, 2001), the defendants also operated a website critical of law enforcement personnel, which
contained political argument and disclosed the names, addresses, birth dates, telephone numbers,

lygcases

20

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-134-

13888084

Social Security numbers ("SSNs") and other personal information about law enforcement personnel
and their relatives. The defendants offered to remove the information pertaining to police officers in
any jurisdiction that would "admit" that police officers are public officials, agree to accept service for
officers, and created a "civilian review board" having a certain composition. The court found this
"willingness to trade back plaintiffs' privacy for certain policy changes could be argued to bear some
resemblance to blackmail." Id. at *5.
Nevertheless, {2009 U.S. Dist. LEXIS 62}the court found the site (aside from its publication of
SSNs) protected: 17
Upon the facts presented to date in this case, reprehensible though some may find defendants'
proposed bargain to be (trading privacy for policy changes), it is clear that defendants' utterances
are indeed political speech. In NAACP v. Claiborne Hardware Co., 458 U.S. 886, 929, 102 S. Ct.
3409, 73 L. Ed. 2d 1215 (1982), the Supreme Court ruled that publicly reading the names of
persons who disregarded a boycott and threatening that they would be "disciplined" and saying
"we're gonna break your damn neck" could be viewed as intending to create a fear of violence
but was not sufficient to grant relief because the speaker had not thereby "authorized, ratified or
directly threatened" acts of violence.
In {2009 U.S. Dist. LEXIS 63}this case, as in numerous others, in the absence of a credible
specific threat of harm, the publication of lawfully obtained addresses and telephone numbers,
while certainly unwelcome to those who had desired a greater degree of anonymity, is
traditionally viewed as having the ability to promote political speech. Publication may arguably
expose wrongdoers and/or facilitate peaceful picketing of homes or worksites and render other
communication possible.{638 F. Supp. 2d 958} Id. at *6.1 reach the same result here. The
government does not allege that defendant unlawfully obtained the information about Juror A,
and an intimidating context alone does not remove the protection of the First Amendment.
IV. CONCLUSION
For {2009 U.S. Dist. LEXIS 64}the reasons set forth above, the allegations in the indictment are
insufficient to state a violation of § 373. Defendant's posts about Juror A do not solicit violence; the
alleged corroborating circumstances set forth in the indictment are insufficient to transform the posts
regarding Juror A into a solicitation of violence and also fail to provide the strong corroboration
necessary for a lawful prosepution under § 373 and the First Amendment. Finally, all of the relevant
recent case law supports the conclusion that the indictment does not charge a punishable offense.
The indictment must be dismissed. 18
THEREFORE, IT IS ORDERED {2009 U.S. Dist. LEXIS 66}that defendant's motion to dismiss is
GRANTED.
Dated at Milwaukee, Wisconsin, this 21st day of July, 2009.
Isl Lynn Adelman
LYNN ADELMAN
District Judge
Footnotes

1

lygcases

21

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-135-

13888084

Title 18 U.S.C. § 373 provides: "Whoever, with intent that another person engage in conduct
constituting a felony that has as an element the use, attempted use, or threatened use of physical
force against property or against the person of another in violation of the laws of the United States,
and under circumstances strongly corroborative {2009 U.S. Dist. LEXIS 2}of that intent, solicits,
commands, induces, or otherwise endeavors to persuade such other person to engage in such
conduct, shall be imprisoned ...The indictment in the present case alleges that defendant
solicited another to violate 18 U.S.C. § 1503, which prohibits harming a juror on account of his jury
service.
2
The government has charged defendant in the Western District of Virginia with interstate
transmission of threatening communications, in violation of 18 U.S.C. § 875(c).
3
The parties agree that I am not bound by any previous rulings in the case.
4
As the present case illustrates, when the government prosecutes a person based on the content of
his speech, the inquiry into the sufficiency of the indictment is often intertwined with the First
Amendment analysis. See Alkhabaz, 104 F.3d at 1493 (affirming district court's dismissal of
indictment on the ground that it failed to allege {2009 U.S. Dist. LEXIS 16}a violation of the statute,
as construed by the court, rather than based on the First Amendment).
5
Also unprotected are so-called "fighting words," i.e. those which "by their very utterance inflict injury
or tend to incite an immediate breach of the peace." Chaplinsky v. New Hampshire, 315 U.S. 568,
572, 62 S. Ct. 766, 86 L. Ed. 1031 (1942). Because the speech at issue here was "not 'directed to the
person of the hearer,"' Cohen v. California, 403 U.S. 15, 20, 91 S. Ct. 1780, 29 L. Ed. 2d 284 (1971)
(quoting Cantwell v. Connecticut, 310 U.S. 296, 309, 60 S. Ct. 900, 84 L. Ed. 1213 (1940)), this
exception does not apply in the present case.
6
In Hale, the Seventh Circuit agreed with this statement of the elements of the offense. 448 F.3d at
982 ("In order to meet its burden of proof on the solicitation count, the government had to establish
(1) with 'strongly corroborative circumstances' that Hale intended for Tony Evola to arrange the
murder of Judge Lefkow; and (2) that Hale solicited, commanded, induced, or otherwise tried to
persuade Evola to carry out the crime."). The Hale court likewise quoted with approval the examples
of circumstances strongly corroborative of intent set forth in Senate Report 97-307. Id. at 983.
7
See also S. Rep. 98-225, P.L. 98-473 (Aug. 4, 1983) ("The Committee wishes to makes it clear that
what is involved is legitimately proscribable criminal activity, not advocacy of ideas that is protected
by the First Amendment right of free speech.").
8
Although I base this decision on the allegations contained in the indictment, the parties advise that
no actual harm befell Juror A; he/she simply received text messages from unknown sources.

9
Defendant did not post information about Juror A during the Hale trial. Thus, I need not balance the
fair administration of justice against the right to freedom of expression. Cf. Turney v. Pugh, 400 F.3d
1197 (9th Cir. 2005) (distinguishing Wood and like cases in a jury tampering prosecution).

lygcases

22

■£)..2Q2.LMatthew Bender-&.Companv. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-136?

13888084

10
The indictment alleges that defendant at times expressed satisfaction that others committed violent
acts. However, the "approval of past violence by others cannot be made illegal consistent with the
First Amendment." Planned Parenthood of ColumbiaAA/illamette, Inc. v. American Coalition of Life
Activists (hereafter PPCW), 290 F.3d 1058, 1091 n.3 (9th Cir. 2002) (Kozinski, J., dissenting) (citing
Hess v. Indiana, 414 U.S. 105, 108-09, 94 S. Ct. 326, 38 L. Ed. 2d 303 (1973); Brandenburg v. Ohio,
395 U.S. 444, 447, 89 S. Ct. 1827, 23 L. Ed. 2d 430 (1969); Edwards v. South Carolina, 372 U.S.
229, 237-38, 83 S. Ct. 680, 9 L. Ed. 2d 697 (1963); Noto v. United States, 367 U.S. 290, 297-99, 81
S. Ct. 1517, 6 L. Ed. 2d 836 (1961)).

11
The present case involves an alleged solicitation rather than a threat; however, the cases often
analyze such disclosures under both the true threat and incitement doctrines.

12
In PPCW, Judge Kozinski characterized the Claiborne Hardware holding as follows: "In other words,
even when public speech sounds menacing, even when it expressly calls for violence, it cannot form
the basis of liability unless it (2009 U,S. Dist. LEXIS 34}amounts to incitement or directly threatens
actual injury to particular individuals." 290 F.3d at 1095 (Kozinski, J., dissenting).

13
The majority later reiterated that the Nuremberg Files website, standing alone, was protected,
"because the First Amendment does not preclude calling people demeaning or inflammatory names,
or threatening social ostracism or vilification to advocate a political position." Id. at 1086.

14
The Seventh Circuit's opinion in Hale is consistent with this construction of § 373. First, Hale solicited
a specific person, Tony Evola (who turned out to be an FBI informant), to murder Judge Lefkow.
Prior to the solicitation, Hale had designated Evola as his "head of security" and leader of the "White
{2009 U.S. Dist. LEXIS 42}Berets," the World Church's "'elite' fighting force." Id. at 976. Thus, Hale
stood in a position of direct influence or authority over Evola, and despite the equivocation in some
of Hale's statements Evola clearly understood Hale to be soliciting Judge Lefkow's murder. Id. at
983. Second, the government presented a detailed course of dealings between Hale and Evola
leading up the solicitation, which corroborated defendant's intent that Evola commit the crime. Id. at
976-79, 983-84. The court did uphold the admission of Hale's statements praising the shooting
rampage of Benjamin Smith, also a Hale follower, but only because those statements provided
context for Hale's dealings with Evola. In other words, Hale's statements about Smith were relevant
to the solicitation at issue, which also involved a follower. Id. at 985. Even so, the court of appeals
considered admission of such statements "a close question." Id. at 986. The court did not endorse
the wholesale introduction of previous threats or intemperate statements made by Hale relating to
individuals unconnected to Evola as corroborative of Hale's intent. Although I need not address the
issue in ruling on the instant motion to dismiss, (2009 U.S. Dist. LEXIS 43}l note that defendant has
also filed a motion under Fed. R. Evid. 404(b) seeking to exclude virtually all of the evidence the
government seeks to use as strong corroboration of his intent.

15
Professor Volokh suggests that speech communicated entirely to people who the speaker knows will
use it for criminal purposes has virtually no First Amendment value and therefore may be banned
without interfering with valuable uses of speech. Volokh, supra, at 1142-43. On the other hand, the
case for restricting speech is much weaker when the speaker distributes material that has valuable
as well as harmful uses and has no meaningful way of limiting his audience to benign users. Id. at

lygcases

23

■©-2021-Matthew Bendcr<fe-Gompany,Inc., a.member.of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-137-

13888084

1176. When speech is communicated to the public at large, most listeners will focus on the social
criticisms, rather than being moved to commit crimes. Id. n.194. Professor Volokh further notes that
the law of aiding and abetting and crime facilitation developed in cases where the defendant knew
that he was helping a particular person commit a crime. Id. n.147.

16
As Judge Berzon explained in her dissent in PPCW:
Where there is no threat, explicit or implicit, that the speaker or someone under his or her control
intends to harm someone, a statement inducing fear of physical harm must be either (1) a
prediction or warning of injury, or (2) an inducement or encouragement of someone else to cause
the injury. The former is, as Judge Kozinski suggests, clearly entitled to protection under the First
Amendment as either informative or persuasive speech. The latter kind of statement may or may
not be protected. Whether it is or not must be governed by the strict inducement standard of
Brandenburg if the more than fifty years of contentious development of the protection of
advocacy of illegal action is not to be for naught./d. at 1106. Judge Berzon further explained that
one can
justify a somewhat different standard forjudging the constitutionality of a restriction upon threats
than for a restriction upon inducement of violence or other illegal action. There is a difference for
speech-protective purposes {2009 U.S. Dist. LEXIS 46}between a statement that one oneself
intends to do something and a statement encouraging or advocating that someone else do it. The
latter will result in harmful action only if someone else is persuaded by the advocacy. If there is
adequate time for that person to reflect, any harm will be due to another's considered act. The
speech itself, in that circumstance, does not create the injury, although it may make it more likely.
The Supreme Court has essentially decided that free expression would be too greatly burdened by
anticipatory squelching of advocacy which can work harm only indirectly if at all .Id. As stated, the
indictment in the present case charges a solicitation not a threat.

17
Public dissemination of information like social security numbers and computer passwords "is unlikely
to facilitate any political activity (unlike, say, publicly distributing abortion providers' or boycott
violators' names, which may facilitate lawful shunning and social pressure, or even their addresses,
which may facilitate lawful residential picketing and parading)." Volokh, supra, at 1146. Thus,
dissemination of such information may be distinguished from the publication of names and
addresses.

18
Professor Volokh argues that speech which potentially facilitates crime should be banned only (1)
when the speech is said to a few people who the speaker knows are likely to use it to commit a crime
or to escape punishment; (2) when the speech, even though broadly published, has virtually no
noncriminal uses (e.g., it reveals social security numbers or computer passwords); and (3) when the
speech facilitates extraordinarily serious harms, such as nuclear or biological attacks. Volokh, supra,
at 1217. Because the speech at issue in the present case is clearly protected under existing {2009
U.S. Dist. LEXIS 65}First Amendment law, I need not adopt Professor's Volokh's categories.
Nevertheless, his analysis of how crime facilitating speech may be prosecuted consistent with the
Constitution is cogent. As he also helpfully explains, courts should avoid deciding these types of
cases based on their own view as to whether there is a legitimate public interest in the information
being disseminated, as such an inquiry will likely involve opining on whether the court agrees with
the individual about whom the disclosure is made. Volokh, supra, at 1172 ("Restricting the speech on
the ground that the names aren't matters of 'legitimate public concern' is thus restricting speech

lygcases

24

"©202 l'MatthewBendcr-&Company,-inc.Tamembcr of the LcxisNcxis. Group. -All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-138-

13888084

based on a judgment about which side of this contested political debate is right-something judges
generally ought not be doing."). Thus, the fact that I might regard as noble the struggle of Mississippi
blacks for equal treatment, and defendant's views as reprehensible, is irrelevant to the constitutional
analysis. Nevertheless, there is irony in the fact that defendant's right to spread a message of white
supremacy has, in large part, been secured by the efforts of African-Americans to obtain civil rights.

lygcases

25

<a 7fl71 Mafthpw Hpnrlfr as- ( nmpanv Inc, a memher ofThBferisNexis-Group.-Ali-rights reserved-Use, of. this product .is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

-139-

13888084

APPENDIX A

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

*

18 USC §373

35

*

18 0SC §1503

36

*

28 USC §2241

37

*

28 USC §2255

39

*

US Const Art I §9 C 12

41

-34-

\

§ 373. Solicitation to commit a crime of violence
i

A

(a) Whoever, with intent that another person engage in conduct constituting a felony that has as, an .
\ element the use, attempted use, or threatened use of physical force against property pr against the
person of another in violation of the laws of the United States, and under circumstances strongly
corroborative of that intent, solicits, commands, induces, or otherwise endeavors to persuade such other
person to engage in such conduct, shall be imprisoned not more than one-half the maximum term of
imprisonment or (notwithstanding section 3571 [18 USCS § 3571]) fined not more than one-half of the
maximum fine prescribed for the punishment of the crime solicited, or both; or if the crime solicited is
1 punishable by life imprisonment or death, shall be imprisoned for not more than twenty years.
V

-/ 1

)

(b) It is an affirmative defense to a prosecution under this section that, under circumstances
manifesting a voluntary and complete renunciation of his criminal intent, the defendant prevented the
commission of the crime solicited. A renunciation is not "voluntary and complete” if it is motivated in
whole or in part by a decision to postpone the commission of the crime until another time or to substitute
another victim or another but similar objective. If the defendant raises the affirmative defense at trial, the
defendant has the burden of proving the defense by a preponderance ofthe evidence.
(c) It is not a defense to a prosecution under this section that the person solicited could not be
convicted of the crime because he lacked the state of mind required for its commission, because he was
incompetent or irresponsible, or because he is immune from prosecution or is not subject to prosecution.

HISTORY:
Added Oct. 12, 1984, P. L. 98-473, Title II, Ch X, Part B, § 1003(a), 98 Stat. 2138; Nov. 10,
1986, P. L. 99-646, § 26, lOO Stat. 3597; Sept. 13, 1994, P; L. 103-322, Title“XXXIII, §
330016(2)(A), 108 Stat. 2148.
.
•
t.

5^

J

tI

f

J

1

uses
n

1

;

\

Jg-2.03JLMatth?iv_Bfiid|Jr--^-Cnnir!<nyi-lr'r. fl m''rrlhpr nf the 1 cxiSNexis Group. All rights reserved. Use.of_thisj)roducUs_subiect_tQjliejBStilcJkms_
and terms and conditions ofthe Matthew Bender Master Agreement, j
'
I
l

i.

-35-

f

1

t

13888084

•j

§ 4001. Limitation on detention; control of prisons
(a) No citizen shall be imprisoned or otherwise detained by the United States except pursuant to an
Act of Congress.

(b) (1) The control and management of Federal penal and correctional institutions, except military or
naval institutions, shall be vested in the Attorney General, who shall promulgate rules for the government
thereof, and appoint all necessary officers and employees in accordance with the civil-service laws, the
Classification Act, as amended and the applicable regulations.
(2) The Attorney General may establish and conduct industries, farms, and other activities and
classify the inmates; and provide for their proper government, discipline, treatment, care, rehabilitation,
and reformation.

HISTORY:
Act June 25, 1948, ch 645, § 1, 62 Stat. 847; Sept. 25, 1971, P. L. 92-128, § 1(a), (b), 85 Stat.
347.

uses

1

and terms and conditions of the Matthew Bender Master Agreement.

-37-

13888084

§ 2241. Power to grant writ
(a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, the district
courts and any circuit judge within their respective jurisdictions. The order of a circuit judge shall be
entered in the records of the district court of the district wherein the restraint complained of is had.
(b) The Supreme Court, any justice thereof, and any circuit judge may decline to entertain an
application for a writ of habeas corpus and may transfer the application for hearing and determination to
the district court having jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a prisoner unless—
(1) He is in custody under or by color of the authority of the United States or is committed for trial
before some court thereof; or
(2) He is in custody for an act done or omitted in pursuance of an Act of Congress, or an order,
process, judgment or decree of a court or judge of the United States; or
(3) He is in custody in violation of the Constitution or laws or treaties of the United States; or
(4) He, being a citizen of a foreign state and domiciled therein is in custody for an act done or
omitted under any alleged right, title, authority, privilege, protection, or exemption claimed under the
commission, order or sanction of any foreign state, or under color thereof, the validity and effect of which
depend upon the law of nations; or
(5) It is necessary to bring him into court to testify or for trial.
(d) Where an application for a writ of habeas corpus is made by a person in custody under the
judgment and sentence of a State court of a State which contains two or more Federal judicial districts,
the application may be filed in the district court for the district wherein, such person is in custody or in the
district court for the district within which the State court was held which convicted and sentenced him and
each of such district courts shall have concurrent jurisdiction to entertain the application. The district
court for the district wherein such an application is filed in the exercise of its discretion and in furtherance
of justice may transfer the application to the other district court for hearing and determination.

(e) (1) No court, justice, or judge shall have jurisdiction to hear or consider an application for a writ of
habeas corpus filed by or on behalf of an alien detained by the United States who has been determined
by the United States to have been properly detained as an enemy combatant or is awaiting such
determination.
(2) Except as provided in paragraphs (2) and (3) of section 1005(e) of the Detainee Treatment
Act of 2005 (10 U.S.C. 801 note), no court, justice, or judge shall have jurisdiction to hear or consider
' any other action against the United States or its agents relating to any aspect of the detention, transfer,
treatment, trial, or conditions of confinement of an alien who is or was detained by the United States and
has been determined by the United States to have been properly detained as an enemy combatant or is

uses

1

© 2021 Matthew Bender & Company, Inc., a
and terms and conditions of the Matthew Bender Master Agreement.

-38-

13888084

awaiting such determination.

HISTORY:
Act June 25, 1948, ch 646, 62 Stat. 964; May 24, 1949, ch 139, § 112, 63 Stat. 105; Sept. 19,
1966, P. L. 89-590, 80 Stat. 811; Dec. 30, 2005, P. L. 109-148, Div A, Title X, § 1005(e)(1),
119 Stat. 2742; Jan. 6, 2006, P. L. 109-163, Div A, Title XIV, § 1405(e)(1), 119 Stat. 3477; Oct.
17, 2006, P. L. 109-366, § 7(a), 120 Stat. 2635; Jan. 28, 2008, P. L. 110-181, Div A, Title X,
Subtitle F, § 1063(f), 122 Stat. 323.

\

')

I

uses

2

© 2021 Matthew Bender & Company, Inc., a
and terms and conditions of the Matthew Bender Master Agreement.

i

-39-

i

13888084
i-

§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the right
to be released upon the ground that the sentence was imposed in violation of the Constitution or laws of
the United States, or that the court was without jurisdiction to impose such sentence, or that the sentence
was in excess of the maximum authorized by law, or is otherwise subject to collateral attack, may move
the court which imposed the sentence to vacate, set aside or correct the sentence.
(b) Unless the motion and the files and records of the case conclusively show that the prisoner is
entitled to no relief, the court shall cause notice thereof to be served upon the United States attorney,
grant a prompt hearing thereon, determine the issues and make findings of fact and conclusions of law
with respect thereto. If the court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack, or that there has
been such a denial or infringement of the constitutional rights of the prisoner as to render the judgment
vulnerable to collateral attack, the court shall vacate and set the judgment aside and shall discharge the
prisoner or resentence him or grant a new trial or correct the sentence as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the production of the prisoner
at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the motion as from the
final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section, shall not be entertained if it appears that the applicant has failed
to apply for relief, by motion, to the court which sentenced him, or that such court has denied him relief,
unless it also appears that the remedy by motion is inadequate or ineffective to test the legality of his
detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The limitation period shall
run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental action in
violation of the Constitution or laws of the United States is removed, if the movant was prevented from
making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme Court and made retroactively applicable to cases on
collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have been
discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act [21 USCS § 848], in all
proceedings brought under this section, and any subsequent proceedings on review, the court may

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use ol this product is subject to the restrictionsand terms and conditions of the Matthew Bender Master Agreement.

-40",

13888084

appoint counsel, except as provided by a rule promulgated by the Supreme Court pursuant to statutory
authority. Appointment of counsel under this section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 [28 USCS § 2244]
by a panel of the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and convincing evidence that no reasonable factfinder would
have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.

HISTORY:
Act June 25, 1948, ch 646, 62 Stat. 967; May 24, 1949, ch 139, § 114, 63 Stat. 105; April 24,
1996, P. L. 104-132, Title I, § 105, 110 Stat. 1220; Jan. 7, 2008, P. L. 110-177, Title V, § 511,
121 Stat. 2545.

USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use offfiis product is'subjecrto-theTcstrictionsand terms and conditions of the Matthew Bender Master Agreement.

-41-

13888084

Cl 2. Habeas corpus.
The Privilege of the Writ of Habeas Corpus shall not be suspended, unless when in Cases of
Rebellion or Invasion the public Safety may require it.

HISTORY; ANCILLARY LAWS AND DIRECTIVES
Explanatory notes:
This clause is popularly known as the “Suspension Clause”.

/

r

USCONST

1

and terms and conditions of the Matthew Bender Master Agreement.

— 42— f

13888084

